<html>
<title> - COLUMBIA RIVER TREATY</title>
<body><pre>[Senate Hearing 113-224]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-224

 
                         COLUMBIA RIVER TREATY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

CONSIDER THE DRAFT REGIONAL RECOMMENDATION REGARDING THE COLUMBIA RIVER 
                                 TREATY

                               __________

                            NOVEMBER 7, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources


                  U.S. GOVERNMENT PRINTING OFFICE
87-345                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Caan, George, Executive Director, Washington Public Utilities 
  Districts Association, Olympia, WA.............................    27
Haller, Gregory, Conservation Director, Pacific Rivers Council...    44
Karier, Thomas, Washington State Council Member, Northwest Power 
  and Conservation Council.......................................    16
Kem, Brigadier General John, Commander, U.S. Army Corps of 
  Engineers, Northwestern Division, Member, U.S. Entity for the 
  Columbia River Treaty..........................................     5
Meira, Kristin, Executive Director, Pacific Northwest Waterways 
  Association (PNWA), Portland, OR...............................    40
Moffett, Joel, Chairman, Columbia River Inter-Tribal Fish 
  Commission.....................................................    10
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Oliver, Stephen, Vice President, Generation Asset Management, 
  Bonneville Power Administration, Coordinator, U.S. Entity for 
  the Columbia River Treaty......................................     8
Semanko, Norm, Executive Director & General Counsel, Idaho Water 
  Users Association, Boise, ID...................................    35
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                                APPENDIX

Responses to additional questions................................    55


                         COLUMBIA RIVER TREATY

                              ----------                              


                       THURSDAY, NOVEMBER 7, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. The Energy and Natural Resources Committee 
will come to order.
    Today the committee is going to look at the future of the 
Columbia River Treaty and what it means for the Pacific 
Northwest and the United States' relationship with Canada.
    The Columbia River is the lifeblood of my region, the 
Pacific Northwest. It's one of our region's most imposing 
natural features at more than 1,200 miles long. Along the way 
it provides a massive amount of the Northwest's power supply, 
habitat and flows for fish, water for irrigation and is a 
crucial passage for shipping.
    The Treaty has served both nations well for decades. But 
after nearly 50 years it is time to strike a better bargain. 
The Treaty allows the United States and Canada to unilaterally 
terminate most of the Treaty provisions after September 16, 
2024 provided 10 year notice is given. Consequently, the first 
opportunity for either country to provide notice of termination 
is September 2014.
    In response Bonneville and the Corps are reviewing the 
Treaty and plan to deliver a final recommendation to the State 
Department in December 2013. Options include essentially the 
status quo, notice of termination, negotiated changes within 
the current Treaty framework, or a new or amended Treaty.
    Much has changed since the early 1960s when the Treaty was 
negotiated. Three of the 4 Snake River dams had not even been 
built yet. None of the bedrock environmental laws that protect 
the quality of life in the Pacific Northwest had yet been 
enacted. Virtually no one thought of the possibility that our 
salmon could be endangered. There wasn't even an Endangered 
Species Act at that time.
    The Treaty was drafted based on the outdated assumption 
that U.S. hydro generation would be operated to maximize power 
production. That has not been the case for decades. Instead, 
river operations are often dictated by the need to comply with 
the Endangered Species Act, the Clean Water Act, and other U.S. 
statutes. This change also significantly reduces the actual 
value of power benefits from Canada, that under the Treaty, the 
U.S. is required to pay Canada for. These excess payments to 
Canada come out of the pockets of hard-hit Northwest ratepayers 
at a cost of hundreds of millions of dollars each and every 
year.
    Another difference is that when the Treaty was negotiated, 
the American Indian community was simply not at the table. 
Today, based upon their Treaty rights and other laws, the 
Columbia Basin tribes are rightfully involved in the 
deliberations regarding system operations to protect salmon and 
other natural resources.
    Finally, 50 years ago climate change was not on anybody's 
screen. Now climate change appears to be having fundamental 
impacts on our hydro system. For example, the snow pack in the 
Basin that effectively served as water storage for summer 
months is now diminishing as our average temperature rises. 
This obviously creates challenges for our region that must be 
managed.
    The fundamental challenge to our region, that our region 
faces regarding the future of the Treaty, is how do we respond 
to 50 years of change in a manner that maximizes system 
benefits including hydropower, flood control, protection of 
fish and wildlife, water use, navigation and recreation. That 
is going to be the primary focus of this hearing and our 
discussions. There will be bipartisan discussions here in the 
committee.
    The Draft Treaty recommendation developed by Bonneville, 
the Corps, and the tribes, with input from other stakeholders 
is a good start. However, as the region moves forward, I think 
there are some essential goals and questions that we need to 
focus on.
    First, any changes to the Treaty should benefit regional 
ratepayers, not increase their rates. Striking a new power 
benefit sharing deal with Canada based on the actual benefits 
to both nations is the way to proceed. Experts in the region 
calculate that Northwest ratepayers could save hundreds of 
millions of dollars if the payments to Canada were recalculated 
based on the power our region actually receives.
    Of course, we're going to have a job of convincing the 
Canadians that it is also in their interest to revisit this 
issue.
    On the topic of ratepayers, the future cost of preserving 
the current level of flood control benefits, in my view, should 
not be paid by ratepayers. Instead funding for flood control 
ought to be in the form of appropriations and that was the case 
when the Treaty was adopted.
    Third, I support addressing what has come to be known as 
``Ecosystem Function.'' I think it ought to be addressed as 
part of the Treaty process. I read the concept to mean actions 
to benefit the natural resources of the Columbia Basin, 
particularly our salmon. I believe it's appropriate to address 
fish and other resources in any agreement to redo the Treaty.
    However, the scope and cost of measures to address fish and 
other resources must be clearly defined and limited. There are 
no blank checks. The decisions we make to support fish and 
wildlife must also take into account current salmon recovery 
efforts under the Endangered Species Act and other laws that 
cost Bonneville ratepayers roughly $700 million a year. 
Whatever is done needs to be in concert with existing efforts, 
not be in duplication or in conflict.
    Fourth, I believe the threat of climate change is one of 
the premier challenges of our time. It could have dire effects 
on Columbia Basin flows. So it's important to have an 
appropriate amount of flexibility to respond.
    At the same time it's important to work to preserve the 
hydro system itself, in part because of the climate benefits of 
emission-free hydro power, and this is something Senator 
Murkowski and I spend a lot of time on; we're really a joint 
force.
    We got that hydro power bill passed early on. Hydro power 
is responsible for 60 percent of the clean power in this 
country and making sure that we preserve the climate benefits 
of emission-free hydro power has been something that is 
important to this committee. It's been important for a long 
time. It's especially important on the watch of Senator 
Murkowski and myself.
    Finally, the Treaty matters have to be resolved in the 
Pacific Northwest. They cannot be subject to top/down 
micromanagement from Washington, DC.
    I'm looking forward to our witnesses. We've got an 
excellent group today. They're going to shed plenty of light on 
the various complex issues that I've touched on.
    A lot of our witnesses have traveled a long distance to be 
with us. We appreciate that. I especially appreciate Senator 
Murkowski, who has got a full morning, being here. We always, 
whenever we talk about Pacific Northwest matters, like to note 
that Senator Murkowski went to Willamette University. So we are 
proud of her roots to the great State of Oregon.
    Senator Murkowski whatever comments you'd like to make are 
appropriate. I look forward to working with you, as we've done 
on all the other matters for the committee.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. In addition to 
my academic roots there in Oregon, I think I should, maybe it's 
a conflict of interest that my grandparents and great 
grandparents were actually steamboat captains on the Columbia 
River at one point in time a long, long, long time ago. So we 
go back a ways with the Columbia.
    The Chairman. We will take any little strategic 
advancement.
    [Laughter.]
    Senator Murkowski. I figured you probably might. I figured 
you might.
    But thank you, Mr. Chairman for convening this oversight 
hearing on the future of the Columbia River Treaty. I, too, 
welcome our distinguished witnesses. I look forward to learning 
of your perspectives on how we proceed with treaty 
negotiations.
    You know, Mr. Chairman, I should note we're sitting here in 
the Energy Committee. We don't often have the opportunity to 
kind of delve into these international relations. But the 
committee seems to be a little bit on a roll of late. Just last 
month we successfully passed legislation out of the Senate, I 
might add in the midst of a government shut down, we passed the 
U.S. Mexico Transboundary Agreement that will help us move 
toward greater North American energy security. Then, of course 
today, we're examining this transboundary water agreement with 
our neighbors to the North or if you're from Alaska, neighbors 
to the East, a treaty that's been in place for almost 50 years 
now.
    The Congressional Research Service has observed that the 
United States and Canada are ``joined at the well'' when it 
comes to energy. In this case our countries are very much 
joined at the Basin, the Columbia River Basin where we share 
the management of a significant water resource.
    After historic flooding in the Northwest back in the 1940s 
we came together to negotiate how best to coordinate flood risk 
management and optimize hydro power production. The resulting 
Columbia River Treaty, ratified back in 1964, called for dam 
construction and increased reservoir storage in the Basin for 
our shared benefit. At that time though, negotiators did not 
consider the regions tribal resources or account for fishery 
interests. As our Nation now contemplates the continuation of 
this treaty, perhaps with a new ecosystem function, we must 
work together to find a balance between those and competing 
priorities such as the Chairman has mentioned, flood control, 
navigation, water supply and recreation, all while we maintain 
flexibility for the Pacific Northwest region.
    I do recognize that today's hearing is timely. Beginning in 
September 2014 either nation can provide a 10-year notice that 
it intends to unilaterally terminate the Treaty. To that end 
both the Bonneville Power Administration and the Army Corps of 
Engineers in their role as the U.S. entity, have been reviewing 
the Treaty and have produced a draft recommendation with input 
from many of the stakeholders that are now before us.
    The U.S. entity will make its final recommendation to the 
State Department this December on whether to continue, 
terminate or amend the Treaty's provisions.
    So it's my hope, Mr. Chairman, that with this oversight 
hearing and the stakeholder testimony that we'll receive later, 
it will fully inform the U.S. entity's work on the Columbia 
River Treaty. Ideally we'll find a path forward with our 
Canadian friends to update and modernize this Treaty so that it 
can continue to work for the benefit of both of our countries.
    Thank you again, Mr. Chairman. I look forward to hearing 
from our panel this morning.
    The Chairman. Thank you, Senator Murkowski. I appreciate 
your excellent statement and also noting the Transboundary 
Agreement. I mean we clearly have interests here in the 
international arena where energy and international security and 
foreign relations intersect. The fact that it went through the 
U.S. Senate 100 to nothing, I hope that will help our 
colleagues in the other body find a way to move expeditiously 
on the bill. So I look forward to working with you on these 
issues and appreciate your statement.
    We have with us as witnesses Brigadier General John S. Kem 
of Portland. We're glad that the Brigadier is here.
    Mr. Stephen Oliver, Vice President, Generation Asset 
Management with Bonneville Power, we welcome you.
    Mr. Joel Moffett, Chairman, Columbia River Inter-Tribal 
Fish Commission, Mr. Moffett, welcome.
    Mr. Tom, I hope I'm pronouncing this right, Karier? Karier, 
great. Council Member, State of Washington with the Power and 
Conservation Council, Spokane.
    Gentlemen, we'll make your prepared statements a part of 
the record in their entirety. I know that there is always, 
almost a biological compulsion to just read every single word. 
But this is going to be a hectic morning. We've got votes. If 
you can just take 5 minutes or so and summarize your principle 
concerns, that would be very helpful.
    Brigadier General John S. Kem, welcome.

 STATEMENT OF BRIGADIER GENERAL JOHN KEM, COMMANDER, U.S. ARMY 
CORPS OF ENGINEERS, NORTHWESTERN DIVISION, MEMBER, U.S. ENTITY 
                 FOR THE COLUMBIA RIVER TREATY

    General Kem. Good morning, Mr. Chairman, Senator Murkowski.
    As you know I'm the Commander of the Northwestern Division 
of the Corps of Engineers and a member of the United States 
entity. The Chair of the U.S. entity is Elliot Mainzer, the BP 
Acting Administrator and he could not be here today. As you 
mentioned, Steve Oliver is here with us today instead.
    Steve is one of the two co-coordinators along with Mr. Dave 
Ponganis, who is behind me, who for the last 2 years, 3 years 
really, has been working the policy and the coordination for 
this effort. I have to say they've done a great job on a very 
complex process of collaborating.
    Together we are pleased to be before the committee to 
discuss the draft regional recommendation we provided in 
September regarding the future of the Treaty after post 2024 
and the still ongoing regional review process to inform the 
final recommendation.
    From the outset of the Treaty, the coordinated operations 
between both countries for the storage and release of water 
across the international border has been a backbone for the 
Pacific Northwest in managing flood risk and to support the 
region's hydro power system. For the past 50 years those 
coordinated operations for the storage and release of water 
have been essential in assuring public safety and continuing to 
facilitate regional development and the regional economy.
    As the Chairman mentioned the original treaty language, 
beginning in September 2014 we enter that window of opportunity 
for the first time for the United States or even either country 
to make a decision in that regard. The Department of State 
asked the United State's entity to develop a consensus regional 
recommendation to begin the national policy consideration 
process. It has been a multiyear process with countless 
engagements, outreach efforts and public comment opportunities.
    The message that we have heard the most during the 
multiyear regional review process is there seems to be a and is 
very clear, strong, regional interest to modernize the Treaty 
to bring about a better, more balanced benefit to the region. 
Like almost any issue there is certainly an eclectic mix of 
interests and differing viewpoints on how to achieve them.
    I would like to emphasize that the U.S. entity is not 
recommending adoption of some interest views ahead of another 
interest group's views or in some way trying to decide exactly 
how the region should end up. We are seeking a strong, regional 
consensus. Toward that end, as the Chairman mentioned, in 
September we released a draft version for public comment 
attempting to recognize key interests, particularly those 
interests of a wide array of constituencies.
    Since that draft release we have continued to work to 
refine a final version based on extensive public comments, 
which numbered literally in the thousands.
    For example, over the last 2 weeks we've also done 
additional work with G to G Engagements meeting with the 
various Governors. Mr. Mainzer and I have met with the 
Governors of Idaho, Montana, Oregon and Washington, just in the 
past 2 weeks.
    In addition, we met in government to government 
consultations with 16 tribes in the last few weeks. Coupled 
with the feedback from all of our various meetings with key 
stakeholder groups, involving the power group, interests, 
irrigation, navigation and ecosystem, it is clear to me that 
we're getting much closer. The region is certainly coalescing 
around recommending a modernized framework for the Treaty.
    Probably the one area that is still most sensitive rests 
with the question about the regional recommendation about 
ecosystem function as a primary purpose. From my perspective, 
and I want to make it clear this was not done to promote one 
set of interests over another, or we seek to a disadvantage or 
negatively impact one interest group, rather we added it to the 
draft to incorporate the context of how we actually conduct 
coordinated operations with Canada today. In the end, the 
Treaty is really about the flow of water across the border and 
how the two countries want to coordinate that.
    The fact is we coordinate with Canada for the storage and 
release of water for 3 reasons at this moment, period.
    We do it for flood control.
    We do it for hydro power.
    We do it for ecosystem functionality.
    So it makes sense to recommend formalizing those operations 
within the framework of the Treaty to capture the evolution 
that's happened since the Treaty was first written in 1964.
    In conclusion I think there's a growing regional consensus 
to recommend modernizing the Treaty and achieve a win/win/win 
outcome for the Pacific Northwest region of the United States.
    I thank you for the opportunity to highlight a few topics. 
I'll be glad to answer questions at the appropriate time.
    [The prepared statement of General Kem and Mr. Oliver 
follows:]

Prepared Statement of Brigadier General John Kem, Commander, U.S. Army 
Corps of Engineers, Northwestern Division, Member, U.S. Entity for the 
 Columbia River Treaty, and Stephen Oliver, Vice President, Generation 
Asset Management, Bonneville Power Administration, Coordinator, United 
              States Entity for the Columbia River Treaty

    Good morning, Mr. Chairman. I am Brigadier General John Kem, and I 
serve as Commander of the Northwestern Division of the United States 
Army Corps of Engineers and the Member of the United States Entity. By 
Executive Order the Chair of the U.S. Entity is the BPA Acting 
Administrator, currently Elliot Mainzer, who is not able to be with us 
today. In his stead Steve Oliver is with me today. Steve is the BPA 
Vice President of Generation Asset Management and one of the policy 
leads for operational implementation of the Treaty.
    Together, we are pleased to be before the Committee to discuss the 
Draft Regional Recommendation regarding the future of the Columbia 
River Treaty after 2024 and the regional review process underway to 
inform a final recommendation. We appreciate the interest this 
Committee is showing toward this matter. We should note that our 
testimony reflects the status of the process we are coordinating in the 
region on this matter and does not represent any final Administration 
recommendations.
    The Columbia River Treaty is a successful example of a 
transboundary water treaty and serves as a model for other 
international water coordination agreements. Over the years since the 
Columbia River Treaty entered into force in 1964, it has provided 
benefits for the Pacific Northwest and both countries. It has enabled 
us to coordinate streamflows, and thereby helped us manage flood risks 
and generate hydropower. The U.S. Entity also uses the flexibilities 
within the Treaty to work with our Canadian counterparts to implement 
operations designed specifically to benefit the Columbia Basin 
ecosystem in both countries.
    To ensure we can successfully convey the interests of the region, 
the U.S. Entity, through the regional review process known as the 
Columbia River Treaty 2014/2024 Review, has engaged throughout the 
region and is striving to garner support for a regional recommendation.
    The message we have most heard during the multi-year regional 
review process is that it is in the best interest of the region to 
modernize operations under the Treaty to bring about better and more 
balanced benefits. As we are developing a regional recommendation, the 
U.S. Entity has listened closely to the many diverse voices in the 
region about how to reflect their respective interests in the 
recommendation.
    While many in the region appreciate the benefits that have flowed 
from the Treaty, there is widespread concern in the U.S. that the 
method included in the Treaty for calculating Canada's share of the 
Treaty's power benefits is not equitable. There is interest in 
providing flood risk reduction for public safety through agreement with 
Canada on how we can implement continued, mutually agreeable, 
coordinated flood risk management operations.
    There is also a strong desire by many to more formally incorporate 
ecosystem-based functions into the implementation of the Treaty and to 
recognize evolving interests in other water management issues in the 
Columbia River Basin. There is also growing interest in mechanisms that 
are more adaptive, flexible, and resilient to successfully meet the 
challenges presented by increased demand for water and the uncertainty 
of climate change impacts on Columbia River flow volume, timing, and 
variability in the next several decades.
    We believe that through our extensive collaboration efforts we have 
assisted the region to find a middle ground that attempts to recognize 
and balance all of these viewpoints and interests in the region. We 
believe that it is possible to simultaneously:

  <bullet> Reduce the U.S. obligation, paid by Northwest ratepayers, to 
        return power to Canada that reflects the actual value of 
        coordinated power operations with Canada.
  <bullet> Define a workable approach to flood risk management that 
        will continue to provide a similar level of flood risk 
        management to protect public safety and the region's economy;
  <bullet> Contribute to a more comprehensive ecosystem-based function 
        approach throughout the Columbia River Basin watershed by 
        formalizing and providing greater certainty for ecosystem 
        actions already being undertaken so that they complement the 
        existing ecosystem investments in the region; and
  <bullet> Pursue operational flexibility necessary to respond to 
        climate change, and other future potential changes in system 
        operations while continuing to meet authorized project purposes 
        such as irrigation and navigation.

    In essence, the Draft Regional Recommendation seeks to further 
improve on operations that are already in place, while also making them 
more adaptable to address current and future needs of the region. 
Through this approach, we hope to achieve a collective net ``win'' for 
the Pacific Northwest on all fronts.
    While we believe that regional interests are coalescing around this 
approach, we understand that there have been some questions, 
particularly regarding formalizing inclusion of ecosystem based 
functions, and whether such inclusion will create an additional cost 
for the U.S. and thus Pacific Northwest ratepayers. The Treaty provides 
a process for the U.S. and Canadian Entities to coordinate the storage 
and release of transboundary waters from the Treaty reservoirs for the 
mutual benefit of both countries. Initially, power and flood risk 
management were the basis for this coordination. However, over the past 
20 years we also have worked with Canada to mutually agree on storing 
and releasing water for both Canadian and U.S. ecosystem purposes.
    The U.S. Entity's view is that it is appropriate to formalize and 
gain more certainty for these operations. At the same time, we 
recognize that over the past 20 years both the Canadian and U.S. 
management and use of this mutual water resource has become more 
focused over time on in-stream and out-of-stream uses, while fulfilling 
our commitments for power production and flood risk management. The 
U.S. Entity acknowledges the need for continued support for these 
existing purposes and intends to ensure that the incorporation of 
ecosystem-based functions would not prevent the region from achieving 
its objective of rebalancing and reducing U.S. power costs and would 
retain an acceptable level of flood risk.
    Although we believe our draft recommendation will represent a 
positive balance of regional interests, we recognize that it will still 
concern certain stakeholders. To address those concerns, we recommend 
including mechanisms to promote further dialogue and minimize the risk 
of unintended consequences. These mechanisms include proposing a number 
of domestic processes through which U.S. interests can address complex 
issues that are currently beyond the purview of the Treaty.
    Throughout the Columbia River Treaty 2014/2024 Review process, the 
U.S. Entity has consulted extensively with regional sovereigns, 
stakeholders, and the public. A key component of the review process has 
been collaboration with the Sovereign Review Team (SRT), which 
comprises designated representatives from the states of Washington, 
Oregon, Idaho, and Montana, Federal agencies, and Pacific Northwest 
Tribal Governments. The Entity also conducted ongoing government-to-
government consultation meetings with the Pacific Northwest tribes 
represented on the SRT, as well as with the Confederated Tribes of the 
Grande Ronde. In addition, the U.S. Entity has heard from and 
understands the perspectives of the regional stakeholders through 
individual meetings, workshop sessions, panel discussions and 
presentations, and public comment periods. Our goal throughout this 
process has been to be inclusive and transparent with sovereigns, major 
river interests, and the general public.
    These regional discussions led to the U.S Entity's release of an 
initial working draft of a recommendation for regional interests to 
review in June 2013. The U.S. Entity conducted 14 public listening 
sessions around the Pacific Northwest to inform and collect public 
comment on the working draft recommendation. The U.S. Entity also 
worked closely with regional stakeholders and the SRT to hear 
viewpoints and obtain specific input concerning the working draft 
recommendation. On September 20, 2013, the U.S. Entity released the 
Draft Regional Recommendation for additional review and comment. As 
described earlier, the Draft Regional Recommendation reflects 
sovereign, stakeholder, and public input and seeks a collective ``win'' 
for the region.
    As part of the review of the Draft Regional Recommendation, we held 
another five public meetings during October throughout the region. We 
also continue to meet and work with numerous parties interested in the 
Treaty's operation. The Administration has asked us to deliver the U.S. 
Entity's recommendation by the end of this year. Accordingly, our goal 
is to deliver to the U.S. Department of State a final Regional 
Recommendation that enjoys broad regional support in December 2013. The 
U.S. Entity recognizes the importance of continuing to engage all 
interested regional parties as we work toward that goal.
    Mr. Chairman, this concludes our prepared remarks. We would be 
happy to respond to any questions from the Committee.

    The Chairman. General Kem, thank you. It's very helpful. 
We'll have some questions in a moment.
    Mr. Oliver, welcome.

 STATEMENT OF STEPHEN OLIVER, VICE PRESIDENT, GENERATION ASSET 
MANAGEMENT, BONNEVILLE POWER ADMINISTRATION, COORDINATOR, U.S. 
              ENTITY FOR THE COLUMBIA RIVER TREATY

    Mr. Oliver. Thank you, Mr. Chairman, Senator Murkowski. 
Thank you. I'm Stephen Oliver, Vice President of Generation 
Asset Management for the Bonneville Power Administration and 
Co-Coordinator for the Columbia River Treaty.
    Over the years the Columbia River Treaty has provided 
significant benefits for the people of the Pacific Northwest 
and both Canada and the United States. It has helped provide 
assured stream flows that support the regions hydro power 
system. It serves as a crucial background of the Pacific 
Northwest economy. It has assisted in effectively managing 
flood risk to insure public safety and facilitate regional 
development.
    Over the past 20 years we have also used operational 
flexibilities within the Treaty to work with our Canadian 
counterparts to implement operations designed specifically to 
benefit the Columbia Basin ecosystem in both countries. These 
actions include an annual agreement to move one million acre 
feet of water from winter releases to spring and early summer 
period. In addition through non-treaty storage agreements we 
have designed mutually beneficial operations that better 
support the ecosystem and power production in dry years.
    We are now presented with a potential opportunity to do 
even better.
    In 2024, even though the Treaty continues, certain aspects 
change and this gives us the chance to have a conversation with 
Canada on how we might want to modify the Treaty operations 
after 2024 to improve the benefits to the region in a way that 
reflects today's conditions and values and better prepares us 
for the future. So that is why we have been working on the 
Treaty review process to analyze the options for the Treaty 
post 2024 and collect regional perspectives to assist us in 
developing a recommendation that with broad regional support 
will advise the U.S. State Department on potential concepts to 
consider negotiating with Canada to modernize the Treaty.
    We believe that it's possible for power, flood risk 
management and ecosystem interest to all benefit from a 
modernized and rebalanced Columbia River Treaty.
    Let me expand on these points.
    First, the method included in the Treaty for calculating 
Canada's share of power benefits generated in the U.S. as a 
result of our coordinated operations under the Treaty is now 
outdated and no longer equitable resulting in excessive cost to 
U.S. ratepayers. It was premised on a future where thermal 
power plants would have been significantly developed in the 
U.S. to meet low growth. That has not materialized.
    The historic record shows that the original Treaty 
negotiators expected the U.S. Government. Excuse me, U.S. 
payment of Canadian entitlement in the form of power benefits 
delivered to Canada from the U.S. Columbia River hydro 
generators to have been very small by today.
    The reality is that the Pacific Northwest utility 
ratepayers are still burdened by very high continuing payments 
of power to Canada. This needs to be changed.
    Second, while we believe that regional interest are 
coalescing around the idea of including ecosystem based 
functions in the operations post 2024 the Treaty as a primary 
purpose. We understand that there has been some questions 
regarding this potential change and whether such inclusions 
would create additional cost to Pacific Northwest ratepayers. 
It is our perspective that the Treaty fundamentally is an 
agreement to coordinate the storage and release of water from 
the Treaty reservoirs for the mutual benefit of our countries.
    Initially power and flood risk were the only two reasons we 
did this coordination. However, over the past 20 years we have 
worked with Canada under the Treaty to mutually agree on 
storing and releasing water for both Canadian/U.S. ecosystem 
purposes. The U.S. entity's view is that is appropriate to 
formalize and gain more certainty for these operations.
    However, I want to be clear that while we support the 
inclusion of ecosystem based operations in the Treaty, the 
implementation of these functions should not prevent the region 
from achieving this objective of rebalancing and reducing U.S. 
power costs and maintaining an acceptable level of flood risk 
in the Basin.
    Third, fundamentally we're dealing with a water management 
allocation issue. There is no new source of water just the 
debate about the timing for the storage and release of water 
that will flow out of the Canadian portion of the system. 
Although there are parties that will argue for a more dramatic 
shift and water flows back to a natural or normative hyetograph 
in support of the ecosystem. We are not supportive of such 
significant change because we have seen through our analyses 
that it would result in significant hydro power losses and the 
higher flood risk for the region.
    That being said, we have also seen there are potential 
ecosystem benefits of gaining assurance of the spring flow 
augmentation and drier strategies that we have developed to 
date.
    We also could see a benefit in light of potential future 
climate changes for these types of strategies.
    In conclusion, it is possible for flood risk management, 
power and ecosystem benefits to all gain from a modernized and 
rebalanced Columbia River Treaty. This win/win/win can result, 
if we work together, to rebalance and reduce the U.S. power 
return obligation to Canada, define a rational flood risk 
management program that maintains an acceptable level of flood 
risk for the U.S. and incorporate the ecosystem based function 
operations that have been occurring by mutual agreement under 
the Treaty.
    All these positives can happen while still assuring Canada 
of a fair and reasonable payment for the value of the 
coordinated operations of the system that is provided across 
the Basin.
    Thank you for this opportunity to show our perspectives on 
this important topic.
    The Chairman. Thank you.
    Mr. Moffett.

   STATEMENT OF JOEL MOFFETT, CHAIRMAN, COLUMBIA RIVER INTER-
                     TRIBAL FISH COMMISSION

    Mr. Moffett. Good morning, Chairman Wyden, Senator 
Murkowski. My name is Joel Moffett. I'm the Vice Chairman of 
the Nez Perce Tribe and Chairman of the Columbia River Inter-
Tribal Fish Commission.
    It's my honor and privilege to provide this testimony on 
behalf of the 15 tribes of the Columbia River Basin which in 
itself is a worthy story of consensus and collaboration.
    I want to recognize Senator Murkowski of the Senate Indian 
Affairs Committee. This issue has profound ramifications to 
tribes as you will see. We look forward to working with your 
committee as well.
    Our tribes began organizing in 2008 in this historic 
opportunity to modernize the Columbia River Basin, excuse me, 
how the Columbia River Basin is managed. As a coalition of the 
15 tribes we have our own distinct trust and treaty obligations 
that are negotiated with the United States. We each hold close 
the sacredness of the river and her resources to our people. We 
each hold high the place of the salmon and all first foods to 
our way of life.
    Nobody has lived with the consequences of the dams in 50 
years of the Columbia River Treaty more than our tribes. Nobody 
will live with the consequences of the next 50 years more than 
us.
    From these truths the Columbia Basin tribes created the 
Common Views document in 2010. Through Basin wide partnership 
and collaboration the tribes seek to manage the Columbia River 
for today's modern values not the outdated values of the 1960s 
when the original Columbia River Treaty was signed.
    To prepare us for these upcoming Treaty discussions the 
Columbia Basin Tribal representatives connected several tours 
and site visits from the mouth of the Columbia River all the 
way up to the Canadian headwaters. We visited with Canadian 
residents at the invitation of First Nations in Canada and the 
Columbia Basin Trust. While the Treaty is often held up as a 
model of international water management, it is clear that the 
Treaty's implementation has produced winners and losers on both 
sides of the border.
    We've prevented occasional flooding in the lower Columbia 
River but this also damaged river health and created permanent 
floods behind numerous dams in many of the upper reaches. There 
is no doubt that the Treaty has yielded tragic consequences to 
many citizens of the Columbia River Basin.
    But despite this history the last 3 years have yielded a 
common consensus understanding. The Columbia River Treaty can 
and should be modernized. The 15 tribes are nearing support for 
the draft regional recommendation that was discussed earlier. 
More work and discussion remains though before full tribal 
support can be expressed.
    We remain confident, however, that there will be a broad 
consensus among sovereigns and stakeholders when the regional 
recommendation is delivered to the U.S. Department of State 
next month.
    Among the hallmarks of the draft regional recommendation is 
the addition of ecosystem function as a primary Treaty purpose, 
something the 15 tribes have championed. The inclusion of 
ecosystem function as a primary driver, co-equal to hydro power 
and flood control, is a key feature that will make the Columbia 
River Treaty truly a model of international water management. 
An improved ecosystem should be a shared benefit and obligation 
with Canada.
    Integration--integrated ecosystem function in a modernized 
treaty should include the following.
    One, restoration of fish passage and reintroduction of 
anadromous fish to historical areas.
    Two, modernized flood risk management that enhances spring 
and summer flows for a more normative river.
    Three, updated infrastructure and reconnected flood plans.
    Four, stabilization for Upper Basin reservoirs.
    A modernized Columbia River Treaty should also allow us to 
adapt to climate change, as the Chairman mentioned earlier. We 
need better forecasting techniques for changing precipitation 
and runoff scenarios.
    I believe that I can speak for all the sovereigns when I 
say that we have been seriously challenged to develop a broad 
regional consensus. We have definitely worked hard toward that 
consensus. We're not quite there yet, but are proud of the 
progress we have made to date and are confident we can get the 
job done.
    Without broad refill consensus, however, we run the risk of 
uncertainty. In the months ahead the tribes will be working 
right up until the regional recommendations delivery. During 
this time we anticipate close communication with your offices 
and all members of the Northwest Congressional Delegation.
    We appreciate your committee's oversight hearing at this 
time and how it will inform the Northwest Congressional 
Delegation and all of Congress before the regional 
recommendation is submitted to the U.S. Department of State.
    [The prepared statement of Mr. Moffett follows:]

  Prepared Statement of Joel Moffett, Chairman, Columbia River Inter-
                         Tribal Fish Commission

    Good morning Mr. Chairman. I am Joel Moffett, a citizen of the Nez 
Perce Tribe and an elected member of the Nez Perce Tribal Executive 
Committee. I am testifying before you today in my capacity as the 
Chairman of the Columbia River Inter-Tribal Fish Commission and on 
behalf of the 15 tribes in the Coalition of Columbia Basin Tribes. 
These 15 Columbia Basin Tribes have natural resource management 
authorities and responsibilities affected by the implementation of the 
Columbia River Treaty. There are 5 other tribes with interests in the 
basin that may be affected by the Columbia River Treaty; the U.S. 
Entity is consulting with them individually.
high level policy consensus based recommendation, no tribal alternative
    At the outset, I want to highlight the fact that the Columbia Basin 
Tribes are working with the U.S. Entity and the other regional 
sovereigns to finalize a high level, consensus based regional policy 
recommendation on the future of the Columbia River Treaty. This high 
level policy recommendation will be submitted to the U.S. Department of 
State by December 13, 2013. There is no technical analysis or 
recommendation to accompany this high level policy recommendation. 
Notwithstanding what may have been conveyed to you by others, the 
Columbia Basin Tribes do not have their own alternative technical 
recommendation or draft technical proposal for river and reservoir 
operations under the Treaty.

         NEED TO CONTINUE COLLABORATION OF REGIONAL SOVEREIGNS

    Over the course of the last three years, the Columbia Basin Tribes 
have collaborated with the U.S. Entity and the other regional 
sovereigns to complete three iterations of modeling and analysis of a 
wide variety of river and reservoir operations. This expansive modeling 
and analysis was completed so that the region would have a common 
understanding of the various results and potential impacts from 
modified operations. While the goal had been to fully integrate this 
wealth of knowledge into a technical document that would support the 
regional recommendation, that final step was not taken at the request 
of the State Department. Yet, the region's work is not complete--the 
regional sovereigns will need to continue their technical and policy 
collaboration in order to support the next phase--the State 
Department's consideration of the high level policy recommendation 
developed by the region.

               KEY ELEMENTS OF A REGIONAL RECOMMENDATION

    I do want to summarize what the Columbia Basin Tribes see as 
critical elements of the draft regional recommendation:

  <bullet> modernize the Columbia River Treaty by integrating 
        ecosystem-based function as a third primary purpose of the 
        Treaty, equal to the Treaty's obligations for the two countries 
        to coordinate hydropower generation and flood risk management; 
        Testimony of Joel Moffett November 7, 2013, page 3 of 7
  <bullet> enhance spring and summer flows while stabilizing reservoir 
        operations;
  <bullet> pursue the restoration of fish passage to historical 
        locations, I am including the tribes' issue paper on this 
        subject as part of this testimony;
  <bullet> pursue an assessment with Canada of potential alternatives 
        for post-2024 operations to meet flood risk management 
        objectives, including the possibility of using planned or 
        assured Canadian Storage, consistent with ecosystem function, 
        completing an infrastructure assessment and updating reservoir 
        management through a domestic process as necessary to 
        accomplish this objective; and,
  <bullet> rebalance the Canadian Entitlement.

    It will also be important that sufficient flexibility be built into 
the modernized Treaty so that operations can adapt to the impacts of 
climate change and other factors. We believe that all of the regional 
sovereigns are coalescing around these broad policy goals and we look 
forward to working with the U.S. Department of State to advance these 
goals through discussions with Canada, the province of British Columbia 
and the First Nations.

                        BACKGROUND ON THE TREATY

    As you know, the Columbia River Treaty was signed and ratified by 
the United States in 1961 and, after the adoption of a protocol, was 
ratified by Canada and implemented by the two countries in 1964. Under 
the Treaty, Canada agreed to build three storage dams and coordinate 
the operation of these new storage facilities with the U.S. 
hydroelectric power supply system in order to optimize hydroelectric 
power production and to provide coordinated flood control benefits.
    The U.S. Entity will tell you that the Treaty is a model of 
international cooperation for the management of a transboundary river 
system--and for the limited purposes of optimizing hydropower 
generation and providing coordinated flood risk management, it is--but 
the Treaty is not currently designed to provide for ecosystem-based 
functions. I do want to point out that the Treaty increased the impacts 
of hydropower to communities by moving the flood upriver, these impacts 
began before the Treaty with the earlier constriction of dams on the 
mainstem in the United States that affected the cultural and natural 
resources of the Columbia Basin Tribes, First Nations and other 
communities all the way up to the Basin headwaters in Montana, Idaho 
and British Columbia.

       NO PRIOR AND INFORMED CONSENT OF TRIBES AND FIRST NATIONS

    In developing this coordinated system operation under the Treaty 
with Canada, the U.S. did not consult with the Columbia Basin Tribes 
nor consider the effect of the Treaty on our cultural and natural 
resources, yet the Treaty has had far reaching impacts on our cultural 
and natural resources that continue to this day. Not only were the 
Columbia Basin tribes not consulted during the Treaty's negotiation, 
the tribes have also been excluded from its governance and 
implementation. The Treaty does not include considerations of critical 
tribal cultural resources. The coordinated power and flood control 
system created under the Treaty degraded rivers, First Foods, natural 
resources, and tribal customs and identities. The coordinated flood 
risk management plan, while providing substantial protections for 
Portland and Vancouver, permanently moved the floods upriver through 
the creation and maintenance of large storage reservoirs. The Treaty 
currently limits what can be accomplished with Treaty and non-Treaty 
water agreements to address these issues and meet tribal resource 
priorities.

COLUMBIA RIVER TREATY 2014/2024 REVIEW AND THE SOVEREIGN PARTICIPATION 
                                PROCESS

    When the U.S. Entity initiated the Columbia River Treaty 2014/2024 
Review, the tribes recognized the opportunity to work with the U.S. 
Entity to correct past mistakes and improve upon the Treaty. The 
Columbia Basin Tribes began meeting in January 2008 to identify their 
common issues and concerns with the Treaty and its implementation, 
while also meeting with the U.S. Entity to develop a better 
understanding of the Treaty's implementation. By February 2010, the 
tribes' several meetings and workshops on the Treaty led to the 
development of the ``Columbia Basin Tribes' Common Views on the Future 
of the Columbia River Treaty''--known as the tribes' Common Views 
document*. I have included a copy of this document with my testimony. I 
have also provided you with a map** of the Basin that shows you the 
location of the fifteen tribes, as well as that of the First Nations in 
Canada that have asserted interests affected by the Treaty's 
implementation in Canada.
---------------------------------------------------------------------------
    * Document has been retained in committee files.
    ** Map has been retained in committee files.
---------------------------------------------------------------------------
  DEVELOPING THE SOVEREIGN PARTICIPATION PROCESS FOR THE TREATY REVIEW

    The Columbia Basin Tribes met with the U.S. Entity in July 2010 to 
discuss their issues and concerns with the Treaty and how best they 
could collaborate with the U.S. Entity to address these issues through 
the Treaty Review. At that meeting, the U.S. Entity agreed to work with 
the Columbia Basin Tribes, other federal agencies and the states to 
establish the Sovereign Participation Process for the Treaty Review. 
The Sovereign Participation Process is three-tiered: the first tier is 
government-to-government, where decisions are made regarding policy 
issues; the second tier is the Sovereign Review Team, where the 
regional sovereigns coordinate, discuss policy issues and provide 
guidance to the Sovereign Technical Team; and finally, the Sovereign 
Technical Team, which conducts the technical modeling and analysis.
    The Sovereign Participation Process also provided for expert policy 
and technical input from stakeholders, including presentations from 
expert panels on power, water supply and irrigation. Building upon the 
bilateral Phase I Report released by the U.S. and Canadian Entities in 
August 2009, the sovereigns completed three more iterations of modeling 
and analysis. As each of the three iterations of modeling and analysis 
was completed over the last three years, the U.S. Entity, with the 
support of the other sovereigns, took the lead on reporting out the 
results to stakeholders through a series of public meetings or 
``listening sessions'' held across the basin. These listening sessions 
provided cities, counties and other public representatives and 
stakeholders to ask questions and provide feedback.

                ADDITIONAL DETAIL ON ECOSYSTEM FUNCTION

    During the course of the discussions at government-to-government 
and Sovereign Review Team meetings, tribal representatives and staff 
were often asked what they meant by ``ecosystem-based function.'' 
Tribal leaders explained that since time immemorial, the rivers of the 
Columbia Basin have been, and continue to be, the life blood of the 
Columbia Basin Tribes. They went on to explain that Columbia Basin 
Tribes view the ecosystem of the Columbia Basin watershed as its 
ability to provide, protect and nurture cultural resources, traditions, 
values and landscapes throughout its' length and breadth. We hold that 
clean and abundant water that is sufficient to sustain healthy 
populations of fish, wildlife, and plants is vital to holistic concept 
of ecosystem-based function and life itself.
    The Tribes believe that a modernized Treaty needs to address the 
Columbia Basin using a watershed approach that integrates ecosystem-
based function, hydropower, and flood risk management on both sides of 
the border. The eleven years of technical studies that led to the 
negotiation of the Treaty focused on hydropower and flood risk 
management, the region now has the opportunity during the next phase of 
the Treaty Review to expand the scope of bilateral technical studies to 
encompass ecosystem as a third purpose.
    This was not done in the past and we are now dealing with a CRT 
that has not addressed the needs and rights of the peoples of the 
Columbia Basin whose cultural and natural resources have been affected 
by the Treaty's implementation. The Columbia Basin Tribes provided the 
U.S. Entity, other regional sovereigns and the Sovereign Review Team 
with a definition of ecosystem-based function. While this definition 
has been adopted by the tribal caucus for use in the Treaty Review 
process, it has not been adopted by the U.S. Entity. I have appended 
the definition to my testimony for your information and to provide 
context for future conversations about the Treaty moving forward.
    A restored, resilient and healthy watershed under a modernized 
Treaty will include ecosystem-based function as described by this 
definition. Again, this definition has not been adopted as part of the 
Treaty Review, nor has it been implicitly adopted by the U.S. Entity by 
the inclusion of ecosystem-based function in the draft regional 
recommendation, it has been put forward by the Columbia Basin Tribes as 
an aspirational definition for the Basin and to provide a context for 
further regional discussions.

                                CLOSING

    Mr. Chairman, over the next month, the Columbia Basin Tribes will 
work with the U.S. Entity, other regional sovereigns and stakeholders 
to resolve the remaining differences in the draft recommendation before 
it is submitted to the U.S. State Department. The Columbia Basin Tribes 
would be happy to answer any additional questions you might have about 
the tribes' views on the progress of the regional consensus based 
recommendation now, or in the future. We look forward to completing 
this phase of the Treaty Review with the U.S. Entity and then working 
with them and the other regional sovereigns as the State Department 
considers the regional recommendation.

  DEFINITION OF ECOSYSTEM-BASED FUNCTION ADOPTED BY THE COALITION OF 
                   COLUMBIA BASIN TRIBES IN JUNE 2013

    Since time immemorial, the rivers of the Columbia Basin have been, 
and continue to be, the life blood of the Columbia Basin tribes. 
Columbia Basin Tribes view ecosystembased function of the Columbia 
Basin watershed as its ability to provide, protect and nurture cultural 
resources, traditions, values and landscapes throughout its' length and 
breadth. Clean and abundant water that is sufficient to sustain healthy 
populations of fish, wildlife, and plants is vital to holistic 
ecosystem-based function and life itself. A restored, resilient and 
healthy watershed will include ecosystem-based function such as:

  <bullet> Increased spring and summer flows resulting in a more 
        natural hydrograph;
  <bullet> Higher and more stable headwater reservoir levels;
  <bullet> Restoring and maintaining fish passage to historical 
        habitats.
  <bullet> Higher river flows during dry years;
  <bullet> Lower late summer water temperature;
  <bullet> Reconnected floodplains throughout the river including a 
        reconnected lower river estuary ecosystem as well as reduced 
        salt water intrusion during summer and fall;
  <bullet> Columbia River plume and near shore ocean enhanced through 
        higher spring and summer flows and lessened duration of 
        hypoxia; and,
  <bullet> An adaptive and flexible suite of river operations 
        responsive to a great variety of changing environmental 
        conditions, such as climate change.

    Improved ecosystem-based function in the Columbia Basin Watershed 
is expected to result in at least:

  <bullet> Increased recognition, protection and preservation of tribal 
        first foods and cultural/sacred sites and activities. First 
        foods includes water, salmon, other fish, wildlife, berries, 
        roots, and other native medicinal plants.
  <bullet> An estuary with an enhanced food web and increased juvenile 
        fish survival;
  <bullet> Increases in juvenile and adult salmon survival;
  <bullet> Decreased mainstem travel time for migrating juvenile 
        salmon;
  <bullet> Increased resident fish productivity that provides stable, 
        resilient populations;
  <bullet> Increased wildlife productivity that provides stable, 
        resilient populations; and,
  <bullet> Salmon and other juvenile and adult fish passage to 
        historical habitats in the Upper Columbia and Snake River 
        basins, and into other currently blocked parts of the Columbia 
        River Basin.
                        Columbia Basin tribes\1\
---------------------------------------------------------------------------
    \1\ The Burns Paiute Tribe, the Coeur d'Alene Tribe, the 
Confederated Salish and Kootenai Tribes of the Flathead Nation, the 
Confederated Tribes of the Colville Reservation, the Confederated 
Tribes of the Umatilla Indian Reservation, the Confederated Tribes and 
Bands of the Yakama Nation, the Confederated Tribes of the Warm Springs 
Reservation of Oregon, the Cowlitz Indian Tribe, the Kalispel Tribe of 
Indians, the Kootenai Tribe of Idaho, the Nez Perce Tribe, the Fort 
McDermitt Paiute Shoshone Tribe, the Shoshone-Bannock Tribes of the 
Fort Hall Reservation, the Shoshone Paiute Tribes of the Duck Valley 
Indian Reservation, and the Spokane Tribe of Indians, with support from 
the Columbia River Inter-Tribal Fish Commission, Upper Columbia United 
Tribes, and the Upper Snake River Tribes tribal organizations have been 
working together to consider the effects and alternatives related to 
the Columbia River Treaty.
---------------------------------------------------------------------------
        COMMON VIEWS ON THE FUTURE OF THE COLUMBIA RIVER TREATY

                           February 25, 2010

    The present Columbia River power and flood control system 
operations are negatively affecting tribal rights and cultural 
interests throughout the Columbia Basin. The Columbia River Treaty is 
foundational to these operations.
    The Columbia River Treaty----

  <bullet> Was negotiated and continues to be implemented without 
        regard to the tribes' unique legal and political relationship 
        with the federal government.
  <bullet> Is narrowly designed for the benefit of power and flood 
        control.
  <bullet> Does not include ecological considerations for critical 
        tribal natural resources.
  <bullet> Does not include considerations of critical tribal cultural 
        resources.
  <bullet> Created a power and flood control system that degraded 
        rivers, First Foods, natural resources, and tribal customs and 
        identities.
  <bullet> Significantly affects tribal economies.
  <bullet> Excludes tribal participation in its governance and 
        implementation.
  <bullet> Limits what can be accomplished with non-Treaty agreements 
        to meet tribal resource priorities.

    The Columbia River Treaty is under review by the U.S. and Canadian 
governments for reconsideration in 2014. Reconsideration of the Treaty 
provides an opportunity for the tribes to seek benefits not realized in 
50 years of Treaty implementation.
    The Columbia Basin tribes' interests must be represented in the 
implementation and reconsideration of the Columbia River Treaty. The 
Columbia River must be managed for multiple purposes, including----

  <bullet> Respect for the sovereignty of each tribal government--each 
        tribe has a voice in governance and implementation of the 
        Columbia River Treaty.
  <bullet> Tribal cultural and natural resources must be included in 
        river management to protect and promote ecological processes--
        healthy and useable fish, wildlife, and plant communities.
  <bullet> Integrate the tribes' expertise of cultural and natural 
        resources in river management.
  <bullet> Equitable benefits to each Tribe in priority to other 
        sovereign parties in Columbia River management.
  <bullet> Respecting and preserving the benefits of settlement 
        agreements with tribes.
  <bullet> Recognize tribal flood control benefits.
  <bullet> Protecting tribal reserved rights to current and future 
        beneficial uses, in a manner consistent with ecosystem-based 
        management.

    In order to realize these principles, the tribes' collective voices 
must be included in the implementation and reconsideration of the 
Columbia River Treaty.

    The Chairman. Thank you. I'm sure our witnesses have seen 
that there is great Northwest interest in this matter with 
Senator Risch and Senator Cantwell having joined us.
    Dr. Karier, you have been next in line. Please proceed 
right as you have Senator Cantwell here, who, of course, knows 
more about Northwest energy issues than really anybody else.
    We welcome you and please proceed.

 STATEMENT OF THOMAS KARIER, WASHINGTON STATE COUNCIL MEMBER, 
            NORTHWEST POWER AND CONSERVATION COUNCIL

    Mr. Karier. Thank you, Mr. Chairman and thank you members 
of the committee.
    My name is Tom Karier. I'm one of the two Washington State 
members of the Northwest Power and Conservation Council. I 
represent the State of Washington on the review of the Columbia 
River Treaty.
    In 1964 the Beatles made their first trip to America, 
gasoline cost 30 cents a gallon and the United States and 
Canada inaugurated a treaty to share the benefits of the 
Columbia River. 50 years later the first two are a distant 
memory, but the Columbia River Treaty continues to govern the 
operations of several dams in Canada.
    The Columbia River Treaty was a monumental achievement. Two 
countries cooperated to build 3 dams and operate those on one 
of the world's greatest river systems. Increased hydro power 
generation attributed to the down river generation, helped to 
stimulate economic growth throughout the region valued in 
billions of dollars. While flood risk in the lower river was 
not eliminated it was greatly reduced.
    But the original Treaty recognized that an agreement to 
build and operate dams could not last forever and allowed for 
changes after 60 years. The world has changed since 1964 and so 
must the Treaty. We no longer need an agreement to build dams 
as we did in the 1960s. We need an agreement to operate the 
dams that respond to today's needs.
    Discussion in the Northwest has identified what a 
modernized treaty can provide for the region. Washington State 
shares the same vision that the Chairman so succulently 
described in the beginning and which was added to by my 
colleagues.
    In Washington State we need relief from the costly 
entitlement payments to Canada valued at $250 million to $350 
million per year.
    We need an agreement to protect citizens above and below 
the border from flood risk.
    We need to factor in fish survival, the ecosystem, cultural 
resources and water supply when we modify the timing of flows 
across the border.
    All of these areas can and must be addressed. We are 
working on a fair and balanced regional recommendation to the 
State Department that fully reflects these opportunities.
    Washington State has a major stake in the success of this 
effort. The actual power benefits to the United States are 
estimated to be only one-tenth of the current entitlement 
payment to Canada. We're concerned because our ratepayers pay 
approximately 70 percent of that entitlement. 27.5 percent paid 
by the public utility districts in 3 counties in our State plus 
our State's share of the Bonneville Power Administration cost.
    We have an immense financial and social investment in 
recovering fragile populations of salmon and steelhead. We 
would like to see treaty operations support and reinforce those 
investments.
    Our cities and counties are at risk of flooding. We need to 
know that the U.S. and Canada are cooperating to ensure their 
safety.
    We also rely on the river for irrigated agriculture that 
produces food for the world and navigation to move our 
production to markets.
    Every year millions of tourists visit the Columbia River 
and Lake Roosevelt for recreation bringing economic benefits to 
local communities.
    As we work to finalize our recommendations to the State 
Department we need to ensure that the interest of all 
sovereigns and all stakeholders are fairly represented. Once we 
find that balance, however, we expect the State Department to 
help the Northwest secure these benefits in the national 
interest even if this means deferring to U.S. entities 
accountable to Northwest sovereigns and stakeholders in the 
actual negotiations. Our State and Governor stand ready to help 
in that process.
    Finally, in order to preserve and expand the benefits of 
the Treaty we should do our best to maintain the collaborative 
spirit with our Canadian partners that have served both 
countries so well for so many years. We envision a future in 
which the citizens of both countries will look back at 2024 as 
the dawn of a modernized treaty, one that secures economic and 
environmental benefits for both countries for many decades.
    Thank you, Mr. Chairman and members of the committee for 
the opportunity to testify on this important Northwest issue.
    [The prepared statement of Mr. Karier follows:]

 Prepared Statement of Thomas Karier, Washington State Council Member, 
                Northwest Power and Conservation Council

    Thank you, Mr. Chairman. My name is Tom Karier and I am one of the 
two Washington state Council members who serve on the Northwest Power 
and Conservation Council. I also represent the State of Washington on 
the Sovereign Review Team, which was created to assist the U. S. Entity 
in reviewing and developing options for an informed recommendation to 
the State Department on whether it is in the best interest of the U.S. 
to continue, terminate, or seek to amend the Columbia River Treaty.
    The Northwest Power and Conservation Council is an interstate 
compact comprising the states of Idaho, Montana, Oregon and Washington. 
The Council was authorized by Congress in the Northwest Power Act of 
1980, P.L. 96-501. The Council's mission is to ensure the Pacific 
Northwest an adequate, efficient, economical, and reliable power supply 
while also protecting, mitigating, and enhancing fish and wildlife 
populations that are affected by the Columbia River Basin's 
hydroelectric system.
    Mr. Chairman and members of the Committee, in 1964, the Beatles 
made their first trip to America, gasoline cost 30 cents a gallon, and 
the United States and Canada inaugurated a treaty to share the benefits 
from the Columbia River. Fifty years later, the first two are a distant 
memory, but the same Columbia River Treaty continues to govern the 
operations of several dams in Canada.
    The Columbia River Treaty was a monumental achievement. Two 
countries cooperated to build and operate three major hydropower dams 
on one of the world's greatest river systems. Increased hydropower 
generation attributable to the Canadian dams paid for the construction 
of the projects and stimulated economic growth throughout the region 
valued in the billions of dollars. While flood risk in the lower river 
was not eliminated, it was greatly reduced.
    But the original Treaty recognized that an agreement to build and 
operate dams could not last forever and allowed for changes after 60 
years. The world has changed since 1964 and so must the Treaty. We no 
longer need an agreement to build dams, as we did in the 1960s; we need 
an agreement to operate dams that responds to today's needs.
    Discussion in the Northwest has identified what a modernized treaty 
can provide for the region. We need relief from costly entitlement 
payments to Canada valued at $250 million to $350 million per year. We 
need an agreement to protect citizens above and below the border from 
flood risk. We need to factor in fish survival, the ecosystem, cultural 
resources, and water supply when we modify the timing of flows across 
the border. All of these areas can and must be addressed, and we are 
working on a fair and balanced regional recommendation to the State 
Department that fully reflects these opportunities.
    Washington state has a major stake in the success of this effort. 
The actual power benefits to the United States are estimated to be only 
about one-tenth of the current entitlement payment to Canada. We are 
concerned because our ratepayers pay approximately 70 percent of the 
entitlement, including the 27.5 percent paid by public utility 
districts in three counties and our state's share of Bonneville Power 
Administration costs. We have an immense financial and social 
investment in recovering fragile populations of salmon and steelhead, 
and we would like to see treaty operations support and reinforce those 
investments. Our cities and counties are at risk of flooding, and we 
need to know that the United States and Canada are cooperating to 
ensure their safety. We also rely on the river for irrigated 
agriculture that produces food for the world and for navigation to move 
our production to markets. Every year, millions of tourists visit the 
Columbia River and Lake Roosevelt for recreation, bringing economic 
benefits to local communities.
    As we work to finalize our recommendations to the State Department, 
we need to ensure that the interests of all sovereigns and stakeholders 
are fairly represented. Once we find that balance, we expect the State 
Department to help the Northwest secure these benefits in the national 
interest, even if this means deferring to U.S. entities accountable to 
Northwest sovereigns and stakeholders in the actual negotiations. Our 
state and Governor stand ready to help in that process.
    Finally, in order to preserve and expand the benefits of the 
treaty, we should do our best to maintain the collaborative spirit with 
our Canadian partners that has served both countries so well for so 
many years. We envision a future in which the citizens of both 
countries will look back at 2024 as the dawn of a modernized treaty, 
one that secured economic and environmental benefits for both countries 
for many decades.
    Thank you, Mr. Chairman and members of the Committee, for the 
opportunity to testify on this important Pacific Northwest issue.
    The views expressed in this statement are those of the Council 
members from the State of Washington and do not represent the Council 
as a whole.

    The Chairman. Doctor, thank you.
    Let me start and pose this question for you, Mr. Oliver, if 
I could. I think you heard me say that my view is Northwest 
ratepayers are paying more for electricity than they ought to 
due to the excessive size of payments Bonneville and others 
make to Canada. That's my assessment of where we are today.
    Can you give us your assessment of how excessive the 
payment is? So get us into the numbers.
    Mr. Oliver. Sure. Sorry.
    Yes, Mr. Chairman. I--our assessment has been that if you 
look at the value of the coordinated operations with Canada 
under the Columbia River Treaty and you just look specifically 
at the value of energy created with and without those dams and 
the coordination of that operation that we're presently paying 
about 90 percent more than we should be.
    But that doesn't take into all the other----
    The Chairman. What does that translate to in terms of 
dollars?
    Mr. Oliver. In terms of dollars, if you looked at both the 
energy and capacity value of the system, the coordinated 
operations, we feel, is valued probably in the $25 to $35 
million per year range. Right now we're paying back close to 
$250 to $350 million worth of power and capacity annually.
    So it's a significant increase. It's probably a couple 
hundred million dollar range that we're paying in excess. But 
that doesn't take into account all. There are other values of 
coordination. That was a very straight forward look at capacity 
and energy. There's also value of firming, the assured flows on 
the system for both flood risk.
    The Chairman. Your take is Northwest ratepayers are paying 
$200 million. You said a couple hundred million dollars more 
than they ought to.
    Mr. Oliver. Considering that one factor, there's other 
values of coordination. But I would say, you know, this is not, 
we haven't, you know, finished, you know, every analysis here 
that could be done in terms of the value of coordination. I 
would say it's substantial. Even if you look at other values of 
coordination for flood risk management purposes and the firming 
of power on our system, that it is likely a substantial 
overpayment that's being made right now.
    I also want to be fair that, you know, when you look across 
the payments that have been made under the 50 years under the 
Treaty for flood risk management and power, that from the early 
portions of this agreement to the later portions. Probably the 
equity in those payments have flowed back and forth across the 
border. At this point I think Canada is gaining some 
substantial payments for power coordination that really need to 
be looked at further.
    The Chairman. One of the big challenges on treaties is to 
be able to put these issues in something resembling English to 
people, to the region and Senators and others. Can you get back 
to me within a week and give us a number?
    Mr. Oliver. Sure.
    The Chairman. So let's go on to the reasons why, again, if 
you can give it to us in language that we can explain to folks 
why this is the case.
    My understanding is that the heart of the problem is that 
baked into this formula are a bunch of assumptions that really 
aren't relevant anymore. Is that the case?
    Mr. Oliver. Fundamentally what the formula does is it takes 
a look at the system in 1961 in the U.S. downstream and looks 
at what the value of having the treaty dams which regulate and 
release water on an assured basis for power production purposes 
verses without that storage. Over time a formula was developed. 
There were direct payments made by the U.S. for development of 
the dams in Canada through flood risk management payments.
    As well as the U.S. purchased the first 30 years of 
downstream benefits on a payment. Direct payment was made by 
parties in the U.S. for that at that time.
    Then when the formula re, sort of kicked back in after the 
30-year purchase of that and we began calculating downstream 
benefits and the Canadian share which is called Canadian Time 
or one half of those downstream benefits. The formula looked at 
an expectation of what would happen with low growth in the U.S. 
and how that would be met. The original treaty negotiators, in 
the simplest terms from my point of view, expected the U.S. to 
develop thermal plants to meet low growth that would happen in 
the U.S. Under the formula if thermal plants were developed and 
hydroelectric generation in the U.S. could displace those 
thermal plants, non firm hydroelectric generation than the U.S. 
could displace the thermal plants.
    It was considered to be firm and removed from the formula 
and did not have to be returned to Canada.
    The Chairman. My time is up. I want to get one other 
question in.
    In the response you give us with respect to the amount that 
you think constitutes the excessive payment that Northwest 
ratepayers are making, if you could also flush out why these 
assumptions that go into the formula, that are sort of baked 
into the formula, are causing the problem, I'd like that within 
a week.
    Can you get that to us?
    Mr. Oliver. Yes, Mr. Chairman.
    The Chairman. Very good.
    One question for you, if I might, Dr. Karier.
    So obviously we're going to make the case that Northwest 
ratepayers are making these excessive, you know, payments. 
What's in an arrangement for Canada in trying to come together 
with us on this Treaty?
    In other words, this is something we feel strongly about. 
What's doable here? What's in Canada's interest in terms of how 
we try to strike this bargain and make them more willing to 
address the concern that Northwest ratepayers are going to 
have?
    Mr. Karier. Thank you, Senator.
    Right now I think Canada believes they have a very good 
deal with the Treaty. So, I think, we have to recognize that 
that because of the archaic formula and the payments they're 
doing very well.
    I think we need to start the conversation with a close look 
at what are the future benefits and future costs of the Treaty. 
Really it's a broad look at it. We need to look at power, when 
we work together, what's the net benefit to both countries, how 
do we split that net benefit?
    We're no longer talking about comparing it to a world with 
no dams in Canada. We're now comparing what is our cooperation 
at to not cooperating with the dams there? So it's a different 
type of calculation.
    There's also some benefits to the U.S. of coordinating with 
Canada on flood risk. We may need to consider purchasing 
assured flood storage in Canada. If we purchase that benefit we 
need to figure out what that's worth to pay Canada for.
    So I think in an ecosystem it's similar. We identify the 
benefits and the cost and the payments. It may not look exactly 
like the payments that are made today. But it should be a fair 
allocation where they're fairly compensated for what----
    The Chairman. Very good.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Just let me ask a follow up question there to you, Doctor.
    You've mentioned that you think Canada has got a pretty 
good deal here. What's the working relationship with Canada 
right now in terms of the treaty review? Have they been 
participating in any of the U.S. treaty review studies?
    Mr. Karier. So there was an initial study that the entity 
participated in jointly with Canada, their counterparts at BC 
Hydro. So there was cooperation initially there.
    The sovereign review team, which has been meeting in the 
Northwest for the last 3 years with tribal, State and Federal 
entities, has been closed to Canadian participation. But at 
every public meeting that I've been to in the State of 
Washington, there's been somebody from Canada representing them 
in those forums.
    I think Canada, historically, has been one of the best 
partners of the United States. I expect that to continue 
through this process of relooking at the treaty.
    Senator Murkowski. Thank you.
    I want to make sure that I understand this ecosystem 
function that has been called for in the draft recommendation 
as a third primary purpose. I guess I'll direct this to you, 
General Kem.
    How do you actually define ecosystem function? I think it 
was you, Mr. Oliver, that mentioned a concern about, OK, so 
who's going to bear the cost here?
    Can you, kind of, walk me through better understanding of 
what we're talking about here with ecosystem function? Will 
there be things like, if you have allowed for compliance under 
the Endangered Species Act, are there available credits for 
that?
    How does this work?
    General Kem. Senator, I'll start it and then I'll let Steve 
take over.
    Senator Murkowski. OK.
    General Kem. Because he has a little more additional 
details on it.
    The ecosystem function, essentially, at this point over the 
last 20 years, both Canada and the United States have, as we 
sit down each year continuously working on what the flow regime 
is going to be for the year based on all the different things, 
has modified over time. We have released water differently 
based on the need for fish. That's not just the United States. 
There's two species in Canada that need certain flows. So 
Canada has an interest in doing that.
    So collectively, and Steve can give you more numerical 
details, but about a million acre feet of water in a typical 
year is adjusted and modified. So between the two countries, we 
sit down and figure out what that should be and then what the 
impact on the financial re-numeration back and forth on that. 
That's really essentially how it's been working.
    But that's been done under the auspices of the treaty. It 
fits, but it doesn't fit very well.
    Senator Murkowski. So we have been, we've actually been 
implementing this in practice, we just haven't given it either 
a specific name, ecosystem function, or a specific mission or 
purpose within the treaty itself?
    General Kem. So what I would say what we've done is--ad hoc 
is the wrong term. But as we sit down for the annual flows 
based on mutual agreement between the two countries, they've 
mutually agreed to operate slightly differently. But what is 
always privy to that year is can you come to an agreement.
    That's why it makes sense to make it so it's more 
predictable and planned.
    Senator Murkowski. Mr. Oliver, can you comment to that?
    Mr. Oliver. Yes. We have, for the past 20 years, I think 
since 1996 type of time period, been reaching annual agreements 
for flow migration with our Canadian counterparts to move a 
million acre feet of winter paragraphs over into spring and 
early summer for the purpose of providing flows for trout and 
white fish spawning below Keenleyside Dam in Canada and also to 
help juvenile out migration for some anads in the U.S.
    We've also, through non-treaty agreements, reached an 
agreement on how to manage dry year strategies where in very 
low water years Canada will produce some additional water into 
the system for the U.S. to help, not only ecosystem, but power 
production in the U.S. under dry year conditions.
    We also have agreements out of Libby Dam to operate on 
what's a variable flow. It's a bar queue operation which helps 
Kinney River White Sturgeon which is also an endangered 
species.
    So there are several things that we do together with Canada 
by mutual agreement that have been happening for the past 20 
years as our understanding of ecosystem issues has evolved and 
we've been able to implement those.
    Senator Murkowski. So if we provide for changes in the 
treaty itself that specifically address ecosystem function as a 
purpose do you think we get a better lock down in terms of who 
does bear the cost how we do provide for acknowledgement of 
assisting with endangered species?
    Mr. Oliver. Yes. I think that it is a very appropriate part 
of the long term dialog. If we can formalize and gain certainty 
for these operations that we've been doing on a bilateral 
basis. I think it is appropriate part of or an addition to the 
treaty because in fact we do coordinate the storage and release 
of water for ecosystem purposes as well as power and flood risk 
now with Canada. It's just not a formal part of the--or one of 
the primary purposes that was enunciated under the original 
treaty.
    Senator Murkowski. OK. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. In order of arrival, Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    I guess whoever is appropriate to comment on this. Probably 
I'll start with you, Mr. Oliver.
    But my take on this is similar to what the Chairman 
indicated. That is it's no secret that the Canadians have the 
upper hand in this right now to the tune of, by your estimate, 
$200 million. I understand that's probably a moving target and 
a very rough estimate.
    But as I've reviewed the Treaty and how in the process and 
everything else, I think that this is going to be a really 
heavy lift to get the Canadians to try to do something about 
this. I mean, if I was sitting on the other side of the border, 
I'd look at this and say, guys look, here's the treaty. You 
know, where's my check?
    That's compounded by the fact that, you know, $200 million, 
a lot of money as we sit here and talk about it. But the fact 
is if you're an outsider looking at this, they know how 
cavalier that the Federal Government is about money. I mean, 
$200 million is less than 10 percent of what we borrow in 1 day 
to pay our bills.
    I mean, if you're an outsider looking at it in that 
function, you're going to say that's nothing. However to us, 
that's a huge deal. Give us our $200 million.
    How are we going to get them off that? That's my practical 
take on it. It seems to me that it's going to be a heavy lift.
    Mr. Oliver. I think it's a very good question. I would say, 
first of all, we have an extremely good working relationship 
with our Canadian counterparts. We have resolved issues 
throughout the first 50 years of this important international 
water management agreement. We share studies and we understand 
the system operations very well together.
    So I think that certainly the Canadian perspective is that 
the coordination of this system provides a lot of benefits to 
the U.S. for ecosystem, flood risk and power. Unfortunately the 
way the payment is made today is all by the Northwest Power 
ratepayers. So it's really all in the form of a power 
compensation. That component is far too high at this point.
    The first 60 years we made a onetime payment for flood risk 
management. Now in 2024 the flood risk management terms and 
conditions change under the treaty. At that point we'll begin 
paying Canada when we need to call upon them for additional 
support for flood risk in the U.S. on an as needed basis. We 
would also now add compensation from the U.S. for that purpose.
    So and if we do additional things for ecosystem function it 
is worth, I think, the U.S. looking at the total package of 
compensation to Canada and talking to Canada about what part 
should be by Northwest ratepayers, which part should be by the 
U.S. taxpayers and other interests.
    So to some extent the Canadian compensation might be 
reduced from power, but filled in a bit by flood risk 
management payment for example or other types of compensation 
in terms of benefits that they mutually achieve for the Basin's 
ecosystem.
    So I think we need to take a look at the full picture. 
Perhaps the total package for Canada still remains relatively 
robust and equitable as we look down the road.
    Senator Risch. I appreciate that. I, first of all, I agree 
with you. I mean, we have no better friends in the world really 
than the Canadians. We can all feel good and warm and fuzzy 
about that. I have no doubt they do too when they sit down at 
the table.
    But money does strange things to people. When we talk about 
the benefits, I guarantee you when they sit down at the table 
they're going to have a list of benefits and attributing 
dollars to each one of them that they're going to say we got 
this all wrong. You guys owe us more than $200 million.
    So in any event I wish you well as we go forward. I wish us 
all well as we go forward. This is going to be a long process, 
Mr. Chairman.
    Thank you very much.
    The Chairman. Well stated. The whole point of having you 
quickly get us those numbers, Mr. Oliver, which is what I asked 
for in my questioning, is to get right at the very appropriate 
issues that Senator Risch has brought up.
    This is not going to be for the faint hearted, this kind of 
discussion. We do enjoy our relations with Canada. But 
certainly as people begin to state their positions in treaties, 
there are going to be strong views expressed here. So get us 
those numbers within a week because that's going to be the key 
to getting at exactly the issues that Senator Risch just talked 
about.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
holding this important hearing.
    It's great to be here with my Pacific Northwest colleagues. 
To me, I'm remembering many, many debates when I was in our 
State legislature about PNWER which was the economic 
partnership of five States and three provinces working together 
on many things. So I'm definitely one who believes that we 
think as a region, and that there is an opportunity for us, as 
a region, to solve this problem.
    So I appreciate everybody's attention to detail. I would 
just mention I felt this summer as I traveled in our State of 
Washington and throughout the region visiting some Native 
American issues on behalf of my colleague from Montana, you 
know, everywhere across the Pacific Northwest the tribes, 
farmers, businesses, everyone is very concerned about this 
treaty and what happens next. So it is of utmost importance.
    I join my colleagues in saying that, yes, we need to have 
a, you know, returning our fair share is an important part of 
this treaty. The fact that, you know, flood control is an 
important issue. But this amount of, whatever it is, $200 
million, $250 million, is something that we feel the impact of.
    I have a question about that. But I wanted to point out 
that the draft recommendation does have a quote that says, 
``Inclusion of the ecosystem based function in the treaty and 
implementation of these functions should not prevent the region 
from achieving its objective of reducing U.S. power cost.'' So 
I just want to point that out.
    It's an important goal. We can do both and still see a 
reduction here.
    I did want to, I guess, if I could get parochial for a 
minute about Washington. That is that the added congestion from 
the delivery of entitlements threaten the reliability of power 
to one of our most populated parts, you know, of the State, 
Seattle, Puget Sound. That is because that is how we deliver 
that payment back.
    So I wanted to ask either General Kem, Mr. Oliver, or Dr. 
Karier, do you think the Canadians will be willing to provide 
flexibility in how the entitlement gets delivered? Whether the 
U.S. entity is fully committed to exploring solutions to these 
transmission impacts?
    Mr. Oliver. So I should probably take that.
    Yes, we completely understand that the delivery of the 
payment as made in physical capacity in energy and the 
Bonneville Power Administration reserves in the order of 
probably 14 hundred megawatts of capacity in our transmission 
lines which is allocated largely to the Western portion of our 
transmission system. It's been a concern to the utilities in 
the area of the Puget Sound in terms of that transmission 
obligation.
    That agreement for that delivery of energy goes through 
2024 as well. So it's something that we have made clear that we 
want to talk about as part of a future discussion with Canada 
about and by necessity because it does end in 2024, we need to 
and talk about what is the mutually best means for return of 
that entitlement post 2024.
    Right now there's a very large capacity component in the 
order of 12 to 14 hundred megawatts of capacity and an energy 
component which is probably in the order of about 400 average 
megawatts of energy. Therefore it would be possible to look at 
if there were reductions in the obligation or even if there 
were not significant reductions in the obligation looking at 
making that return perhaps less peaky in nature.
    So if it were flatter, you would need to reserve perhaps 
less transmission. So it's something that we can engage in 
conversations about as well. We completely understand the 
concerns about the congested transmission paths from time to 
time in the Puget Sound area. That will be certainly on our 
screen as we move forward in having this conversations to make 
sure that that issue is a part of the conversation.
    Senator Cantwell. But you agree that it's important given 
that we share, I think, something like 70 percent of the 
Canadian entitlement, that Washington State does?
    Mr. Oliver. Yes. It is important.
    Senator Cantwell. OK.
    Mr. Oliver. That, you know, that we look at assuring that 
there's firm assured transmission paths for utility and firm 
loads in the State of Washington as well as for the return of 
this delivery.
    Senator Cantwell. OK.
    Anybody else want to add to that particular point?
    Dr. Karier.
    Mr. Karier. The transmission will be a key part of that. 
The, you know, one of the issues for Washington State is also 
about water supply. We haven't mentioned much about that.
    The States of Washington and Oregon are both willing to 
compensate Canada for water storage that can enhance our water 
supply in the central parts of our states. That's something 
that's not currently part of the treaty. It's another revenue 
source for the Canadians along with any power entitlement or 
flood risk payments. That is included in those recommendations 
as well.
    Senator Cantwell. How would that work?
    Mr. Karier. It would be somewhat of a commercial agreement 
with the Canadians to hold additional water for spring and 
summer irrigation periods and to let that water out, kind of, 
as needed for out of stream purposes. We would, the States of 
Washington and Oregon would compensate them for that, for those 
water flows.
    Both states have policies that whenever we enhance water 
flows for out of stream use we also add some fraction of water 
to increase in stream flows to benefit fish as well. So it's 
kind of a win/win type of arrangement. That's another element 
that we would add into this negotiation.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Gentlemen, we're going to excuse you at this time. We're 
going to have votes here before long in the Senate.
    Mr. Oliver, obviously getting those numbers from you within 
a week is absolutely key. I mean these, as Senator Risch has 
touched on, are going to be issues where the parties feel 
strongly about. We want to maximize on a bipartisan basis, the 
influence of this committee and the Senators, particularly 
those from the Pacific Northwest.
    So we'll look forward to getting those in a week. We'd like 
the numbers in terms of what is the excessive amount that 
Northwest ratepayers are paying. Then have you detail this 
matter of the assumptions that are baked into the formula 
because that is going to be key to positioning the Pacific 
Northwest as strongly as we can in the discussions that are 
going to happen.
    Gentlemen, thank you. We'll excuse you at this time.
    Our next panel.
    Mr. George Cann, Executive Director of Washington Public 
Utility Districts in Olympia.
    Mr. Norm Semanko, Executive Director and General Counsel of 
the Idaho Water Users in Boise.
    Ms. Kristin Meira, Executive Director of the Pacific 
Northwest Waterways Association in Portland.
    Mr. Gregory Haller, Conservation Director of Pacific Rivers 
Council.
    If you 4 will come forward.
    Alright.
    As I tried valiantly with the last panel I know it's the 
temptation to just read every single word that is in that 
statement. But because things are going to be hectic, extra 
points for anyone who can summarize. We're going to make your 
prepared remarks a part of the record in their entirety. Why 
don't you proceed?
    Let's start with you, Mr. Caan.

STATEMENT OF GEORGE CAAN, EXECUTIVE DIRECTOR, WASHINGTON PUBLIC 
           UTILITY DISTRICTS ASSOCIATION, OLYMPIA, WA

    Mr. Caan. Thank you, Mr. Chairman. I'll try to behave and 
give my summary very quickly.
    The Chairman. Great.
    Mr. Caan. So Chairman Wyden, members of the committee, good 
morning. My name is George Caan. I'm the Executive Director of 
the Washington Public Utilities District Association. I am here 
representing the Columbia River Treaty Power Group, a 
collection of over 80 members representing 6.4 million electric 
consumers in the Northwest.
    We appreciate the opportunity to talk to your committee and 
to raise these critical issues. I want to thank you for your 
opening statements which I believe effectively framed this 
issue for the committee and for the rest of us.
    I have 3 items that I would like to discuss with you today.
    The Canadian entitlement.
    Ecosystem measures.
    The process going forward.
    The Canadian entitlement needs to be rebalanced. As Dr. 
Karier mentioned, I represent the Public Utilities Districts, 
the 3 Douglas, Grant and Chelan along the Columbia River that 
pay 27 and one half percent of the Canadian entitlement. The 
balance of my membership relies on BPA, who pays for the rest.
    Over the next 10 years it is expected that $2.5 to $3.5 
billion will be spent on the Canadian entitlement. For every 
dollar that we send north, we receive about ten cents worth of 
value. This amount comes from our consumers.
    The treaty is the only vehicle we have available to 
rebalance this entitlement. We look forward to a laser like 
focus on making this issue a high priority for the benefit of 
our consumers and Mr. Chairman, your constituents.
    Ecosystem. We have a commitment in the Northwest to 
ecosystem measures that is illustrated by the $13 billion we've 
already spent in the Federal Columbia River Power System 
biological opinions. In addition to that we have habitat 
conservation plans, Columbia Basin fish accords and FERC 
license agreements that all add to this effort.
    These investments are proof our constituents desire to 
address ecosystem issues.
    The proposed recommendation includes trans-boundary 
ecosystem measures. We think that they should be addressed 
since most of the measures, domestic ecosystem matters are 
domestic issues these trans-boundary ecosystems should be 
addressed with the following considerations.
    First, they should acknowledge and account for the existing 
investments already made and will continue to be made in the 
Northwest.
    These measures should, these trans-boundary ecosystem 
measures, should be based on sound science.
    They should be measureable.
    They should be achievable.
    These trans-boundary ecosystem measures should also ensure 
that there's not any detriment to the Federal hydropower system 
in terms of its reliability, resiliency and flexibility.
    Further, these trans-boundary ecosystem measures should not 
add any risk to the flood control regime designed to protect 
our communities.
    Finally, any new additions to ecosystem issues should 
receive congressional authorization and Congressional 
appropriation through your committee.
    Finally, the process going forward.
    We appreciate very much the Corps and the BPA, Bonneville 
Power Administration, for turning what started out as a fairly 
opaque process into a much more transparent process that 
engaged the power group and other stakeholders to come up with 
a better recommendation but still not where we want to see the 
recommendation.
    We want to publicly thank them for their efforts.
    Further, we look forward to after the recommendation is 
made and the State Department decides what to do, that we have 
a meaningful role in providing information and data and 
analysis so we can help the United States be in a great 
position, a better position, to help influence the negotiations 
on behalf of the power group and other stakeholders.
    We look forward to that meaningful participation.
    We appreciate the opportunity to take before the committee 
to represent our views.
    We appreciate the leadership this committee has taken to 
help us.
    We are looking forward to helping to shape the future of 
the Columbia River Treaty.
    Thank you again for this opportunity. I stand ready to 
answer any questions that you might have when we're done.
    Thank you.
    [The prepared statement of Mr. Caan follows:]

   Prepared Statement of George Caan, Executive Director, Washington 
          Public Utilities Districts Association, Olympia, WA

    Thank you for the opportunity to present this testimony to the 
Committee on behalf of the Columbia River Power Group (Power Group). My 
name is George Caan and I serve as the Executive Director of the 
Washington Public Utility District Association.
    I am providing this written testimony today in addition to my oral 
remarks that I will make during the hearing.
    The Power Group, formed in 2011, consists of over 80 electric 
utilities, industry associations and other entities that depend on 
power produced by the Columbia River hydropower generating plants. 
Together, we represent at least 6.4 million electric customers in the 
four Northwest states that are directly impacted by the Columbia River 
Treaty. WPUDA is an active member of the Power Group. A list of the 
Power Group membership is provided at the end of my testimony.
    The Power Group appreciates the Committee's interest in the future 
of the Columbia River Treaty and the Draft Recommendation to the 
Department of State that the U.S. Entity released for public comment on 
September 20 (``Draft Recommendation''). As the Committee is aware, the 
U.S. Entity is currently working to produce a final recommendation to 
the Department of State sometime in the next few months; the final 
recommendation will serve as a basis for possible negotiations with 
Canada to improve and modernize the Treaty.
    We especially appreciate the Committee's interest the Power Group's 
views on the Draft Recommendation and our views on how the U.S. Entity 
can improve that recommendation. On October 25 the Power Group 
submitted comments on the Draft Recommendation. My testimony follows 
the points made in those Power Group comments. The Power Group has been 
working with the U.S. Entity on improving the Draft Recommendation. 
Going forward, it is vital that Power Group members, along with Tribes 
and other regional stakeholders, continue to be involved in discussions 
on the future of the Treaty. This hearing is a key step in ensuring 
that involvement.
    The Power Group has two primary concerns with the Draft 
Recommendation:

          1. The U.S. Entity, in its attempt to craft a regional 
        recommendation to the State Department, has failed to focus on 
        and properly prioritize the fundamental need to reestablish an 
        equitable distribution of power benefits between the U.S. and 
        Canada. Unlike other resource priorities identified in the 
        Draft Recommendation, this paramount issue-the amount of the 
        Canadian Entitlement payment (together with determination of 
        cross-border flood risk management cooperation post-2024)-can 
        be resolved only between the U.S. and Canada.
          2. To the extent the U.S. Entity recommends to the State 
        Department that a renegotiated Treaty should formally adopt 
        ecosystem functions as a ``third primary purpose'' of the 
        Treaty, that recommendation must recognize and fully account 
        for efforts already being undertaken under existing federal and 
        state programs to protect fish and wildlife resources in the 
        Columbia River and its tributaries. This means that any effort 
        to expand the Treaty to include ecosystem function must not 
        interfere with or adversely affect these ongoing programs, as 
        they are publicly developed programs that have resulted in 
        billions of dollars already invested by Northwest electric 
        customers, and hundreds of millions of dollars in fish and 
        wildlife measures each year. In addition, the Draft 
        Recommendation should clearly assert that domestic ecosystem 
        issues--such as fish passage at Grand Coulee and Chief Joseph 
        dams--are outside the scope of any renegotiated Treaty.

    For these reasons, the Power Group wants the Committee to know that 
we believe more work needs to be done to reach a regional 
recommendation.

   REBALANCING OF THE CANADIAN ENTITLEMENT IS THE PARAMOUNT ISSUE TO 
             ADDRESS IN ANY TREATY NEGOTIATIONS WITH CANADA

    The primary objective of engaging in any Treaty negotiations with 
Canada must be intensely focused on correcting the current inequity of 
the U.S. obligation under the Canadian Entitlement. Any regional 
consensus on a recommendation to the State Department hinges on this 
being the paramount issue in any Treaty negotiations. The Power Group 
believes that among the U.S. Entity, Sovereign Review Team, and other 
stakeholders there is consensus on the need to rebalance the Canadian 
Entitlement. Reducing the financial burden to Northwest electric 
customers, caused by a Canadian Entitlement vastly out of sync with 
current conditions, and returning the use of clean, renewable 
hydroelectricity to the Northwest, is clearly in the best interest of 
the United States.
    Unfortunately, the Draft Recommendation seems to lose sight of this 
fundamental point by appearing to position ecosystem function as the 
leading issue to pursue in Treaty negotiations. From its opening 
paragraph in the introduction through the end of the document, 
ecosystem function is consistently and prominently listed before other 
Treaty purposes.\1\ Most of the ``General Principles'' touch upon 
ecosystem function, with little discussion of other Treaty purposes.\2\ 
The specific recommendations for ecosystem function are far more 
numerous and expansive than any other proposed Treaty purpose.\3\ Even 
where the Draft Recommendation sets forth proposals for other Treaty 
purposes, in some instances those recommendations appear to apply only 
to the extent they do not infringe upon the inclusion of ecosystem 
function proposals.\4\
---------------------------------------------------------------------------
    \1\ See, e.g., Draft Recommendation at 2 (``[T]he region's goal is 
for the United States and Canada to develop a modernized framework for 
the Treaty that ensures a more resilient and healthy ecosystem-based 
function throughout the Columbia River Basin while maintaining an 
acceptable level of flood risk and assuring reliable and economic 
hydropower benefits.'' (footnote omitted)); id. at 3 (``Treaty 
provisions should enable the greatest possible shared benefits in the 
United States and Canada from the coordinated operation of Treaty 
reservoirs for ecosystem, hydropower, and flood risk management, as 
well as water supply, recreation . . . .'' (General Principle 1)).
    \2\ Id. at 3-4.
    \3\ Id at 4-5.
    \4\ See, e.g., id. at 6 (providing that storage and release 
allocations for water supply ``should be made through a future domestic 
process and be consistent with water rights, including tribal reserved 
water rights and ecosystem-based function''); id. (``A modernized 
Treaty should consider impacts from climate change to all elements 
above, and create new terms in the post-2024 Treaty to allow the 
adaptive management of coordinated Treaty operations to better mitigate 
any impacts associated with climate change.'').
---------------------------------------------------------------------------
    The Power Group believes that the Draft Recommendation's approach 
elevates a resource issue that is inherently domestic in nature (and 
addressed thoroughly under well-established federal and state statutory 
programs, some of which are under this Committees' jurisdiction\5\) at 
the expense of the cornerstone issue-the Canadian Entitlement-that can 
be addressed only through negotiations between the U.S. and Canada via 
the Treaty. While the Canadian Entitlement is the financial lynchpin of 
the Treaty, the U.S. obligation under the Entitlement far exceeds the 
actual power benefit received. The U.S. Entity has estimated that the 
U.S.'s obligation under the Entitlement costs Northwest electric 
customers between $250 and $350 million in annual power benefits 
transferred by the U.S. to Canada,\6\ even though the U.S. Entity 
itself has estimated that one-half of the downstream power benefits 
received by the U.S. would be about one-tenth of the exported 
electricity (valued at $25 to $30 million annually).
---------------------------------------------------------------------------
    \5\ :  Projects and activities are subject to the substantive and 
procedural requirements of numerous federal and state programs such as 
the National Environmental Policy Act, Clean Water Act, Clean Air Act, 
Endangered Species Act, Federal Power Act, Fish and Wildlife 
Coordination Act, Magnuson-Stevens Fishery Conservation and Management 
Act, Pacific Northwest Electric Power Planning and Conservation Act, 
Coastal Zone Management Act, Federal Land Policy and Management Act, 
National Forest Management Act, state water quality standards, state 
water rights, and numerous other requirements.
    Letter to Stephen Oliver, Bonneville Power Administration, and 
David Ponganis, U.S. Army Corps of Engineers, from The Columbia River 
Treaty Power Group at 6 (Aug. 16, 2013) [hereinafter, Power Group 
Comment].
    \6\ See Iteration #2 Alternatives & Components: General Summary of 
Results at 33 (Apr. 10, 2013).
---------------------------------------------------------------------------
    This disparity is wholly unacceptable. At this stage of developing 
a regional recommendation to the State Department, the U.S. Entity-
instead of exerting significant resources on domestic ecosystem issues-
should be focused on analyzing the problems in the current methodology 
for calculating the Canadian Entitlement, identifying possible 
solutions for correcting these problems, and developing a 
recommendation for addressing these matters with Canada at the earliest 
possible time. By 2024, 60 years will have passed since the Treaty was 
ratified. The U.S. has a duty on behalf of its citizens, and Northwest 
electric customers in particular, to rebalance the Canadian Entitlement 
in a manner that ensures that the U.S. obligation under the Treaty is 
commensurate with the power benefits actually received.
    Thus, any regional recommendation must prioritize rebalancing the 
Canadian Entitlement to reflect the actual power benefits of ongoing 
coordinated operation. This priority must appear on page 1 and 
throughout the U.S. Entity's final recommendation to the State 
Department.
    Correcting the Canadian Entitlement also is consistent with the 
Administration's clean energy policy objectives. From that perspective, 
it is counterproductive to export between $2 and $3 billion in clean, 
renewable, domestically produced energy over the next decade. Moreover, 
if left unchanged, this situation will continue after 2024. By 2025, 
the current calculations for determining the Canadian Entitlement will 
require providing Canada approximately 450 MW average megawatts of 
energy and 1,300 MW of capacity each year. Correcting that inequity 
should be the highest priority of the State Department when pursuing 
any Treaty negotiations with Canada. Each year after 2024 in which the 
Canadian Entitlement remains unchanged is a significant loss of 
resources and value for the U.S.
    Article VII of the Treaty defines downstream power benefits as the 
``difference in hydroelectric power capable of being generated in the 
U.S. with and without the use of Canadian storage.''\7\ Going forward 
post-2024, this is the wrong baseline. The appropriate level of value 
returning to Canada after the initial 60-year agreement must be based 
on the benefits of ongoing coordinated operations between the U.S. and 
Canada-not on a comparison of conditions pre-and-post dam construction. 
The Power Group supports a Canadian Entitlement that does not exceed 
one-half of the actual incremental power benefit achieved through a 
coordinated U.S./Canada operation as compared to non-coordinated 
operation.
---------------------------------------------------------------------------
    \7\ Article VII(1).
---------------------------------------------------------------------------
    As the 60th anniversary of the Treaty draws closer, the U.S. and 
Canada face an ideal opportunity to reevaluate the approach and 
methodologies utilized to determine downstream power benefits (and 
thus, the Canadian Entitlement). The current approach for determining 
downstream power benefits is based on the following question: What are 
the downstream power benefits resulting from the construction of the 
Canadian storage projects compared to the operation of a U.S. power 
system, as it stood prior to 1965, without the upstream Canadian 
storage dams? This question, however, is outdated and irrelevant when 
determining the Canadian Entitlement methodology that should apply on a 
going-forward basis. As the Canadian storage is now in place, and will 
continue to operate into the future, the fundamental approach to 
Canadian Entitlement determination should be redirected towards clearly 
determining the downstream power benefits resulting from a post-2024 
Treaty assured operation (as opposed to the uncoordinated operation of 
each country's hydropower system). Moreover, the important experience 
gained and the lessons learned over the last five decades related to 
shortcomings and problems with the methodologies currently employed in 
the Canadian Entitlement determination should be strongly considered 
and used to ensure a more equitable, flexible, and robust downstream 
power benefit determination process exists going forward.
    History has shown that no matter how sincere the effort to 
appropriately calculate the Canadian Entitlement might have been, a 
static formula based upon extrapolations of then-current conditions 
into the future was not an optimal approach to ensuring fair and 
equitable outcomes. The original methodology was not developed to 
capture the actual realized downstream power benefits created by the 
Treaty provisions so much as it was a compromise method that-based upon 
then-current expectations about the future-might have been expected to 
result in a fair ``price'' for each country relative to the benefits 
each was expected to receive. During original Treaty negotiations, 
there clearly was an expectation by both countries that the Canadian 
Entitlement would end well before 2024. The current methodology was a 
choice, based upon expert judgment in the early 1960s, that it would be 
a reasonable approximation to the actual power benefits created by 
Canadian storage based upon certain expectations as to how the future 
would unfold. However, the future unfolded much differently than 
expected.
    Factors such as significantly lower than expected regional electric 
load growth, greatly expanded opportunities to market non-firm 
hydropower outside the region, a much wider slate of power supply 
resource types available for consideration than existed at the time of 
Treaty signing, and changing societal preferences regarding 
environmental and cultural issues have greatly affected the 
reasonableness of the current methods as an approximation of the actual 
downstream power benefits resulting from the original Treaty 
provisions, and thus the accuracy of the calculated Canadian 
Entitlement. The result was the severe imbalance in benefits received 
relative to costs paid by U.S. power consumers.
    For these reasons, the Power Group believes that the U.S. Entity's 
final recommendation to the State Department must clearly call out 
these methodological deficiencies and delineate a path to rectify them. 
The primary objective for the State Department in any Treaty 
negotiation should be to ensure that after 2024, the U.S. should pay 
Canada only one-half of the actual downstream power benefits of ongoing 
coordinated operations.

                   ECOSYSTEM FUNCTION REMAINS UNCLEAR

    The Power Group appreciates the U.S. Entity's acknowledgement in 
the Draft Recommendation that any expansion of the Treaty to include 
ecosystem function must ``formalize, provide certainty, and build on 
the many ecosystem actions already undertaken through annual or 
seasonal mutual agreements between the countries.''\8\ The Power Group 
is concerned, however, that the ecosystem function recommendation, 
including programs under this Committee's jurisdiction, is vague and 
offers little certainty and structure. Without additional details, 
adding a sweeping and broad third primary purpose of the Treaty would 
lead to conflicting obligations and priorities. Further, the Draft 
Recommendation provides no explanation as to how an expanded Treaty 
would fit in with the numerous environmental programs currently in 
place within the Federal Columbia River Power System (FCRPS) and at the 
generating projects of Power Group members. These uncertainties could 
diminish, or threaten altogether, ecological benefits achieved after 
years of detailed studies, tireless investigations and negotiations, 
and at times, litigation. The uncertainties associated with ecosystem 
function, as presented in the Draft Recommendation, create significant 
risk to environmental resources and electric customers in the 
Northwest.
---------------------------------------------------------------------------
    \8\ Draft Recommendation at 3.
---------------------------------------------------------------------------
    Members of the Power Group are proud of their environmental 
stewardship and the progress that their significant efforts have made 
in protecting and managing fish and wildlife resources. This is why, in 
our prior comment letter, we urged the U.S. Entity to ``account for the 
significant ecosystem stewardship actions taken to date.''\9\ By asking 
for this recognition, Power Group members were not merely seeking 
acknowledgement of our successful environmental programs, though it is 
important for stakeholders to have a robust understanding of the 
investments already undertaken. Rather, we are expressing concern that 
proposals to inject ecosystem functions at the Treaty level could have 
unintended consequences for existing, publicly developed programs in 
the U.S. that represent significant investments for electric customers. 
Treaty-mandated changes in flow regimes, fish passage operations, or 
similar requirements could conflict or interfere with ongoing programs 
in the Columbia River Basin and harm the very resources Treaty-imposed 
ecosystem functions seek to protect.
---------------------------------------------------------------------------
    \9\ Power Group Comment at 7.
---------------------------------------------------------------------------
    While the Draft Recommendation acknowledges the ``[s]ignificant 
efforts to address ecosystem concerns'' and that ``the region, 
principally through its electric utility ratepayers, has invested 
hundreds of millions of dollars annually to achieve ecosystem 
improvements throughout the Basin,''\10\ the Draft Recommendation does 
not actually account for these ongoing programs. Instead, the Draft 
Recommendation only expresses a desire to ``expand, enhance, and 
complement these existing ecosystem investments as part of the post-
2024 Treaty''\11\--without any accompanying analysis as to how this is 
to be achieved.
---------------------------------------------------------------------------
    \10\ Draft Recommendation at 1.
    \11\ Id. at 2.
---------------------------------------------------------------------------
    Thus, any final recommendation to the State Department related to 
ecosystem function, including those under this Committees jurisdiction, 
should carefully account for all ongoing efforts in the Basin, to 
ensure that the recommendation does not inadvertently conflict with, 
undermine, or disrupt these efforts--particularly those that were 
developed in close consultation and negotiations with the public, many 
members of the Sovereign Review Team, other federal and state resource 
agencies and Tribes, and environmental advocacy groups. Such ongoing 
programs include, for example:

  <bullet> The FCRPS Biological Opinion;
  <bullet> Requirements of Federal Energy Regulatory Commission 
        licenses, Habitat Conservation Plans, and other permitted 
        activities of Power Group Members; and
  <bullet> The Columbia Basin Fish Accords.

    An important role for the U.S. Entity, as the technical expert on 
river operations, is to provide sideboards for this Treaty discussion 
by describing the operational constraints of the existing Columbia 
River system and its tributaries, their complexity, and the current 
constraints relating to flood control and flow augmentation. In 
addition, in order for this region to have a fuller understanding of 
the cost and benefit of ecosystem proposals, the U.S. Entity should 
provide insight into the costs, and the funding sources, for 
contemplated ecosystem proposals.
    In this regard, the Power Group appreciates the U.S. Entity's 
recognition of the importance of the hydropower system to electric 
customers in General Principle 8 of the Draft Recommendation.\12\ We 
strongly support the statement that any modification to the Treaty 
should not prevent the region from achieving its objective of reducing 
U.S. power costs. In fact, General Principle 8 should specifically 
state: ``The U.S. should rebalance the Canadian Entitlement and thereby 
reduce power costs. Any other modifications should not undermine that 
overall effect.'' Even more important is the ability to use the clean, 
renewable hydroelectricity in the United States to meet customer needs, 
and assist with integrating other renewable resources, rather than 
sending an over-allocation of energy and capacity to Canada. Our 
electric customers and the Northwest economy are sensitive to energy 
prices, and residential electric customers and businesses have seen 
substantial rate increases over the past several years. The Northwest 
economy relies on the multiple uses of the Columbia River to support 
the vibrant mix of technology, trade and agriculture that contributes 
to this region's quality of life.
---------------------------------------------------------------------------
    \12\ Id. at 4.
---------------------------------------------------------------------------
    With regard to the second sentence in General Principle 8, however, 
the use of the word ``funding'' seems inappropriate if it is suggesting 
that savings from a rebalanced Canadian Entitlement could be used to 
purchase ecosystem measures. The currency of the Canadian Entitlement 
is megawatts of hydropower energy and hydropower capacity. The 
Bonneville Power Administration may lack statutory authority to 
``spend'' the value of any rebalanced Canadian Entitlement payments on 
new ecosystem issues. The Power Group recommends that the sentence be 
restructured to ensure the reference to ``funding'' applies only to 
``other sources,'' such as federal appropriations.

             COMMENTS ON SPECIFIC ECOSYSTEM FUNCTION ISSUES

    The Power Group offered the following comments to the U.S. Entity 
in response to several specific ecosystem functions discussed in the 
Draft Recommendation:

  <bullet> Cross-Border Flows: The Power Group believes that cross-
        border flows with Canada may be an appropriate topic for 
        international discussions-specifically, the quantity and timing 
        of flows across the border. Such discussions, however, would 
        need to include sideboards. Changes in flows for ecosystem-
        based functions, for example, would need to be based on 
        documented, scientifically proven analysis. Moreover, the 
        effects of changes in flow on ongoing ecosystem projects and 
        programs must be fully understood in order to prevent 
        unintended negative impacts. The Power Group remains concerned 
        that a shift in flows from winter to spring will reduce the 
        amount of useable hydroelectric energy and capacity, 
        potentially impact grid reliability, inhibit the system's 
        ability to integrate renewable generation and accelerate the 
        need for fossil-fuel capacity, and contribute to high levels of 
        total dissolved gas in the river during the spring migration 
        period.
    It is also important for the U.S. Entity to differentiate between 
        cross-border flows and any other proposed flow augmentation 
        that would rely solely on changes to U.S. project operations. 
        Any discussion of flow augmentation that is not directly tied 
        to cross-border flow discussions must be considered a domestic 
        issue, and addressed in an appropriate domestic forum.
  <bullet> Non-Treaty Storage Agreements and Ecosystem Actions: There 
        may be advantages to both countries to bringing existing, non-
        Treaty actions (such as the non-Treaty storage agreements) into 
        the Treaty discussions, with a goal of better integrating both 
        Treaty and Non-Treaty storage agreements that govern river 
        operations. The Power Group notes, however, that bringing 
        ecosystem issues into the Treaty may trigger a more formal 
        review and approval process.
  <bullet> Fish Passage at Grand Coulee and Chief Joseph Dams: The 
        construction and operation of fish passage facilities in the 
        U.S. is a domestic issue, and should be addressed, if 
        warranted, through current domestic laws and regulations. On 
        this point, the Province of British Columbia's recent Draft BC 
        Recommendation states the following Principle: ``Salmon 
        migration into the Columbia River in Canada was eliminated by 
        the Grand Coulee Dam in 1938 (26 years prior to Treaty 
        ratification), and as such is not a Treaty issue. British 
        Columbia's perspective is that restoration of fish passage and 
        habitat, if feasible, should be the responsibility of each 
        country regarding their respective infrastructure.''\13\
---------------------------------------------------------------------------
    \13\ British Columbia, Columbia River Treaty Review Draft BC 
Recommendation, Principle 11.

    In addition, because the study of fish passage into Canada would be 
subject to Congressional appropriations and authorizations, the Power 
Group believes it is inappropriate even to include a reconnaissance 
study in the Draft Recommendation. The Power Group has reservations 
about being able to satisfy our goal of reducing U.S. power system 
costs to our customers if fish passage at Grand Coulee and Chief Joseph 
is included in the recommendations.

        OTHER CHANGES TO THE DRAFT RECOMMENDATION ARE WARRANTED

    In addition to the Canadian Entitlement and ecosystem function 
issues described above, the Power Group believes the following changes 
should be incorporated into the final recommendation to the State 
Department:

  <bullet> Flood Risk Management: Public safety should continue to be a 
        high priority, and for this reason the Power Group believes 
        that a modernized framework for the Treaty should maintain 
        flood risk management similar to current levels. In addition, 
        funding for flood risk management should be consistent with 
        national flood risk policy of federal funding with applicable 
        local beneficiaries sharing those costs as appropriate.
  <bullet> Delivery of the Canadian Entitlement: The Power Group is 
        also concerned about transmission issues associated with the 
        return of the Canadian Entitlement, an issue that also must be 
        addressed in any renegotiated Treaty. As a result of the U.S. 
        Entity's decision not to build the Oliver-Chief Joseph 
        transmission line, the Canadian Entitlement energy has been 
        returned to Canada via transmission lines running through the 
        heavily-populated Puget Sound area. In recent decades, this has 
        created transmission congestion events and threatened service 
        reliability. The Power Group agrees with the Draft 
        Recommendation\14\ that the U.S. should seek a least-cost 
        transmission strategy with Canada for any power returned to 
        Canada after 2024, including reconsidering the flexibility of 
        the return.
---------------------------------------------------------------------------
    \14\ Draft Recommendation at 5.
---------------------------------------------------------------------------
  <bullet> Climate Change: Climate change is a recurring theme 
        throughout the Draft Recommendation, which calls for ``new 
        terms in the post-2024 Treaty to allow the adaptive management 
        of coordinated Treaty operations to better mitigate any impacts 
        associated with climate change.''\15\ The Power Group 
        recommends that any climate change ``adaptive management'' or 
        ``mitigation'' activities respond to a demonstrable adverse 
        effect upon ecosystem resources or hydropower production 
        attributable to climate conditions, such as a long-term change 
        in flow patterns from baseline conditions, that can be 
        supported with the best available scientific information.
---------------------------------------------------------------------------
    \15\ Id. at 6.
---------------------------------------------------------------------------
  <bullet> Irrigation and Water Supply: Any changes in flow regime 
        under a renegotiated Treaty should not adversely affect 
        existing water rights established pursuant to federal or state 
        law. Any future decisions under the Treaty related to water 
        supply must include those holding existing water rights.
  <bullet> Navigation: In addition to hydropower operations, navigation 
        also would be affected by increased spring flows and lower fall 
        and winter flows. These changes could affect operational 
        restrictions and dredging required in the lower Columbia River 
        due to increased sediment distributions. To ensure that 
        navigation concerns are fully analyzed and considered, more 
        detailed study of the proposed shift in flow timing would be 
        necessary.
  <bullet> Domestic Matters to be Addressed Post-2013: The Power Group 
        should be represented in any Domestic Advisory Forum created by 
        the State Department. Our electric customers are responsible 
        for paying the value of the Canadian Entitlement to Canada, and 
        they will be directly impacted each year by a compounding lost 
        opportunity if the Canadian Entitlement is not rebalanced.
  <bullet> Additional Areas of Discussion for U.S. and Canada: The 
        working draft recommendation issued June 27, 2013 stated: ``If 
        unable to achieve agreement in principle on key aspects by 
        summer 2014, we recommend evaluating other options to create a 
        modernized post-2024 Treaty, such as starting from a clean 
        slate.''\16\ This statement is excluded from the current Draft 
        Recommendation. The Power Group strongly believes this language 
        should be reinserted in the final recommendation to the State 
        Department. The Treaty expressly recognizes the possibility of 
        termination following the initial 60-year term, and the Power 
        Group believes that the State Department should evaluate all 
        available options to protect the interests of the U.S. when 
        engaging with Canada on these important matters.
---------------------------------------------------------------------------
    \16\ Working Draft Recommendation at 6.
---------------------------------------------------------------------------
                               CONCLUSION

    The Draft Recommendation must place the Canadian Entitlement 
``front-and-center'' as the primary international issue that can only 
be addressed through the Treaty. Further, the Draft Recommendation 
remains inappropriately vague in terms of proposed ecosystem function, 
inviting uncertainty about the effects on hydropower operations and 
existing environmental programs.
    The Power Group also believes that a regional consensus that seeks 
to rebalance the Canadian Entitlement and provides real return in value 
to the U.S. electric system is in the best interest of all citizens of 
the U.S., and particularly Northwest electric customers. At this time, 
the Power Group supports concluding the Sovereign Review Team process.
    Again, we appreciate the Committee's interest in this important 
issue. I look forward to answering any questions that Committee members 
may have either in oral testimony or in follow-up written form.
Columbia River Treaty Power Group Members
    Alcoa Inc.  Avista  Benton PUD  Benton Rural Electric 
Association  Blachly-Lane Electric Cooperative  Canby Utility Board  
Central Electric Cooperative, Inc.  Centralia City Light  Central 
Lincoln PUD  Chelan County PUD  City of Bonners Ferry  City of 
Cheney  Clark Public Utilities  Clatskanie People's Utility  
Clearwater Power Company  Columbia River PUD  Columbia Rural Electric 
 Consumers Power Inc.  Coos-Curry Electric Cooperative  Cowlitz PUD 
 Douglas County PUD  Douglas Electric Cooperative  Emerald PUD  
Eugene Water and Electric Board  Fall River Rural Electric Cooperative 
 Ferry County PUD  Flathead Electric Cooperative  Franklin PUD  
Glacier Electric Cooperative  Grand Coulee Project Hydroelectric 
Authority  Grant County PUD  Grays Harbor PUD  Harney Electric 
Cooperative  Idaho Consumer-Owned Utilities Association  Idaho County 
Light & Power Cooperative  Idaho Falls Power  Idaho Power  Inland 
Power and Light Company  Kootenai Electric Cooperative  Lewis County 
PUD  Lane Electric Cooperative  Lincoln Electric Cooperative  Lost 
River Electric  Lower Valley Energy  Mason County PUD #1  Mason 
County PUD #3  McMinnville Water and Light  Midstate Electric  
Missoula Electric Cooperative  Monmouth Power & Light  Nevada Rural 
Electric Association  Northern Lights, Inc.  Northern Wasco County 
PUD  Northwest Requirements Utilities  Okanogan County Electric 
Cooperative  Okanogan County PUD  Orcas Power & Light Cooperative  
Oregon Municipal Electric Utilities Association  Oregon Rural Electric 
Cooperative Association  Pacific County PUD#2  PacifiCorp  Pacific 
Northwest Utilities Conference Committee  Pacific Northwest Waterways 
Association  Pend Oreille County PUD #1  Peninsula Light Company  
PNGC Power  Portland General Electric  Public Generating Pool  
Public Power Council  Puget Sound Energy  Raft River Electric 
Cooperative  Ravalli County Electric Cooperative  Richland Energy 
Services  Salem Electric  Salmon River Electric  Seattle City Light 
 Snohomish County PUD  Springfield Utility Board  Tacoma Power  
Tillamook PUD  Umatilla Electric Cooperative  United Electric Co-op, 
Inc.  Vigilante Electric Cooperative  Washington Public Utility 
Districts Association  Washington Rural Electric Cooperative 
Association  Wells Rural Electric  Western Montana Generating & 
Transmission Cooperative  West Oregon Electric Cooperative

    The Chairman. Thank you. Very good.
    Mr. Semanko.

    STATEMENT OF NORM SEMANKO, EXECUTIVE DIRECTOR & GENERAL 
       COUNSEL, IDAHO WATER USERS ASSOCIATION, BOISE, ID

    Mr. Semanko. Mr. Chairman, committee members, Senator 
Risch, appreciate the opportunity to be with you today to talk 
about the Columbia River Treaty.
    It took a while for us to, kind of, wrap our minds around 
what this thing was and whether we should care about it and why 
we should care about it. But we're there now. We certainly 
appreciate the opportunity to be involved in the regional 
process, to provide input through this comment process and 
also, frankly, through the State of Idaho, Jim Yost, who is our 
Power Conservation Council member sitting at the table on the 
Bureau of Reclamation, who is also involved at that table.
    We're not there. But we appreciate having them there and 
having that opportunity to talk with them.
    We also work closely with our sister organizations, the 
Oregon Water Resource Congress and the Washington State Water 
Resource Association. Their Executive Directors have asked me 
to share their comments with you. I've submitted that for the 
record along with my written statement. I hope that you'll have 
time to take a look at that.
    I want to touch on just a few points.
    First of all, ecosystem based function.
    The obvious lack, in our view, of any regional consensus 
and I think as you review all the comments that have been 
submitted to the U.S. entity, you'll see this. Regarding the 
inclusion of ecosystem based function as a third primary 
purpose, and that's important, of the treaty suggests strongly 
that flood control and power production should remain the 
primary purposes of the treaty. At the same time, it's 
appropriate to recognize ecosystem based function as one of the 
``important elements of a modernized treaty'' or additional 
purposes in the Columbia River Basin.
    However, and this is the important part, because unintended 
consequences are what we're worried about. Ecosystem based 
function should not receive greater recognition or stature 
under the treaty than or adversely impact the other long 
standing authorized purposes in the Basin including irrigation, 
water supply, recreation and navigation.
    Already this morning we've heard a difference of views from 
the government panel about what including ecosystem based 
function is. Is it a co-equal, primary purpose that's equal to 
the other two and in fact needs to be listed first in the 
treaty recommendation or is it to get it on the radar screen 
where it has not been, as the Chairman astutely mentioned at 
the beginning of this hearing? Those are two completely 
different things.
    As we've already heard here today the United States has 
been able to cooperate with Canada to provide robust ecosystem 
based function benefits under the treaty without formally 
elevating the purpose above the other authorized purposes in 
the Basin. If it becomes a primary purpose what more needs to 
be added?
    As a matter of Federal law under an approved treaty, if 
this does go through that process, or whether it's through 
protocols or exchanges and notes, what standing and what 
unintended consequences have we now created? That's a very 
important point.
    While ecosystem based functioning is a recognized purpose 
and other environmental laws need to be complied with the 
treaty, should not be used as an independent mechanism to 
provide for additional environmental regulations or 
requirements. Such an end run would be inappropriate and unfair 
to those in the Basin who are impacted by and pay the costs of 
those efforts.
    I want to mention, just for a minute, flood risk 
management. This hasn't been discussed much this morning. The 
Canadian entity has taken the position that beginning in 2024 
all U.S. storage projects in the Basin must be utilized for 
system wide flood control to demonstrate effective use before 
Canadian reservoirs can be called upon. The U.S. entity has 
provided a white paper identifying storage that would be 
available in 8 projects where that storage is currently 
available for system wide flood control. It appropriately 
recognizes the limitations of authorizations on other projects. 
The projects that we rely upon for irrigation, for storage 
above Brownlee Reservoir in Idaho are authorized primarily for 
irrigation. They're not part of the system wide flood control.
    We think the U.S. has a right on this. We know the 
Canadians have a different position and look forward to that 
discussion occurring.
    Finally, with regard to irrigation.
    While it's appropriate to recognize the generic term of 
water supply as an authorized purpose in the Basin. Irrigation, 
which is more than just supplying water, it's growing crops to 
feed the Nation and the world and to provide fiber as well. It 
needs to be recognized specifically.
    Irrigation for crop production and other purposes has a 
long history throughout the Basin. Certainly with the Columbia 
River Basin projects started about the time the treaty was 
entered into, supported by Federal laws and water storage 
projects.
    In addition the final recommendation and I think that it 
will now, should include additional detail to make clear that 
allocation of any additional water coming from Canada is a 
matter of State law, not Federal or international law. Congress 
has always deferred to the states on allocation and management 
of water. That should continue.
    I appreciate the opportunity to be here and look forward to 
answering any questions that you may have.
    [The prepared statement of Mr. Semanko follows:]

   Prepared Statement of Norm Semanko, Executive Director & General 
           Counsel, Idaho Water Users Association, Boise, ID

                              INTRODUCTION

    Chairman Wyden and members of the Committee, my name is Norm 
Semanko. I am the Executive Director and General Counsel for the Idaho 
Water Users Association (IWUA). I appreciate the opportunity to submit 
this testimony on behalf of IWUA regarding the Draft Regional 
Recommendation for the Columbia River Treaty.
    IWUA is a non-profit corporation representing more than 300 
irrigation districts, canal companies, water districts, ground water 
districts, public and municipal water providers, hydroelectric 
companies, aquaculture facilities, agribusinesses, professional firms 
and individuals, dedicated to the wise and efficient use of our water 
resources. Our members deliver irrigation water to more than two and a 
half million acres. Many of our members also deliver water for 
municipal and domestic uses throughout the State.
    IWUA is affiliated with the National Water Resources Association, 
of which I am a Past President and currently serve as Federal Affairs 
Committee Chairman. I am also a past member of the Western States Water 
Council, which advises the Western Governors' Association on water-
related matters, and a member of the Advisory Committee for the Family 
Farm Alliance, a grass-roots organization representing farmers and 
ranchers that receive water from Bureau of Reclamation projects in the 
West.
    IWUA works closely with its sister organizations in the States of 
Oregon and Washington--the Oregon Water Resources Congress and the 
Washington State Water Resources Association--on Columbia Basin issues, 
including the Columbia River Treaty review. They have authorized me to 
submit a copy of their recent comments on the Draft Regional 
Recommendation with my written statement. I request that those comments 
be included in the official hearing record, along with the comments 
submitted by Idaho Water Users, which I have also submitted with my 
written statement.

                         TREATY REVIEW PROCESS

    IWUA appreciates the efforts of the U.S. Entity--the Bonneville 
Power Administration and the U.S. Army Corps of Engineers--to provide 
an opportunity for review and comment on the Draft Regional 
Recommendation, as well as the Working Draft earlier this year. We also 
appreciate the role that the U.S. Bureau of Reclamation has played in 
this process, as well as the State of Idaho. It has been important for 
water users to have those voices at the table in the Sovereign Review 
Team process.
    IWUA has attended and participated in listening sessions, open 
houses, webinars, and hearings on the Columbia River Treaty review in 
Spokane, Grand Coulee Dam, Pasco, Portland and Boise. We have submitted 
comments throughout the process, including general comments on the 
Working Draft and very specific comments and suggested language changes 
for the Draft Regional Recommendation. Those specific language changes 
are included in the additional materials that I have submitted for the 
record. Last week, we met with the U.S. Entity in Boise to discuss our 
comments on the Draft Regional Recommendation.
    IWUA urges the U.S. Entity and Department of State to continue the 
dialogue with Columbia River Basin stakeholders, including IWUA, as the 
process moves forward.

                       IDAHO WATER USERS COMMENTS

    IWUA submitted joint comments on the Draft Regional Recommendation 
with the Committee of Nine, which is the official advisory committee 
for Water District 1, the largest water district in Idaho. A copy of 
these comments has been submitted for the record with my written 
statement. I will provide you with a brief overview of our concerns and 
suggestions below, grouped by topic.
    Idaho, as part of the arid-West, has always faced water supply 
challenges. In the past, we have worked with the Bureau of Reclamation 
to build great irrigation water storage and delivery projects including 
the Minidoka and Palisades Projects of eastern Idaho, the Boise Project 
on the Boise and Payette Rivers in the southwest part of the State, the 
Owyhee Project, which we share with eastern Oregon, and the Lewiston 
Orchards and Rathdrum Prairie Projects in North Idaho, along with 
several others. This has allowed our part of the world to be irrigated 
and bloom, providing food and fiber for the nation, and also providing 
water for ranches and domestic users throughout the State. It is 
critical that these supplies be protected as part of the Columbia River 
Treaty review process.

Regional Goals for the Columbia River Treaty
    The purpose of the Columbia River Treaty is to reduce impacts from 
flooding and to increase power production. The U.S. has proposed 
``modernizing'' the Treaty to include ecosystem-based function as a 
third primary purpose of the Treaty, while recognizing other additional 
elements such as future water supply, recreation and navigation needs. 
Irrigation is another important, authorized purpose, which should be 
expressly recognized in the final Regional Recommendation to the U.S. 
Department of State.
    The obvious lack of any regional consensus regarding the inclusion 
of ecosystem-based function as a third primary purpose of the Treaty 
suggests strongly that flood control and power production should remain 
the primary purposes of the Treaty. At the same time, it is appropriate 
to recognize ecosystem-based function as one of the ``important 
elements of a modernized Treaty'', or additional purposes authorized in 
the Columbia River Basin, as evidenced by the ongoing implementation of 
the Endangered Species Act and other environmental laws. However, 
ecosystem-based function should not receive greater recognition or 
stature under the Treaty than, or adversely impact, the other long-
authorized purposes in the basin, including irrigation, water supply, 
recreation and navigation.
    As noted in the Draft Regional Recommendation, the United States 
has been able to cooperate with Canada to provide ecosystem-based 
function benefits under the current Treaty without formally elevating 
this purpose above the other authorized purposes in the basin. We see 
no need to make the dramatic change proposed in the Draft Regional 
Recommendation and elevate ecosystem-based function above all of the 
other authorized purposes in the basin. There is certainly no regional 
consensus on that point.

Ecosystem-based Function
    While ecosystem-based function is a recognized purpose in the 
Columbia River Basin, pursuant to implementation of the Endangered 
Species Act and other environmental laws, the Treaty should not be used 
as an independent mechanism to provide for additional environmental 
regulations or requirements. Flow augmentation and other forms of 
ecosystem-based function are currently provided for pursuant to very 
specific and rigorous adherence to environmental and conservation laws, 
including extensive federal court litigation. The Treaty should not 
frustrate or contradict those efforts, but it also should not be used 
to expand current requirements. Such an ``end-run'' would be 
inappropriate and unfair to those in the basin who are impacted by and 
pay the costs of those efforts.
    The Treaty should not place any additional burdens on U.S. water 
and storage projects. U.S. environmental laws, including the Endangered 
Species Act, have been implemented extensively in the Columbia River 
Basin as the result of numerous listing of salmon and other species. 
Various biological opinions issued by the National Marine Fisheries 
Service have placed considerable constraints on federal water project 
operations, including spill and flow augmentation. Agreements have been 
entered into between various parties in the region, including States, 
Tribes and those who operate or benefits directly from the federal 
water projects. The Treaty should not be used as a vehicle to place 
additional restrictions or limitations on these U.S. projects., 
including any proposed reintroduction of listed species.
    In particular, Idaho Water Users, the Nez Perce Tribe, the State of 
Idaho and the federal government are all parties to the historic Nez 
Perce Water Rights Agreement of 2004, also referred to as the Snake 
River Water Rights Settlement Agreement. The Agreement was approved by 
Congress in 2004, as well as the State of Idaho and the Nez Perce Tribe 
during 2005. The Agreement, which has since been the basis for the 
proposed actions of the federal agencies in the Upper Snake River Basin 
above Brownlee Reservoir, provides the amount and method for obtaining 
water for flow augmentation from federal water storage projects in the 
area.
    The Agreement has specifically been approved by Congress and must 
be adhered to by the United States. There is no basis for adding to, 
changing or adversely impacting the Agreement as part of the Treaty or 
the review process. Any modification of Upper Snake River operations 
may jeopardize the delicate balance struck between the parties in 2004, 
as part of a 30-year agreement, which includes an option to renew for 
an additional 30 years. We urge the U.S. Entity to affirmatively 
recognize the Agreement and its provisions in the final Regional 
Recommendation to the U.S. Department of State.

Flood Risk Management
    The Canadian Entity has taken the position that, beginning in 2024, 
all U.S. storage projects in the Columbia River Basin must be utilized 
for system-wide flood control to demonstrate ``effective use'', before 
Canadian reservoirs can be ``called upon'' to provide flood control 
space.
    The U.S. Entity previously prepared a white paper, identifying 
storage that would be available for system-wide flood control in the 
event of a ``called upon'' scenario post-2024. As part of this 
analysis, appropriate consideration was given to the Congressionally 
authorized purposes of the respective storage projects.
    In particular, storage projects in the Upper Snake River Basin 
above Brownlee Reservoir are not authorized for system-wide flood 
control. They are authorized almost exclusively for irrigation, with 
some hydroelectric, local flood control and other considerations 
included in the various Congressional authorizations, as documented in 
the U.S. Entity's white paper.
    The U.S. Entity is correct to limit system-wide flood control 
activities to those eight identified projects within the Columbia River 
Basin that are specifically authorized for such purposes. On this 
point, we believe there is a strong regional consensus. This limitation 
should be expressly recognized and included in the U.S. Entity's final 
recommendation to the Department of State.

Irrigation, Water Supply and State Water Law
    While it is appropriate to recognize Water Supply as an authorized 
purpose in the basin, irrigation should be specifically included, as 
well. Irrigation for crop production and other purposes has a long 
history throughout the basin, supported by federal laws and water 
storage projects.
    In addition, the final recommendation should include additional 
detail to make clear that water allocation is a matter of state, not 
federal or international, law. The federal government has a long and 
purposeful history of deferring to the states on water allocation and 
management. This should be specifically recognized and adhered to in 
the final recommendation.

                               CONCLUSION

    The water user community in Idaho is committed to seeing this 
process through to the end. The potential consequences are too 
important to leave to chance. We urge the U.S. Entity and the U.S. 
Department of State to incorporate our suggestions into their future 
work on the Treaty.
    Chairman Wyden and members of the Committee, thank you once again 
for the opportunity to provide this testimony regarding the Draft 
Regional Recommendation for the Columbia River Treaty.

    The Chairman. Thank you very much.
    Ms. Meira.

    STATEMENT OF KRISTIN MEIRA, EXECUTIVE DIRECTOR, PACIFIC 
      NORTHWEST WATERWAYS ASSOCIATION (PNWA), PORTLAND, OR

    Ms. Meira. Thank you, Mr. Chairman, Senator Cantwell, 
Senator Risch. I'm Kristin Meira. I'm the Executive Director of 
the Pacific Northwest Waterways Association. I appreciate the 
opportunity to provide the navigation perspective on the 
Columbia River Treaty.
    As you know our Nation's economy relies on a safe, 
efficient and cost effective, multimodal transportation system 
that includes road, rail, air and water. The Columbia/Snake 
River system is a critical piece of the Nation's water 
infrastructure portfolio.
    We're an export heavy system. We play a very important role 
in balancing the Nation's trade deficit. We're the top export 
gateway in the country for wheat. We're No. 2 in the country 
for soy, No. 1 on the West Coast for wood exports and mineral 
bulks, major import and export gateway for autos. This is a 
significant navigation infrastructure asset.
    We had over 42 million tons in international trade move 
through the waterway in 2010 valued at over $20 billion and a 
very conservative estimate of the number of jobs that are 
reliant just on the deep draft, lower Columbia River channel 
are 40 thousand. That's an old figure that should be updated.
    We feel that this significant navigation infrastructure 
asset should be considered when any changes are proposed for 
how we manage water flow on the Columbia/Snake River system. 
We've had substantial infrastructure investments in the deep 
draft, lower Columbia River.
    You're well aware of the channel deepening project that we 
completed in the fall of 2010 that was a $200 million project.
    We just had $60 million in new lock gates be installed on 
our inland system.
    We've had repairs to the jetties. We have more on the 
horizon.
    This is a system where the entire region has pulled 
together and voted that this is an important transportation 
gateway.
    Navigation stakeholders are most concerned with the 
assumption in the draft recommendation that existing spring and 
summer flows should be augmented through an expansion of 
existing treaty or present treaty agreements. Increased flows 
equal increased shoaling which equals increased dredging costs.
    The draft recommendation further suggests that these 
increased flows would be accompanied by lower flows in the fall 
and winter. This provides even less water over which to 
navigate these increased shoals.
    The most recent example we have of the impact of high flows 
occurred in spring and summer of 2011. Within 6 months of the 
completion of the Columbia River channel deepening project 
these high flows resulted in severe shoaling that could not be 
adequately addressed by the Corps existing funding and their 
existing dredging program. As of last month a consistently 
maintained 43 foot, lower Columbia River channel had still not 
been provided and restored.
    We've very concerned about the availability of funding to 
address similar shoaling events which may result from any 
changes to current river operations and current flows.
    We're also very concerned about potential impacts to add 
other navigation infrastructure. We have an extensive pile dike 
system that helps to guide the Federal navigation channel and 
guide the sediments. It's already in serious disrepair.
    We're also very concerned about any potential weakening of 
the base of the Columbia River jetties at the mouth of our 
system. They've essentially been described as a cork in the 
bottle. If we have an event at one of those Columbia River 
jetties, that closes the entire system and the gates, all of 
the investments that we've made over the years.
    Higher flows that occur more frequently would also hinder 
the efficiency and the safety of barging. High flows reduce the 
number of barges that the towboats can safely handle in swift 
currents. This impacts how our wheat flows and how our other 
shipments move on the system.
    High flows also impact whether our Columbia River pilots 
are able to safely move deep draft vessels on the lower 
Columbia River and bring them in to anchor.
    All of this system needs to work together. We need to have 
the flows that the navigation system has been built upon in 
past decades.
    I want to conclude by noting that we've met several times 
with the U.S. Army Corps of Engineers. We sincerely appreciate 
their dedication and the professionalism of both the Corps and 
BPA, who've been tasked in coordinating this significant 
regional effort.
    I will note though that navigation, of course, has not been 
part of the sovereign review team. We would encourage greater 
stakeholder participation in the future to ensure that we're 
capturing all these potential impacts to any proposed changes 
that the region considers.
    I'll finish by noting that we strongly support a vibrant 
river system that includes all the benefits we enjoy including 
to our fish. We look forward to being a part of the 
conversation going forward.
    [The prepared statement of Ms. Meira follows:]

   Prepared Statement of Kristin Meira, Executive Director, Pacific 
          Northwest Waterways Association (PNWA), Portland, OR

    Mr. Chairman, Members of the Committee,
    Good morning. My name is Kristin Meira and I am the Executive 
Director of the Pacific Northwest Waterways Association, or PNWA. PNWA 
is a non-profit trade association that advocates for federal policies 
and funding in support of regional economic development. Our membership 
includes over 130 public ports, navigation, transportation, trade, 
tourism, agriculture, forest products, energy and local government 
interests in Oregon, Washington, Idaho and northern California.
    I appreciate the opportunity to provide the perspective of the 
navigation community in the Northwest as it relates to the Columbia 
River Treaty.

             BACKGROUND ON THE COLUMBIA SNAKE RIVER SYSTEM

    Our nation's economy relies on a safe, efficient and cost-effective 
multi-modal transportation system. That system includes road, rail, air 
and water.
    The Columbia Snake River System is a critical piece of the nation's 
water portfolio, providing benefits not just to the Pacific Northwest, 
but far into the heartland of our country. We are an export heavy 
system, and play an important role in balancing the nation's trade 
deficit. The Columbia River is the nation's number one gateway for the 
export of wheat and barley, and when you consider the movement of soy 
and other grains, our river system is the third largest grain export 
gateway in the world. We also lead the West Coast on wood exports and 
mineral bulk exports.
    The Columbia Snake River System is essentially a river highway. It 
includes our 105-mile deep draft Columbia River channel from Astoria to 
Portland, Oregon. From there, a 360-mile inland barging channel 
stretches from Portland, Oregon to Lewiston, Idaho, with a series of 
eight locks along the way. These are the highest lift locks in the 
United States, and are among the highest in the world, with the John 
Day lock topping out at 110 feet. There are also three large jetties at 
the Mouth of the Columbia, hundreds of pile dikes, and many other 
critical pieces of federal and port-owned infrastructure which ensure 
safe navigation and the free flow of trade.
    Over 42 million tons of international trade moved on this waterway 
in 2010, valued at over $20 billion. A conservative estimate of the 
jobs directly tied to the deep draft navigation channel finds that 
40,000 individuals rely on this waterway for their livelihood. This 
economic benefit is expected to increase in the future, supporting even 
more jobs as additional companies make use of the river system.
    This waterway is a significant federal navigation infrastructure 
asset, and any potential changes which may impact its efficiency should 
be evaluated thoroughly. Substantial federal investments have been made 
in both the deep draft Lower Columbia River as well as the inland 
barging channel and locks. The most recent examples include the $200M 
Columbia River channel deepening project, $60M for three new downstream 
lock gates on the inland system, and significant Columbia River jetty 
repairs. A major rehabilitation of the Columbia River jetties is on the 
horizon, along with additional lock investments and ongoing annual 
maintenance dredging on the Lower Columbia and at the Mouth of the 
Columbia.

                     COLUMBIA RIVER TREATY CONCERNS

    Despite the national significance of navigation on the Columbia 
Snake River System, the current Draft Regional Recommendation contains 
only two sentences devoted to this authorized purpose. The navigation 
community has repeatedly urged the Entity to recognize the connected 
nature of flood risk management, flows for ecosystem benefit, and the 
ability to provide the federally authorized navigation channel and 
river conditions which will allow for safe and reliable navigation.
    Of particular concern is Section One in the ``Domestic Matters to 
be Addressed Post-2013'' section, which highlights the purported 
agreement by the Sovereign Review Team that ``greater ecosystem flows'' 
are desirable and should be examined. The note that ``if a process is 
initiated, it will be a comprehensive approach, subject to public 
input, that addresses all opportunities to manage high flow events, 
including floodplain management, Columbia Basin reservoir operations, 
and strategic improvements to existing levees and the need for 
additional levees'' leaves out any mention of impacts to navigation, 
and potential mitigation measures. This is a major oversight, and must 
be corrected.
    Navigation stakeholders are most concerned with the assumption in 
the Draft Recommendation that existing spring and summer flows should 
be augmented through an expansion of present Treaty agreements. These 
augmented flows will increase shoaling which will, in turn, increase 
dredging costs. The document further posits that these increased flows 
would be accompanied by lower flows in the fall and winter. This will 
provide even less water over which to navigate these increased shoals. 
Navigation stakeholders have repeatedly expressed their concern with 
higher flows in the spring and summer, and lower flows in the fall and 
winter. Their concerns focus on both increased commercial handicap and 
decreased operational safety.
    The ``ecosystem flows'' referred to throughout the Draft 
Recommendation are accompanied by no scientific explanation or 
reference. These suggested ``ecosystem flows'' may have significant 
impacts on navigation and navigation structures on the Columbia Snake 
River System. Navigation stakeholders have had the opportunity to meet 
with U.S. Army Corps of Engineers staff and contractors to provide 
feedback, and to urge a more comprehensive evaluation of the potential 
impacts to navigation. We strongly encourage the U.S. Entity and 
Sovereign Review Team to take into further consideration the following 
concerns.

            POTENTIAL IMPACTS TO FEDERAL NAVIGATION PROJECTS

    When evaluating the costs and benefits to the federal government 
for any changes to current river operations, our membership strongly 
encourages the U.S. Entity to fully capture the potential costs to 
existing federal navigation programs. Of particular concern is the 
increased sedimentation that will inevitably occur on the Columbia 
Snake River System with an increase in spring and summer flows. The 
most recent example of the impact of high flows was experienced by the 
region in 2011. Within six months of the Columbia River channel 
deepening completion in November 2010, high river flows in 2011 
resulted in severe shoaling that could not be adequately addressed by 
the level of funding provided to the Corps of Engineers' federal 
dredging program. As of October 2013, a consistently maintained 43' 
channel has still not been restored. We are concerned about the 
availability of funding to address similar shoaling events which may 
result from changes to river operations.
    Stakeholders have additional concerns regarding potential impacts 
to other federal navigation infrastructure. The Columbia River pile 
dike system which helps guide the federal navigation channel and the 
movement of sediment is already in serious disrepair. This system would 
likely be undermined by higher flows that occur with greater frequency. 
Our membership is also very concerned about any potential weakening of 
the base of the Columbia River jetties, the rubble-mound structures 
that protect the entrance to the system from powerful Pacific storms. A 
seven-year, $257 million jetty rehab project will hopefully begin in 
2014. Any impact to the jetty structures below the waterline would be 
devastating and costly to the ports and communities along the 465-mile 
Columbia/Snake river channel, and to a critical national transportation 
infrastructure investment.

               ABILITY TO SAFELY AND EFFICIENTLY NAVIGATE

    The ability of Northwest businesses to compete in international 
markets relies on timely and cost-effective transportation of goods on 
the river. Higher flows that occur more frequently will also hinder 
safe navigation, as well as the efficiency of barging in the federal 
navigation channel. High flows reduce the number of barges that can be 
safely handled by a towboat in swift currents, including around the 
dams where spill operations may be in effect. Higher flows for longer 
periods of time will undermine the ability of barge operators to move 
full tows, which will impact shipments of Northwest agricultural 
products, petroleum, and all other cargo handled on the Columbia Snake 
River System. Detailed information from the Northwest towboat community 
has been provided to the Corps on this issue.
    PNWA members are also concerned about the impact flows may have on 
deep-draft ship handling on the Lower Columbia River. Higher flows may 
impact vessel handling, transit time, and the ability to safely anchor. 
Additionally, lower flows will exacerbate the lack of available draft 
that is already occurring on the Lower Columbia River. Operating the 
river at a lower level for extended periods will have significant 
adverse impacts to the regional economy, and will reduce the ability of 
U.S. growers and manufacturers to compete in international markets.
    While we realize the flows being modeled may be within the 
authorized operating ranges of storage projects, these flows will 
represent a significant departure from the historic highs and lows 
anticipated by the navigation community on the river system. It is 
critical to assess the full economic impacts to each part of the river 
system before institutionalizing a new regime of higher high flows and 
lower low flows.
    In earlier meetings with the U.S. Entity, navigation stakeholders 
have requested analysis of the potential impacts to the Corps' federal 
dredging program and other infrastructure, which are very likely to 
occur if changes to the current approach for managing spring high flows 
and fall low flows are pursued. We have reviewed this analysis, and 
noted that several of the flood control approaches being modeled by the 
U.S. Entity would result in an increased occurrence of flows which have 
historically presented significant challenges to safe navigation and 
the Corps' ability to maintain the deep draft Lower Columbia River 
navigation channel.
    To date, the potential financial impacts to the Corps dredging 
program have not been evaluated. Given the significance of this 
navigation infrastructure to the Northwest and the nation, we feel it 
is critical to quantify how much additional federal funding will be 
required to maintain the deep draft Columbia River if changes are 
proposed to the current approach to managing flows on the river system. 
Failure to capture these increased costs would result in an incomplete 
picture of the burdens which would be shouldered by the U.S. taxpayer 
after 2024.
    We have met several times with the U.S. Entity since autumn 2012. 
However, our participation has been limited, as the navigation 
community is not part of the Sovereign Review Team of federal agencies, 
states and tribes who are guiding development of the U.S. Entity 
recommendation. Greater stakeholder involvement in future Columbia 
River Treaty discussions and decision-making forums is essential to 
understanding comprehensive impacts to navigation.
    Thank you for the opportunity to testify. I welcome any questions 
you may have.

    The Chairman. Thank you.
    Mr. Haller.

  STATEMENT OF GREGORY HALLER, CONSERVATION DIRECTOR, PACIFIC 
                         RIVERS COUNCIL

    Mr. Haller. Chairman Wyden, Ranking Member Murkowski, 
Senator Cantwell and Senator Risch, thank you for the 
opportunity to testify on the Columbia River Treaty 2014/2024 
Review Process.
    My name is Gregory Haller. I'm the Conservation Director 
for the Pacific Rivers Council or PRC. PRC is based in 
Portland, Oregon. We're a regional conservation group that 
works throughout the Columbia Basin in Northern California to 
protect rivers, their watersheds and the native aquatic species 
that depend on high quality, functioning ecosystems.
    On the main points of my testimony, notably for modernizing 
the treaty by including ecosystem function as a third primary 
purpose, I also speak today for the Columbia River Treaty 
Conservation Caucus consisting of environmental and renewable 
energy advocacy organizations with several million members 
nationwide and tens of thousands in the Northwest.
    In my testimony this morning I will discuss 5 issues for 
your consideration.
    Support for modernizing the treaty with ecosystem function.
    Opportunities to enhance ecosystem function through a Basin 
wide review of flood risk management.
    Our view on the Canadian entitlement.
    Issues with calls for additional flows for out of stream 
purpose.
    Expanding the U.S. entity to include a representative for 
ecosystem function in the process moving forward.
    PRC and the Conservation Caucus support the U.S. entity's 
inclusion in its draft recommendation to the Department of 
State that modernizing the Columbia River Treaty with Canada is 
in the best interest of the United States, the millions of 
people that rely on the river and of the Columbia River 
ecosystem. The elevation of ecosystem function as a primary 
purpose of a modernized treaty, along with flood control and 
power, accurately reflects the high value that citizens of the 
Pacific Northwest place on the health of the river and is 
consistent with nationally held opinions about how society 
should manage its interaction with the environment as evidenced 
by environmental laws such as the Endangered Species Act and 
the Clean Water Act.
    Because ecosystem based function was not addressed when the 
current treaty was enacted in 1964 modernizing the treaty 
represents a rare opportunity to positively reflect the river 
ecosystem at the Basin scale through a comprehensive public 
planning process. Such an effort would integrate new analysis 
of flood risk management under predicted climate change 
scenarios with an assessment of how renewable and conventional 
energy sources will affect the demand for and the use of power 
produced at Federal dams on the Columbia. This will help to 
determine the degree to which flows can be enhanced in the 
spring and summer, particularly in dry years where target flows 
for migratory fish are regularly not met and water temperatures 
are dangerously high for extended periods during the critical 
pre-spawning timeframe.
    Further the planning process would involve a review of the 
adequacy of existing flood control infrastructure and an 
assessment of where plains can safely be reconnected to the 
river.
    Because the Army Corps position is that it will not move 
forward with such a review absent Congressional authorization, 
we urge the Congress to direct the Corps to perform this 
review.
    Absent a modernized treaty the Army Corps will default the 
flood risk strategies that may require larger and more frequent 
draw downs at Lake Roosevelt and perhaps all U.S. storage 
reservoirs including non-treaty dams such as Dworshak and 
Brownlee. Such operations would adversely impact anadromous and 
resident fish, recreation, riverbank stability, cultural 
resources and public safety and could limit system capability 
to provide needed spring and summer flows for salmon. Further 
it could jeopardize operations at Dworshak Dam develop pursuant 
to the Nez Perce water rights agreement and designed to enhance 
flows and lower temperature in the Snake River in the critical 
summer period when both ESA listed juvenile and adult Chinook 
and steelhead are present.
    Treaty negotiations should proceed with full understanding 
and respect for these operations.
    Given that ratepayers in the Pacific Northwest enjoy some 
of the lowest electric rates in the Nation, the United States 
must be cautious in its approach to suggestions that reducing 
or eliminating the Canadian entitlement to be a primary driver 
in treaty negotiations or as a basis to terminate the treaty to 
avoid power deliveries. The significance of entitlement power 
deliveries as an inducement to British Columbia and Canada to 
negotiate changes to the treaty that the U.S. may seek should 
not be underestimated, particularly when Canada can point to 
other benefits provided to the U.S. from operations of Canadian 
treaty dams.
    Moving forward an ecosystem expert should be added to the 
U.S. entity to better prepare for negotiations with Canada and 
to implement the treaty for today's Northwest. This could 
include a third agency or sovereign in the U.S. entity co-equal 
to Bonneville Power and the Army Corps of Engineers for both 
negotiations and implementation of the treaty. We suggest that 
either the 15 Columbia Basin tribes along with the U.S. Fish 
and Wildlife Service, NOAA fisheries or the Environmental 
Protection Agency be co-managers of ecosystem based function.
    While there are some differences that may remain unresolved 
among the region's stakeholders, states and Native American 
Indian tribes about the shape of the final recommendation, 
these differences should not be interpreted as a reason not to 
proceed with negotiations with Canada. Rather these differences 
merely highlight the importance and complexity of the many 
values the Columbia provides to society.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Haller follows:]

 Prepared Statement of Gregory Haller, Conservation Director, Pacific 
                             Rivers Council

    Chairman Wyden, Ranking Member Murkowski and members of the 
Committee, thank you for the opportunity to testify on the Columbia 
River Treaty 2014/2024 Review process. My name is Gregory Haller, and I 
am the Conservation Director for the Pacific Rivers Council. The 
Pacific Rivers Council is a regional river conservation group, located 
in Portland, Oregon, which works throughout the Columbia Basin and 
northern California to protect rivers, their watersheds and the native 
aquatic species that depend on functioning, high quality ecosystems. On 
the main points of my testimony, notably for modernizing the Treaty by 
including ecosystem function as a third primary purpose, I also speak 
today for the Columbia River Treaty Conservation Caucus, consisting of 
environmental and renewable energy advocacy organizations with several 
million members nationwide, and tens of thousands in the Northwest.\1\
---------------------------------------------------------------------------
    \1\ The Columbia River Treaty Conservation Caucus consists of 
Pacific Rivers Council, Save our Wild Salmon, Waterwatch of Oregon, The 
Center for Environmental Law and Policy, Sierra Club, NW Energy 
Coalition and Earthjustice.
---------------------------------------------------------------------------
SUPPORT FOR MODERNIZING THE TREATY WITH ECOSYSTEM FUNCTION AS A PRIMARY 
                                PURPOSE

    The Pacific Rivers Council and Columbia River Treaty Conservation 
Caucus support the U.S. Entity's conclusion in its Draft Recommendation 
to the U.S. Department of State that modernizing the Columbia River 
Treaty with Canada is in the best interest of the United States, the 
millions of people that rely on the river and the Columbia River 
ecosystem. We commend the U.S. Entity for recommending ecosystem 
function as a primary purpose of the Treaty, along with flood risk 
management and power supply. The elevation of ecosystem function as a 
primary purpose accurately reflects the high value that citizens of the 
Pacific Northwest place on the health of the Columbia River and is 
consistent with nationally held opinions about how society should 
manage its interaction with the environment, as evidenced by 
environmental laws such as the Endangered Species Act (ESA) and the 
Clean Water Act (CWA). It also reflects the reality in today's 
Northwest that ecosystem health and economic health are inextricable.
    Because Ecosystem-based Function was not addressed when the current 
Treaty was enacted in 1964, modernizing the Treaty represents a rare 
opportunity to positively affect the river ecosystem at the basin scale 
through a comprehensive, public planning process. This effort should 
integrate new analysis of flood risk management under predicted climate 
change scenarios with an assessment of the how renewable and 
conventional energy sources will affect the demand for and use of power 
produced at the Federal Columbia River Power System (FCRPS) in order to 
determine the degree to which flows can be enhanced in the spring and 
summer, particularly in dry years, where target flows for migratory 
fish are regularly not met and water temperatures are dangerously high 
for extended periods during the critical pre-spawning timeframe.\2\ 
Further, it will involve a review of the adequacy of existing flood 
control infrastructure and an assessment of where floodplains can 
safely be reconnected with the river.
---------------------------------------------------------------------------
    \2\ This summer, the reach of the lower Columbia River that 
includes The Dalles and John Day Dams experienced water temperatures of 
70 degrees (or above) for 56 straight days. This previews coming years, 
when this year's highest temperature, 73.2 degrees at John Day Dam on 
September 11, will be the new norm that portends an unhealthy river 
pushing salmon to extinction. The Hells Canyon reach of the Snake River 
experiences temperatures well above 70 degrees into September, 
dangerously high for ESA-listed fall Chinook.
---------------------------------------------------------------------------
    Given the fact that 38% of the Columbia's average annual flow and 
50% of the peak flow originates in Canada,\3\ the United States has 
little choice but to seek modernization of the Treaty in order to 
continue coordinated river management to maximize the benefits that the 
three primary purposes of a modernized treaty will provide to the 
citizens in the U.S side of the basin.
---------------------------------------------------------------------------
    \3\ Shurts, J. 2012. Rethinking the Columbia River Treaty. In B. 
Cosens, editor. The Columbia River Treaty revisited: transboundary 
river governance in the face of uncertainty. Oregon State University 
Press, Corvallis, Oregon, USA.
---------------------------------------------------------------------------
    As a result of dam building throughout the Basin, the Columbia 
River is now a highly fragmented and mechanized system, with degraded 
habitat and water quality and large areas of river inaccessible to 
anadromous fish. The sharply reduced populations of salmon and lamprey 
have imposed a substantial burden on communities throughout the region 
that rely on these species for recreation, cultural heritage, food and 
economic purposes. Recent returns of Columbia River fall Chinook, which 
are not listed under the Endangered Species Act, are cause for 
celebration, but these runs are the result of good ocean conditions and 
the court-ordered spill program at the Columbia and lower Snake River 
dams. Because there is still no lawful federal plan to restore 
endangered Columbia-Snake salmon and steelhead, and because all but one 
of ESA-listed stocks are still far below levels needed for recovery, 
there is still much work to be done, particularly regarding flow 
management, improving river temperatures, which are dangerously high in 
both the Snake and Columbia rivers during the summer and early fall, 
restoring habitat, improving passage for lamprey, reconnecting 
floodplains and restoring salmon to areas now blocked by dams. 
Modernization of the Treaty will allow the region to address some of 
these issues by integrating strategies more consistent with regional 
salmon recovery and ecosystem health goals. Salmon recovery is only one 
component of a healthy Columbia River ecosystem, but it is a very 
important one.
    Absent a modernized Treaty, the Army Corps of Engineers must 
demonstrate that is has ``effectively used'' all U.S storage capacity 
for system flood control before it can ``call upon'' Canadian 
reservoirs for additional storage. Proceeding with this type of flood 
risk management may require larger and more frequent drawdowns at Lake 
Roosevelt and perhaps at all U.S. storage reservoirs, including non-
treaty dams such as Dworshak and Brownlee. Such operations would 
adversely impact anadromous and resident fish, recreation, riverbank 
stability, cultural resources and public safety and could limit system 
capability to provide needed spring and summer flows for salmon. 
Further, it could jeopardize operations at Dworshak Dam, developed 
pursuant to the Nez Perce Water Rights Agreement, and designed to 
enhance flows and lower temperature in the Snake River in the critical 
late summer period when both ESA-listed juvenile and adult Chinook are 
present.\4\ Treaty negotiations should proceed with full understanding 
and respect for these operations.
---------------------------------------------------------------------------
    \4\ See Mediators Term Sheet, Snake River Water Rights Act of 2004
---------------------------------------------------------------------------
    Power production under a modernized Treaty must account for and 
promote development of non-carbon energy sources in the Northwest, 
including conservation and renewable resources, consistent with the 
region's goals as stated in the Northwest Power and Conservation 
Council's Sixth Northwest Conservation and Electric Power Plan. Energy 
efficiency and new renewables are the dominant growth areas in the 
region's energy supplies. Based on expanded power production model, the 
United States and Canada should re-evaluate the division of surplus 
power generation between the two nations.

                        The Canadian Entitlement

    Though we acknowledge the concern about the calculation and size of 
power deliveries made to Canada pursuant to the current Treaty, we 
strongly believe that calls to terminate the Treaty as a negotiation 
tactic in order to reduce the so-called Canadian Entitlement are 
shortsighted. The United States must be cautious in its approach to 
suggestions that reducing or eliminating the Canadian Entitlement be a 
primary driver in Treaty negotiations, or as a basis to terminate the 
Treaty to avoid power deliveries. The significance of entitlement power 
deliveries as an inducement to British Columbia and Canada to negotiate 
changes to the Treaty that the U.S may seek should not be 
underestimated, particularly when Canada can point to other benefits 
provided to the U.S. from operations of Canadian Treaty dams, including 
predictability of hydropower forecasting, flood control, recreation, 
navigation, water supply and ecosystem benefits. The U.S. analysis that 
has been done to determine what the cost of termination would be to the 
United States in reduced hydropower flexibility, and in resorting to 
``called upon'' flood control is based upon assumptions of how Canada 
might operate in the absence of the Treaty, this should be a bilateral 
analysis. See http://www.crt2014-2024review.gov/Files/Final--Report--
No--Treaty--Canadian--Operations.pdf. Canada estimates the benefits to 
the US of flood control over the lifetime of the current Treaty at $32 
billion, and in 2012 alone at over $2 billion.\5\ Those numbers do not 
address the enormous economic benefit of predictable hydropower 
management, recreation, navigation, water supply and ecosystem 
benefits, Therefore, this issue, while important, should not be given 
undue weight moving forward, but should be fully examined in a 
transparent process to determine its role in modernizing the Treaty.
---------------------------------------------------------------------------
    \5\ Province of British Columbia, ``U.S. Benefits from the Columbia 
River Treaty-Past, Present, and Future: A Province of British Columbia 
Perspective,'' June 25, 2013.
---------------------------------------------------------------------------
    In our view, the most critical issue facing residents and users of 
the Columbia River and its tributaries over coming decades is not 
dividing up money or seeking to protect current power and flood 
management operations. Weathering and adapting to climate change will 
be the major issue on the Columbia. The Northwest is far better placed 
to tackle this very difficult economic and environmental transition if 
ecosystem function is included in the Columbia River Treaty.

                        WATER SUPPLY ALLOCATION

    PRC is concerned by calls from states and irrigators, and as 
acknowledged by the Draft Recommendation, for a process to allocate 
additional water from Canada for out-of-stream uses. Given existing 
streamflow deficits, allocating additional spring and summer flows for 
out-of-stream uses would be inconsistent with the elevation of 
ecosystem function as a primary purpose of a modernized Treaty. Only 
after instream uses are fully supported should analysis of consumptive 
uses be considered. Further, the Canadian government has already 
signaled that water supply is one of the many benefits it should be 
compensated for, and therefore, any additional out-of-stream use will 
be viewed as an additional benefit requiring additional compensation.

             COLUMBIA RIVER BASIN FLOOD RISK POLICY REVIEW

    In order to improve the health of the river's ecosystem and fulfill 
the promise of a modernized Treaty with ecosystem function as a primary 
purpose, a basin-wide assessment of flood risk management and how to 
best modernize it for the era of climate change is required. Only with 
such an assessment can the region move forward with confidence that 
flows can be increased without jeopardizing public health or property. 
The analysis should include an assessment of current flood control 
infrastructure and funding for the integration of modern precipitation 
and runoff forecasting techniques into seasonal planning processes. 
Flood risk management based on monthly forecasts has often resulted in 
unnecessarily large reservoir drawdowns and missed refill targets, 
resulting in diminished flows for anadromous fish and higher river 
temperatures. With improved forecasting and modeling, reservoirs can 
safely be maintained at higher levels to aid both anadromous and 
resident fish species. Maintaining reservoirs at higher levels also 
enhances recreational opportunities and protects Native American 
cultural resources. Because the Army Corps' current position is that 
the agency will not move forward with a basin-wide flood risk 
management review absent congressional authorization, we strongly urge 
Congress, particularly Northwest members of Congress, to direct the 
Corps, to perform this review, using the best available science in a 
fully transparent and public process.
    Modernizing flood risk management offers the region a unique 
opportunity to address the challenges of climate change. Climate change 
will manifest in the Pacific Northwest as decreased snowpack, shorter 
and earlier runoff periods and elevated summer river temperatures. 
Improvements in Treaty-based operations can help to mitigate these 
issues by providing additional flow and temperature benefits during the 
summer months.

       A REPRESENTATIVE FOR ECOSYSTEM FUNCTION IN THE U.S. ENTITY

    An ecosystem-expert should be added to the U.S. Entity, to better 
prepare for negotiations with Canada and to better implement this 50-
year Treaty for today's Northwest. The Treaty process should include a 
third agency or sovereign in the U.S. Entity, co-equal to Bonneville 
Power and the Army Corps of Engineers, for both negotiations on and 
implementation of the Treaty. We suggest that the 15 Columbia Basin 
Tribes, along with appropriate federal agencies such as U.S. Fish and 
Wildlife Service, NOAA Fisheries, and the Environmental Protection 
Agency, should be co-managers of ecosystem-based function.
    In closing, PRC, and the Treaty Coalition of fishing and 
conservation groups, believes that modernizing the Treaty to include 
Ecosystem Function as a primary purpose is in the best interest of the 
United States and the Columbia River's ecosystem and economy. We 
believe the Draft Recommendation lays a solid foundation to begin 
negotiations with Canada. We also appreciate the commitment made by 
Deputy Assistant Secretary Mathew Rooney during the recent listening 
sessions held by the US Entity and the State Department that PRC would 
be invited to participate in the negotiation process as it relates to 
Ecosystem Function. We believe that while some differences may remain 
unresolved among the region's stakeholders, states, and Native American 
Indian Tribes about the shape of the final Recommendation, these 
differences should not be interpreted by the U.S. Department of State 
as reason not to proceed with negotiations with Canada. Rather, these 
differences merely highlight the importance and complexity of the many 
values the Columbia provides to society.

    The Chairman. Thank you.
    We wanted to have this panel because you are, sort of, a 
microcosm of the debate about resources in the Pacific 
Northwest. I mean, you 4 really bring, front and center, the 
debate about jobs, which, of course, we care about because our 
economy has been hard hit in the Pacific Northwest. ratepayers 
and the 3 of us here, Northwest Senators, have been talking 
about that and then salmon.
    I mean let's just stipulate right at the beginning that 
this whole question about ecosystem function is really code for 
salmon protection. That's really what this issue is all about. 
I had a chance to look at your statements and I will tell you I 
think the premium is going to be trying to find ways that you 
can advance your interests in a way that's going to be 
compatible with some of the interests of the other stakeholders 
that are at this table and in the Pacific Northwest.
    For example, Ms. Meira, I think you know I also Chair the 
Finance Subcommittee on International Trade. You know, I think 
that trade and shipping is practically in our chromosomes. 
Senator Cantwell and I have teamed up often for market opening 
kind of agreements. Why not if 6 jobs in Oregon depends on 
international trade, the trade jobs pay better than do the non-
trade jobs?
    So the question is going to be can we find some ways in 
this agreement to better protect navigation that Mr. Haller and 
people who care about fish are also going to be on the program 
for?
    So that's going to be the premium for you four.
    I was very interested. Maybe we'll start with you, Mr. 
Semanko. You said that you didn't want to have ecosystem 
function as a treaty purpose, but in your prepared statement 
you said there were other ways to address the issue.
    If you feel like it, tell me what the other ways are to 
address the issue because maybe we can find a way to bring this 
in to the agreement.
    Mr. Caan, same with you. You were concerned about the 
additional cost from ecosystem function. The question is going 
to be are there some activities that can promote, you know, 
salmon, that you all can live with. Because it goes right to 
that triangle of jobs and rates and fish protection.
    So for any of you who would like to talk about some fresh 
ideas for advancing your interests, whether it's navigation, 
public power conservation, that also reach out to some of the 
other stakeholders, that's going to be the premium. I invite 
any of you 4 who'd like to take a crack at that.
    You want to do it, Mr. Semanko?
    Mr. Semanko. Sure.
    The Chairman. You said there were other ways to protect 
fish.
    Mr. Semanko. Absolutely.
    The Chairman. Other than the traditional approach of 
another purpose in the treaty.
    Mr. Semanko. I appreciate that. I must say I appreciate the 
bipartisan/nonpartisan manner within which you're approaching 
these issues as you have hydropower and other issues.
    The Chairman. By the way, when we're talking about bringing 
stakeholders together in the Pacific Northwest, the gentleman, 
who has, sort of, written the book on that is Senator Risch, 
who, as you know, you know, has a degree in forestry and he has 
really done a good job over the years of environmentalist and 
timber industry people.
    So this is not something that's new to us. But if we're 
going to advance the multiple interests that we have in the 
Pacific Northwest, the premium is going to be on people who can 
advance purposes that they feel strongly about that the other 
stakeholders are going to come together on.
    So we'll give you the first crack at it.
    Mr. Semanko. Absolutely. As you said, the river is the life 
blood of our region. It's not a partisan issue. It's something 
that we all rely upon.
    I think it goes back to what you said at the beginning of 
the hearing that ecosystem function should be included but it 
needs to be clearly defined and limited. So as an example 
when--and Mr. Haller referenced this, when we entered into the 
historic Nez Perce water rights agreement, the Federal 
Government, the State of Idaho, the Nez Perce nation, the water 
users. That agreement was heard in this committee room and 
approved by this committee in 2004 and included in the Omnibus 
Appropriations bill that was signed into law later that year.
    We all knew, with clarity, for the next 30 years what we 
were signing up for. The amount of flow augmentation we were 
going to provide. How it was going to be provided, under what 
State laws, under what local rental pool procedures. Those are 
the kinds of things that we need.
    But the Oregon Water Resource Congress observed it in their 
comments as well. The problem with ecosystem based function 
being included as a primary purpose is it becomes this 
overriding gloss that's laid on top of the treaty without any 
specificity.
    When I'm talking to the U.S. entity and they were in Boise 
last week. We talked about what exactly do you want? Let's look 
at the 6 things that are listed under ecosystem.
    You want better, firmer, longer term assurances from Canada 
that Canada will do certain things. Say that. Put that in the 
treaty.
    But leaving the ability for others in the region to 
interpret this change to mean that we are going to go outside 
the bounds of domestic environmental laws beyond what's already 
required under the Endangered Species Act, the Clean Water Act, 
which is incredibly huge already. That's the danger that we 
see. That this, as an international treaty, will now expand the 
obligations even beyond what's required and what's well 
understood in some cases like under the Nez Perce agreement.
    The Chairman. So would it be fair to summarize what you're 
saying is that you're open to some specific language with 
respect to salmon protection? You just don't want something 
open-ended that goes to this ecosystem function that might be 
misinterpreted.
    Is that accurate?
    Mr. Semanko. Mr. Chairman, that's exactly right.
    The Chairman. OK.
    Mr. Semanko. I'll go so far as to say in the materials that 
we submitted we provided red line changes to the 
recommendation. We didn't just bark and moan and vent. We 
provided specific recommendations.
    Things like we can do these things provided that they don't 
adversely impact the other authorized uses on the river, that 
kind of language. So yes, absolutely, we are trying to play 
within the rule.
    The Chairman. I never saw you in the barking and moaning 
caucus.
    [Laughter.]
    The Chairman. You know, I think this is tough stuff.
    [Laughter.]
    The Chairman. If you want to take on my friend, your 
Senator, it's your Constitutional right.
    Mr. Semanko. No.
    The Chairman. But the point is this is heavy lifting. This 
is what we do in the Pacific Northwest. We've got jobs over 
here. We need more of them. We need good paying ones.
    We got ratepayers over here. As Senator Risch and I thrash 
around on a bunch of these, we also have certain environmental 
values. I mean, those are in our chromosomes, too, protecting 
fish and thinking about our resources.
    So I think that your point is well made, Mr. Semanko. We're 
going to follow it up.
    Anybody else for the purposes of coalition building?
    Ms. Meira.
    Ms. Meira. OK, I'll jump in.
    The Chairman. The first bill that I wrote back when I was a 
legislator and had a full head of hair and rugged good looks 
and all that was working with you all on the Bonneville lock.
    Ms. Meira. Yes.
    The Chairman. Because that was important to the shipping. I 
don't think most of your members even knew anything about me. 
They said who's that Gray Panther kid? What's he talking to us 
about?
    So we worked often with you all.
    So tell us a little bit about shipping. How we can promote 
your interests and have them intersect with some of these other 
kinds of questions?
    Ms. Meira. Understood. Thank you again for Bonneville lock. 
I think that was 1993 that that was installed.
    The Chairman. Thank the late Senator Hatfield. I was just 
the kid partner.
    Ms. Meira. Yes.
    I think the ports in the navigation community in the 
Northwest recognizes that we do things differently in our 
region. That's a good thing. We all care deeply about how the 
system is run because we're all living on it. We're working on 
it.
    I think the question that the navigation community has had 
is what do we need to be doing that's beyond what our agencies 
and what our colleagues are doing now? If we need to be doing 
something more why aren't we already doing it?
    If we're looking for more through those treaty negotiations 
well why isn't it happening already through the buy op or 
through all the other processes that we have going that we all 
support?
    We come back here to talk and to request funding, not just 
for navigation projects but we're advocating for the Corps 
salmon recovery budget and other things.
    If we're not already doing it in the region why are we 
talking about doing more in 2024? Why isn't it a part of the 
conversation today?
    So when we think about the ecosystem function and that 
becoming a part of the treaty conversations that's what we 
continue coming back to. If more is desired why aren't we 
already talking about it through existing efforts?
    The Chairman. I'm way over my time.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Thank you for putting this panel together. I think this has 
been really good for an opening solve on this. I think your 
description of this particular panel as bringing to focus all 
the various interests here is really important.
    I don't know the others well, but Mr. Semanko I know well. 
He represents the view of his particular interest incredibly 
well.
    I think that rather than ask any questions I would just 
point out that I think the testimony of each of the 4 people 
have really focused on the rubics cube, kind of a difficulty 
we're going to have in bringing this thing together. I think, 
particularly here at the beginning, this is a good opening 
discussion of what part will each of these interests play. The 
focus has been here, I think, a little bit more on 
environmental things, but every one of these interests is 
important. I think it's appropriate that we have a robust 
discussion as to where each of these are going to fall in what 
we're looking for in redoing this.
    This is probably lifetime employment for a number of people 
to get through this. But it's going to take a while. It's going 
to be a heavy lift, as you pointed out. Thanks so much for 
having the hearing.
    Thank all of you for coming today and helping us.
    The Chairman. Thank you and as I've tried to indicate I 
think the premium is going to be on those who've got fresh 
ideas that address concerns that they have that can reach out 
to other kinds of parties and to get to us quickly. You heard 
me ask the Bonneville people to get us the numbers and the 
assumptions within a week because the clock is really ticking 
down on it.
    Mr. Haller, you have something I think--did you have 
something you wanted to just add because I'm going to have to 
get to the Budget Conference where we're also working on some 
Northwest issues, or the budget meeting that's being held.
    Mr. Haller. Sure, thank you, Chairman.
    Regarding your question about fresh ideas.
    The Chairman. Yes.
    Mr. Haller. Finding an intersection of goals. I really 
believe the lynch pin to that is this Basin wide assessment of 
flood risk management. I think with that we can get a better 
understanding of how reservoirs can be maintained at a fuller 
level which will enhance recreation and other values in those 
areas which will also provide spring and summer flows at a 
critical time period. But will also potentially maintain system 
capability for power production at a greater level.
    So I think that flood risk assessment is probably the key 
to that.
    The Chairman. Very good. Good way to wrap up.
    Thank you all.
    The Energy Committee is adjourned.
    [Whereupon, at 11:02 a.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

       Responses of Brigadier General John Kem to Questions From 
                           Senator Murkowski

    Question 1a. In your view, what have been the greatest strengths of 
the Columbia River Treaty over the last 50 years?
    Answer. The view of the U.S. Entity is that the Columbia River 
Treaty (CRT) between the United States and Canada has been an important 
economic driver for the region on both sides of the border since it was 
executed in 1964. The Treaty required the construction of three large 
dams in British Columbia, Canada, and gave the United States the right 
to build Libby Dam in Montana with a reservoir that extends into 
Canada. This more than doubled the amount of Columbia River basin 
reservoir storage, which eliminated major flood damages for all but 
extreme events and increased downstream hydropower generation. The 
smoothing of annual stream flows has also provided billions of dollars 
of power benefits in both countries.
    The U.S. Entity also believes that one of the strengths of the 
Treaty is that it also provides for the certainty of coordination of 
flows across the border and benefits a number of other uses of the 
Columbia River, including navigation, irrigation and municipal and 
industrial water supply. In addition, the two nations have been able to 
negotiate supplemental agreements for other ecosystem benefits, 
including an annual agreement that provides up to 1 million acre-feet 
to augment flows for fish in both the U.S. and Canada.
    Question 1b. What are its greatest shortcomings?
    Answer. While the CTR has provided many critically important 
benefits to the Region particularly in energy production and flood risk 
management, the Treaty does not identify ecosystem considerations. 
While it is recognized that significant ecological improvements are 
being implemented and realized in a number of critical areas and are 
anticipated to continue over time, there is an opportunity for 
inclusion of certain additional ecosystem operations to expand, 
enhance, and complement these existing ecosystem investments as part of 
the post-2024 Treaty. Accordingly, the U.S. Entity sees opportunities 
to better meet future needs and changing values through ``modernizing'' 
the Treaty in several important areas including: designing a mutually-
workable ``called-upon'' flood risk management operation; rebalancing 
the Canadian Entitlement; incorporation of ecosystem operations; 
providing for future water supply needs; and the ability to address 
climate change.
    Question 2. What are the Administration's expectations for the 
advice and consent of the Senate? Are there any potential Treaty 
modifications under consideration that the Administration does not 
believe would require consideration by the Senate? If so, please 
explain.
    Answer. The U.S. Entity cannot speak to the Administration's 
expectations for the advice and consent of the Senate. However, the 
entities (U.S. Entity and Canadian Entity) are empowered and charged 
with the duty to formulate and carry out the operating arrangements 
necessary to implement the Columbia River Treaty, in the form the two 
countries have entered into it. Through the Columbia River Treaty 
Review, the U.S. Entity conducted a preliminary evaluation of 
implementation of the current Treaty post 2024 and looked at possible 
alternative scenarios to assist us in the development of a regional 
recommendation for consideration by the Administration through the 
National Policy Interest Review. The region's goal is for the United 
States and Canada to develop a modernized framework for the Treaty that 
ensures a more resilient and healthy ecosystem-based function 
throughout the Columbia River Basin while maintaining an acceptable 
level of flood risk and assuring reliable and economic hydropower 
benefits. Therefore, the U.S. Entity believes it is important to 
achieve a modernized framework for the Treaty that balances power 
production, flood risk management, and ecosystem-based function as the 
primary purposes, while also recognizing and implementing all 
authorized purposes.
    Question 3. You've testified that the U.S. Entity would also like 
to ``pursue operational flexibility necessary to respond to climate 
change'' in an updated Treaty. Indeed, the Draft Recommendation states 
that there should be ``new terms in the post-2024 Treaty to allow the 
adaptive management of coordinated Treaty operations to better mitigate 
any impacts associated with climate change.'' What exactly does that 
mean? How will ``associated impacts'' of climate change be measured? Is 
this concentration on climate change in addition to a new Ecosystem 
Function as an authorized purpose of the Treaty?
    Answer. While the U.S. Entity is not a principal element of the 
U.S. Government engaged in climate studies or analysis of impacts, 
climate change studies conducted by the Army Corps of Engineers (Corps) 
and BPA for the Columbia River basin have indicated the potential for 
increased runoff in the winter, earlier timing of the peak spring 
snowmelt, and the subsequent risk of lower summer flows. It is the 
conclusion of the U.S. Entity that greater operational flexibility 
would give both the U.S. and Canada the ability to address these risks 
as they may appear in the future.
    With respect to measuring the ``associated impacts'' of climate 
change, the U.S. and Canadian Entities have a joint Hydro-
Meteorological team that continuously studies precipitation and 
streamflows in the basin. In addition, the U.S. Entity continues to 
work with the research community to intensify regional monitoring, 
particularly temperatures and streamflow timing, using existing 
meteorological and streamflow data networks. This allows us to monitor 
whether the warming we are already observing in the region is beginning 
to impact our ability to manage floods, to meet electricity demands, 
and sustain ecosystems. Using this regional monitoring data and the 
best available science, operating criteria can be adapted in response 
to a changed climate.
    With respect to the relation of climate change to purposes of the 
Treaty, the latest climate change modeling by the Corps, BPA, 
University of Washington, USGS and others suggests that flood control, 
power production, and ecosystems could all be impacted by climate 
change. Thus, the U.S. Entity sees climate change, not as a proposed 
new primary purpose, but as an overarching issue which could impact all 
Treaty operations if the Treaty were to continue over the long term.
    Question 4. The ``Canadian Entitlement'' as it has become known, is 
the amount of electric power the U.S. is obligated to deliver to 
Canada--equal to one-half the estimated downstream power benefits from 
the operation of Canadian Treaty storage. Currently, the entitlement 
requires the U.S. to deliver power to Canada worth approximately $250-
$350 million annually. However, the Treaty assumes that the power 
generation in the U.S is optimized for power generation even though our 
system operations have a number of competing demands, such as 
environmental requirements. How does Canada perceive the ``Canadian 
Entitlement''? How does the U.S. position differ? Do you agree with Dr. 
Karier's assessment that the U.S. is receiving only about one-tenth of 
the actual power benefits? Should the U.S. obligation to return power 
to Canada be reduced?
    Answer.

         HOW DOES CANADA PERCEIVE THE ``CANADIAN ENTITLEMENT''?

    The Government of Canada, to our knowledge, has not asserted a 
formal perspective on the Canadian Entitlement.
    The Province of British Columbia, through the BC Ministry of Energy 
and Mines, released a paper on June 25, 2013 on, ``U.S. benefits from 
the Columbia River Treaty--Past, Present, and Future: A Province of 
British Columbia Perspective''. http://blog.gov.bc.ca/
columbiarivertreaty/files/2012/07/US-Benefits-from-CRT-June-25-132.pdf 
. Further, the Province of British Columbia released its draft 
recommendation on the Treaty earlier this fall that included a 
statement about its view of the Canadian Entitlement in its second of 
14 principles. It reads, ``2. The ongoing impacts to the Canadian 
Columbia Basin to meet Treaty requirements should be acknowledged and 
compensated for. The level of benefits to the Province, which is 
currently primarily in the form of the Canadian Entitlement, does not 
account for the full range of benefits in the United States (U.S.) or 
the impacts in British Columbia.''

                   HOW DOES THE U.S. POSITION DIFFER?

    While the U.S. Entity cannot speak for the U.S. government on this 
point, the U.S. Entity perspective is that the Treaty should be 
modernized so that the payments to Canada post 2024 should be based on 
an equitable sharing of the power benefits of a coordinated Canadian 
operation as compared to a non-coordinated operation. Based on the 
present formula developed in the 1960s, BPA estimates the Canadian 
share of the downstream benefits in 2024 is significantly greater than 
anticipated, and far exceeds the value of coordinated power operations 
under the Treaty.

 DO YOU AGREE WITH DR. KARIER'S ASSESSMENT THAT THE U.S. IS RECEIVING 
           ONLY ABOUT ONE-TENTH OF THE ACTUAL POWER BENEFITS?

    Dr. Karier's assessment is based on only one specific predominant 
aspect of the Entitlement relative to its energy value. If we consider 
a more complete array of factors, however, preliminary estimates by BPA 
of one-half of the estimated actual value of Canadian coordination post 
2024 range from 10 percent to 30 percent. This range considers other 
factors such as 1) certainty of operations, 2) firm energy value, and 
3) seasonal shape and value of energy and capacity.

       THE U.S. OBLIGATION TO RETURN POWER TO CANADA BE REDUCED?

    In the opinion of the U.S. Entity, yes, although this is a matter 
for the U.S. Government to decide. In our opinion, based on the present 
formula developed in the 1960s, the estimated value of the Canadian 
share of the downstream benefits in 2024 is significantly greater than 
anticipated, and far exceeds the value of coordinated power operations 
under the Treaty.
    Question 5. What is the Executive Branch doing to integrate the 
concerns raised by various groups in their public comments on the draft 
recommendations? Should Congress expect major changes to the draft 
recommendations?
    Answer. The U.S. Entity was tasked by the Department of State and 
the Interagency Policy Committee to produce a regional recommendation 
that reflects the broadest possible consensus. The regional 
recommendation was developed by the U.S. Entity in collaboration and 
consultation with the Pacific Northwest states and federally recognized 
Columbia Basin Tribes, a variety of stakeholders, and the public 
through the multi-year Columbia River Treaty Review process. As such, 
it is a regional recommendation only, not an Executive Branch Statement 
of Administration Policy. We have conducted extensive stakeholder and 
public outreach through workshops, panel discussions, and individual 
meetings, and amassed valuable perspectives, comments, and technical 
analyses.
    We have collated all the comments received on the June 27, 2013, 
working draft regional recommendation and the September 20, 2013, draft 
regional recommendation, and have continued to coordinate and seek 
input from sovereigns and interested stakeholders as we complete the 
recommendation.
    Changes to the recommendation have been made in an attempt to 
accommodate various perspectives, achieve as much regional consensus as 
possible, and ultimately to develop a modernized framework.
    Question 6. Do you support the continuation of this treaty with 
Canada?
    Answer. The determination on the future of the Treaty is within the 
purview of the U.S. Government. The U.S. Entity supports improving the 
Treaty for the benefit of all interests in the Pacific Northwest region 
and ensuring that the Treaty is sustainable for the long term.
    Question 7. Has Canadian flood storage provided for under the 
Columbia River Treaty been utilized to the extent envisioned in the 
original Treaty? Why or why not?
    Answer. Yes, the Canadian flood storage provided for under the 
Columbia River Treaty has been utilized as envisioned in the original 
Treaty. Under the existing Treaty flood control operating plan, Canada 
operates their projects to provide assured flood storage up to 8.95 
million acre-feet based on forecasted runoff. Since 1964, this assured 
flood storage, combined with additional flood control storage provided 
by the Canadian power drafts, has been utilized as envisioned to manage 
streamflows conditions.
    Question 8. What are the primary differences between the U.S. and 
Canada with regard to the assumptions and estimates related to ``called 
upon'' flood control? Which U.S. reservoirs are currently expected to 
alter their operations for called upon operations?
    Answer. Any differences between the U.S. and Canada with regard to 
the assumptions and estimates related to `Called Upon' flood control 
are at the core of the interpretation of the Treaty and would be the 
subject of discussions between the U.S. and Canadian Governments.
    At this point, the U.S. Government has not formulated a position on 
the assumptions for Called Upon. However, through the Columbia River 
Treaty Review, a preliminary evaluation of operations post 2024 was 
conducted, which looked at possible alternative scenarios to assist in 
the development of a regional recommendation for consideration by the 
Administration through the National Policy Interest Review. Eight U.S. 
reservoirs in the U.S. portion of the Columbia Basin are now authorized 
for flood control. Those eight projects are Grand Coulee, Hungry Horse, 
John Day, Libby, Dworshak, Albeni Falls, Brownlee, and Kerr. Under the 
regional recommendation for post 2024 flood risk management, the U.S. 
would continue providing for similar level of flood risk and operate 
all eight of these projects for all authorized uses.
    The Canadian Entity has preliminarily expressed its views on the 
``Called Upon'' provisions; although unclear, it appears these are the 
views solely of the Canadian Entity, so it is uncertain whether or not 
they also represent the views of the Canadian Government. From what we 
have heard, it is the U.S. Entity's understanding that the Canadian 
Entity may be assuming that all reservoirs in the U.S. portion of the 
Columbia Basin should be used first prior to calling upon Canadian 
storage, regardless of the U.S. project authorizations or impacts to 
other project uses. The U.S. Department of State has informed the U.S. 
Entity that the U.S. Government does not share the Canadian Entity's 
interpretation of this provision of the Treaty. In addition, the U.S 
Entity's analysis indicates that the Canadian Entity's views on the 
forecasted water supply that would allow the U.S. Entity to call upon 
Canadian storage post 2024 could increase flood risk in the U.S.
    Question 9. What are the advantages and disadvantages of the 
scheduled transfer to called upon flood storage? Would there be an 
increased risk for flooding in the basin under a called upon storage 
scenario?
    Answer. Transferring from the current assured flood control 
procedures to Called Upon flood storage will require both countries to 
reevaluate reservoir flood control operations and develop a new flood 
control operating procedure for operating the reservoirs in the future 
for flood control. It is premature to speculate on whether the called 
upon flood control procedure has advantages or disadvantages for the 
U.S.
    The issue of increased or decreased flood control risk would be 
considered and would inform future U.S. positions that might arise in 
any negotiation with Canada, and therefore any speculation by the U.S. 
Entity at this point is premature.
    Question 10. Who should or will be responsible for paying for the 
costs of called upon flood storage under the Treaty?
    Answer. The allocation of such costs as between Canada and the U.S. 
would be one of the subjects of any negotiation. Under the existing 
provisions of the Treaty, the first 60 years of flood risk management 
were pre-paid through transfer of U.S. funds to Canada. Unrelated to 
treatment of this issue under any new or modified Treaty, the U.S. 
Entity's regional recommendation suggests that any U.S. payments for 
Columbia River flood risk management post-2024 should be consistent 
with the U.S. national flood risk law and policy.
                                 ______
                                 
    Responses of Gregory Haller to Questions From Senator Murkowski

    Question 1. In your view, what have been the greatest strengths of 
the Columbia River Treaty over the last 50 years? What are its greatest 
shortcomings?
    Answer. The greatest strength of the Columbia River Treaty over the 
last fifty years has been the added system flexibility to manage flood 
risk in the United States. Without the benefits of the Canadian storage 
reservoirs, storage reservoirs in the United States would bear the 
brunt of flood control operations, resulting in deeper drawdowns and 
less flexibility to provide critical spring and summer flows for salmon 
migration. Coordinated power production has also provided important 
benefits.
    The greatest shortcoming of the Treaty is its narrow focus on flood 
risk management and power production, which have occurred at the 
expense of ecosystem health, salmon fisheries, and economies and 
communities dependent on river and watershed health. An important 
example among many is the Army Corps of Engineers' overly conservative 
management of reservoirs for flood risk, which can result in diminished 
capability of the system to provide summer flows--particularly in dry 
years--and limits the ability to provide more natural flow conditions 
in the spring. A second shortcoming is the extinction and endangerment 
of many salmon stocks and species that Treaty dams and operations have 
contributed to. Finally, the Treaty's failure to co-manage for 
ecosystem health is significantly hampering the ability of people and 
ecosystems in the Columbia Basin to respond to and weather climate 
change effects now occurring, and this shortcoming will grow each year 
in its negative effect on the Basin and its people.
    Question 2. The Draft Recommendation calls for adding a 
comprehensive Ecosystem Function as the third primary purpose (in 
addition to power production and flood control) of the Columbia River 
Treaty. How do you define Ecosystem Function? Would it include credit 
for actions already being done, such as compliance with the Endangered 
Species Act? Who will bear the costs of this new Ecosystem Function? Do 
you support the addition of this new Treaty purpose?
    Answer. Pacific Rivers Council strongly supports including 
Ecosystem-based Function (EbF) as a new primary purpose of the Treaty.
    Our definition of EbF: The interaction of the living components 
(plants, animals and microorganisms) with the non-living components 
(air, water, rocks, physical and chemical processes) of the environment 
which sustain an environmental community rich in abundance and 
diversity and resilient to natural processes and disruptions so that it 
may persist into the future. In the context of the Columbia River, 
ecosystem function is the interaction of physical and chemical 
processes that create environmental conditions, i.e., good water 
quality, normative hydrograph, and cool river temperatures that support 
healthy populations of wild salmon and steelhead, sturgeon, and Pacific 
lamprey and the food web that supports them.
    A vital corollary to any definition is that, in the Northwest, 
ecosystem function underlies economic function. The health of the river 
is the basis for every economic activity undertaken in the basin.
    At this time, the ``costs'' of including EbF in a modernized Treaty 
are speculative. Any attempt to quantify those costs must also include 
a parallel estimation of benefits that including EbF will provide.
    A economic analysis of the existing Treaty's costs and benefits, 
and a modernized Treaty's costs and benefits, would likely benefit the 
dialogue between both nations about the Treaty. But we do not see a 
legal, analytic or commonsense basis for creating ``credits'' for 
compliance with the Endangered Species Act (or any law) that would be 
subtracted from yet-to-be-determined costs (if any) that EbF may 
provide. For example, such one-sided analysis ignores the very large 
benefits accruing to Northwest communities and people from compliance 
with such laws. We also note that the federal dam system on the 
Columbia and Snake Rivers is not in compliance with the Endangered 
Species Act, and has not been since 2000.
    Question 3. The ``Canadian Entitlement'' as it has become known, is 
the amount of electric power the U.S. is obligated to deliver to 
Canada--equal to one-half the estimated downstream power benefits from 
the operation of Canadian Treaty storage. Currently, the entitlement 
requires the U.S. to deliver power to Canada worth approximately $250-
$350 million annually. However, the Treaty assumes that the power 
generation in the U.S is optimized for power generation even though our 
system operations have a number of competing demands, such as 
environmental requirements. How does Canada perceive the ``Canadian 
Entitlement''? How does the U.S. position differ? Do you agree with Dr. 
Karier's assessment that the U.S. is receiving only about one-tenth of 
the actual power benefits? Should the U.S. obligation to return power 
to Canada be reduced?
    Answer. Canada perceives the Canadian Entitlement, as it is 
currently calculated, as a very good deal for the United States. Canada 
believes that if all the benefits (power, reduced flood risk, water for 
ecosystem benefits, irrigation, navigation, recreation, etc.) that the 
Canadian reservoirs provide to the U.S. were calculated, the U.S would 
be paying much more than $250-350 million currently paid in power 
deliveries. The U.S. position is that the Entitlement, combined with a 
separate flood risk management payment, has more than repaid the cost 
to Canada of the three dams built in Canada pursuant to the Treaty.
    Without additional information, we are not comfortable providing an 
opinion on Dr. Karier's estimation that the U.S. is receiving one-tenth 
of the actual power benefits or on whether the U.S. obligation to 
return power be reduced. However, the U.S. should be cautious in its 
approach and avoid making reduction of the Canadian Entitlementthe 
central focus of Treaty negotiations going forward, particularly as 
power delivery is the primary inducement to Canada to negotiate changes 
to the Treaty.
    Question 4. Has the Executive branch adequately captured your 
concerns and interests during the Treaty Review process?
    Answer. The Executive Branch has done a commendable job of 
recognizing our concerns and interests. We are particularly pleased 
with the commitment made by former Deputy Assistant Secretary Mathew 
Rooney during recent listening sessions that PRC would be invited to 
participate in the negotiation process as it relates to EbF.
    Question 5. Do you support the continuation of this treaty with 
Canada?
    Answer. We absolutely believe that continuation of a modernized 
treaty with Canada is in the best interests of the United States, the 
Columbia River ecosystem and of the regional economy.
    Question 6. To date, how has the Columbia River Treaty taken 
fisheries and ecosystem resources into account?
    Answer. In the development of annual operating plans (AOP) under 
the Treaty, issues such as the ability to provide flows for salmon 
migration and the ability to refill reservoirs under projected run-off 
scenarios are considered. However, these issues are secondary to power 
and flood risk management--i.e., they are addressed only in the context 
of what is left over after these two purposes are fulfilled. 
Additionally, the AOPs are made in well advance of the spring run-off 
season and therefore do not reflect actual conditions when they occur. 
And although adjustments are made as the timing of run-off is more 
accurately ascertained, these changes are limited due to the Corps' 
very conservative flood risk management operations. Modernizing flood 
risk management through a basin-wide review of flood risk is necessary 
in order to provide for and realize the benefits of an enhanced 
ecosystem.
    In addition, the current Treaty and operations under it have not 
genuinely tackled the rising effects of climate change on both the 
Columbia itself and its current uses and operations. We believe this is 
a vital new task for both nations within the Treaty framework, and only 
by making EbF a co-equal Treaty purpose can it be done effectively and 
pro-actively.
                                 ______
                                 
       Response of Stephen Oliver to Question From Senator Wyden

    Question 1. The United States is obligated to return to Canada one-
half of the downstream power benefits gained as a result of operation 
of the three Columbia River Treaty dams in Canada. My understanding is 
that the half of the downstream power benefits owed to Canada is called 
the ``Canadian Entitlement.'' What is the current Canadian Entitlement 
calculated using the current assumptions built into the Columbia River 
Treaty? What now does BPA estimate is the actual value of the Canadian 
Entitlement?
    Answer. Currently, Canada's portion of the downstream power 
benefit, the ``Canadian Entitlement,'' is based on the additional 
hydrogeneration produced by Canadian Treaty dams--essentially, the 
difference between the power generated by the U.S. 1961 power system 
with and without the dams. The Canadian Entitlement is power returned 
to Canada, not a monetary payment. The current value of the power 
returned to Canada is estimated to be between $220 million and $360 
million annually. It is the opinion of the U.S. Entity--and Bonneville 
Power Administration (BPA)--that the power benefits between the two 
countries should be rebalanced to instead be based on the more 
realistic measure of the power value of coordinated operations as 
compared to non-coordinated operations. BPA estimates that the 
resulting value of the Canadian Entitlement would be between $44 
million and $110 million annually. A document describing in more detail 
how we continue to analyze this estimate is attached to this response.
    Responses of Stephen Oliver to Questions From Senator Murkowski
    Question 1a. In your view, what have been the greatest strengths of 
the Columbia River Treaty over the last 50 years?
    Question 1b. What are its greatest shortcomings?
    Answer 1a. The view of the U.S. Entity is that the Columbia River 
Treaty (CRT) between the United States and Canada has been an important 
economic driver for the region on both sides of the border since it was 
executed in 1964. The Treaty required the construction of three large 
dams in British Columbia, Canada, and gave the United States the right 
to build Libby Dam in Montana with a reservoir that extends into 
Canada. This more than doubled the amount of Columbia River basin 
reservoir storage, which eliminated major flood damages for all but 
extreme events and increased downstream hydropower generation. The 
smoothing of annual stream flows has also provided billions of dollars 
of power benefits in both countries.
    The U.S. Entity also believes that one of the strengths of the 
Treaty is that it also provides for the certainty of coordination of 
flows across the border and benefits a number of other uses of the 
Columbia River, including navigation, irrigation and municipal and 
industrial water supply. In addition, the two nations have been able to 
negotiate supplemental agreements for other ecosystem benefits, 
including an annual agreement that provides up to 1 million acre-feet 
to augment flows for fish in both the U.S. and Canada.
    Answer 1b. While the CTR has provided many critically important 
benefits to the Region particularly in energy production and flood risk 
management, the Treaty does not identify ecosystem considerations. 
While it is recognized that significant ecological improvements are 
being implemented and realized in a number of critical areas and are 
anticipated to continue over time, there is an opportunity for 
inclusion of certain additional ecosystem operations to expand, 
enhance, and complement these existing ecosystem investments as part of 
the post-2024 Treaty. Accordingly, the U.S. Entity sees opportunities 
to better meet future needs and changing values through ``modernizing'' 
the Treaty in several important areas including: designing a mutually-
workable ``called-upon'' flood risk management operation; rebalancing 
the Canadian Entitlement; incorporation of ecosystem operations; 
providing for future water supply needs; and the ability to address 
climate change.
    Question 2. What are the Administration's expectations for the 
advice and consent of the Senate? Are there any potential Treaty 
modifications under consideration that the Administration does not 
believe would require consideration by the Senate? If so, please 
explain.
    Answer. The U.S. Entity cannot speak to the Administration's 
expectations for the advice and consent of the Senate. However, the 
entities (U.S. Entity and Canadian Entity) are empowered and charged 
with the duty to formulate and carry out the operating arrangements 
necessary to implement the Columbia River Treaty, in the form the two 
countries have entered into it. Through the Columbia River Treaty 
Review, the U.S. Entity conducted a preliminary evaluation of 
implementation of the current Treaty post 2024 and looked at possible 
alternative scenarios to assist us in the development of a regional 
recommendation for consideration by the Administration through the 
National Policy Interest Review. The region's goal is for the United 
States and Canada to develop a modernized framework for the Treaty that 
ensures a more resilient and healthy ecosystem-based function 
throughout the Columbia River Basin while maintaining an acceptable 
level of flood risk and assuring reliable and economic hydropower 
benefits. Therefore, the U.S. Entity believes it is important to 
achieve a modernized framework for the Treaty that balances power 
production, flood risk management, and ecosystem-based function as the 
primary purposes, while also recognizing and implementing all 
authorized purposes.
    Question 3a. The Draft Recommendation calls for adding a 
comprehensive Ecosystem Function as the third primary purpose (in 
addition to power production and flood control) of the Columbia River 
Treaty. How do you define Ecosystem Function?
    Question 3b. Would it include credit for actions already being 
done, such as compliance with the Endangered Species Act?
    Question 3c. Who will bear the costs of this new Ecosystem 
Function?
    Answer 3a. The U.S. Entity's perspective is that although the 
definition of ecosystem in general is very broad, the definition of 
Ecosystem-based Function in the context of the Columbia River Treaty 
Regional Recommendation is specifically defined by the content of the 
recommendation. The Ecosystem-based Function section states that 
providing streamflows from Canada with appropriate timing, quantity and 
water quality to promote productive populations of anadromous and 
resident fish, and provide reservoir conditions to promote productive 
populations of native fish and wildlife is the general objective. Then 
the specific recommendations are to: incorporate current flow 
augmentation and dry year flow strategies; accommodate flow 
augmentation modifications post-2024; recognize and minimize adverse 
effects to tribal, First Nations and other cultural resources in Canada 
and the United States; adapt to meeting ecosystem-based function 
requirements as new information becomes available or conditions change; 
jointly explore fish passage on the main stem Columbia with Canada; 
and, continue to coordinate the variable quantity flows from Libby in 
support of specific listed fisheries.
    Answer 3b. This is a question that would have to be negotiated 
between Canada and the U.S., however, in the Recommendation, it is 
expected that any storage and release actions performed under the 
Treaty would be coordinated and complement U.S. domestic fishery 
mitigation actions. The recommendation states this as follows: ``it is 
recognized that significant ecological improvements are being 
implemented and realized in a number of critical areas and are 
anticipated to continue over time, there is an opportunity for 
inclusion of certain additional ecosystem operations to expand, 
enhance, and complement these existing ecosystem investments as part of 
the post-2024 Treaty''.
    Answer 3c. While the exact allocation of costs would be a subject 
of a negotiation between the parties, one of the central principles of 
our recommendation is that we are advocating a balanced approach to any 
Treaty modernization that respects the current balance of water uses in 
the Pacific Northwest, ``with the intent that all of the interests 
addressed herein be improved''. The recommendation states that, ``U.S. 
interests should ensure that costs associated with any Treaty operation 
are aligned with the appropriate party.'' We also make it clear that, 
``implementation of ecosystem-based functions in the Treaty should be 
compatible with rebalancing the entitlement and reducing U.S. power 
costs'' as well as ``preserving an acceptable level of flood risk to 
the people of the Basin, and continuing to recognize and implement the 
other authorized purposes in the Basin''.
    Analyses performed as part of the Sovereign Review Team process 
showed that some Ecosystem-based Function actions could potentially 
involve significant tradeoffs from a power operations perspective and 
flood risk perspective for both the U.S. and Canada.
    We also identified some lesser magnitude actions potentially 
beneficial to ecosystems that would not entail significant costs or 
risks that might be explored.
    Question 4. You've testified that the U.S. Entity would also like 
to ``pursue operational flexibility necessary to respond to climate 
change'' in an updated Treaty. Indeed, the Draft Recommendation states 
that there should be ``new terms in the post-2024 Treaty to allow the 
adaptive management of coordinated Treaty operations to better mitigate 
any impacts associated with climate change.'' What exactly does that 
mean? How will ``associated impacts'' of climate change be measured? Is 
this concentration on climate change in addition to a new Ecosystem 
Function as an authorized purpose of the Treaty?
    Answer. While the U.S. Entity is not a principal element of the 
U.S. Government engaged in climate studies or analysis of impacts, 
climate change studies conducted by the Army Corps of Engineers (Corps) 
and BPA for the Columbia River basin have indicated the potential for 
increased runoff in the winter, earlier timing of the peak spring 
snowmelt, and the subsequent risk of lower summer flows. It is the 
conclusion of the U.S. Entity that greater operational flexibility 
would give both the U.S. and Canada the ability to address these risks 
as they may appear in the future.
    With respect to measuring the ``associated impacts'' of climate 
change, the U.S. and Canadian Entities have a joint Hydro-
Meteorological team that continuously studies precipitation and 
streamflows in the basin. In addition, the U.S. Entity continues to 
work with the research community to intensify regional monitoring, 
particularly temperatures and streamflow timing, using existing 
meteorological and streamflow data networks. This allows us to monitor 
whether the warming we are already observing in the region is beginning 
to impact our ability to manage floods, to meet electricity demands, 
and sustain ecosystems. Using this regional monitoring data and the 
best available science, operating criteria can be adapted in response 
to a changed climate.
    With respect to the relation of climate change to purposes of the 
Treaty, the latest climate change modeling by the Corps, BPA, 
University of Washington, USGS and others suggests that flood control, 
power production, and ecosystems could all be impacted by climate 
change. Thus, the U.S. Entity sees climate change, not as a proposed 
new primary purpose, but as an overarching issue which could impact all 
Treaty operations if the Treaty were to continue over the long term.
    Question 5a. The ``Canadian Entitlement'' as it has become known, 
is the amount of electric power the U.S. is obligated to deliver to 
Canada--equal to one-half the estimated downstream power benefits from 
the operation of Canadian Treaty storage. Currently, the entitlement 
requires the U.S. to deliver power to Canada worth approximately $250-
$350 million annually. However, the Treaty assumes that the power 
generation in the U.S is optimized for power generation even though our 
system operations have a number of competing demands, such as 
environmental requirements. How does Canada perceive the ``Canadian 
Entitlement''?
    Question 5b. How does the U.S. position differ?
    Question 5c. Do you agree with Dr. Karier's assessment that the 
U.S. is receiving only about one-tenth of the actual power benefits?
    Question 5d. Should the U.S. obligation to return power to Canada 
be reduced?
    Answer 5a. The Government of Canada, to our knowledge, has not 
asserted a formal perspective on the Canadian Entitlement.
    The Province of British Columbia, through the BC Ministry of Energy 
and Mines, released a paper on June 25, 2013 on, ``U.S. benefits from 
the Columbia River Treaty--Past, Present, and Future: A Province of 
British Columbia Perspective''. http://blog.gov.bc.ca/
columbiarivertreaty/files/2012/07/US-Benefits-from-CRT-June-25- 132.pdf 
. Further, the Province of British Columbia released its draft 
recommendation on the Treaty earlier this fall that included a 
statement about its view of the Canadian Entitlement in its second of 
14 principles. It reads, ``2. The ongoing impacts to the Canadian 
Columbia Basin to meet Treaty requirements should be acknowledged and 
compensated for. The level of benefits to the Province, which is 
currently primarily in the form of the Canadian Entitlement, does not 
account for the full range of benefits in the United States (U.S.) or 
the impacts in British Columbia.''
    Answer 5b. While the U.S. Entity cannot speak for the U.S. 
government on this point, the U.S. Entity perspective is that the 
Treaty should be modernized so that the payments to Canada post 2024 
should be based on an equitable sharing of the power benefits of a 
coordinated Canadian operation as compared to a non-coordinated 
operation. Based on the present formula developed in the 1960s, BPA 
estimates the Canadian share of the downstream benefits in 2024 is 
significantly greater than anticipated, and far exceeds the value of 
coordinated power operations under the Treaty.
    Answer 5c. Dr. Karier's assessment is based on only one specific 
predominant aspect of the Entitlement relative to its energy value. If 
we consider a more complete array of factors, however, preliminary 
estimates by BPA of one-half of the estimated actual value of Canadian 
coordination post 2024 range from 10 percent to 30 percent. This range 
considers other factors such as 1) certainty of operations, 2) firm 
energy value, and 3) seasonal shape and value of energy and capacity.
    Answer 5d. In the opinion of the U.S. Entity, yes, although this is 
a matter for the U.S. Government to decide. In our opinion, based on 
the present formula developed in the 1960s, the estimated value of the 
Canadian share of the downstream benefits in 2024 is significantly 
greater than anticipated, and far exceeds the value of coordinated 
power operations under the Treaty.
    Question 6. What is the Executive Branch doing to integrate the 
concerns raised by various groups in their public comments on the draft 
recommendations? Should Congress expect major changes to the draft 
recommendations?
    Answer. The U.S. Entity was tasked by the Department of State and 
the Interagency Policy Committee to produce a regional recommendation 
that reflects the broadest possible consensus. The regional 
recommendation was developed by the U.S. Entity in collaboration and 
consultation with the Pacific Northwest states and federally recognized 
Columbia Basin Tribes, a variety of stakeholders, and the public 
through the multi-year Columbia River Treaty Review process. As such, 
it is a regional recommendation only, not an Executive Branch Statement 
of Administration Policy. We have conducted extensive stakeholder and 
public outreach through workshops, panel discussions, and individual 
meetings, and amassed valuable perspectives, comments, and technical 
analyses.
    We have collated all the comments received on the June 27, 2013, 
working draft regional recommendation and the September 20, 2013, draft 
regional recommendation, and have continued to coordinate and seek 
input from sovereigns and interested stakeholders as we complete the 
recommendation.
    Changes to the recommendation have been made in an attempt to 
accommodate various perspectives, achieve as much regional consensus as 
possible, and ultimately to develop a modernized framework.
    Question 7. Do you support the continuation of this treaty with 
Canada?
    Answer. The determination on the future of the Treaty is within the 
purview of the U.S. Government. The U.S. Entity supports improving the 
Treaty for the benefit of all interests in the Pacific Northwest region 
and ensuring that the Treaty is sustainable for the long term.
                                 ______
                                 
      Responses of George Caan to Questions From Senator Murkowski

    Question 1. In your view, what have been the greatest strengths of 
the Columbia River Treaty over the last 50 years? What are its greatest 
shortcomings?
    Answer. The Columbia River is a magnificent asset that plays a 
central role in the Northwest's economy and cultural identity. It 
generates clean electricity to millions of people, avoids carbon 
emissions, provides habitat for fish and wildlife, offers recreational 
opportunities, provides water for navigation, and has been pressed into 
service to integrate wind into the electric grid.
    The Columbia River Treaty's (Treaty) greatest strengths remain the 
original reasons for its negotiation and adoption to provide hydropower 
and flood risk management to the Columbia River Basin.
    The Treaty's greatest shortcoming is the calculation of the 
Canadian Entitlement. When the Treaty was ratified, both the U.S. and 
Canada anticipated that the Treaty calculation of U.S. power benefits 
would result in a much smaller energy benefit by 2024, with any 
capacity benefit being eliminated even earlier due to certain 
assumptions such as high load growth and a large amount of thermal 
installations. The U.S. and Canada acknowledged that the real power 
benefits would be much less than the Treaty calculation due to 
additional U.S. storage reservoirs and transmission interconnections 
that are not included in the Treaty calculation.
    Question 2. The Draft Recommendation calls for adding a 
comprehensive Ecosystem Function as the third primary purpose (in 
addition to power production and flood control) of the Columbia River 
Treaty. How do you define Ecosystem Function? Would it include credit 
for actions already being done, such as compliance with the Endangered 
Species Act? Who will bear the costs of this new Ecosystem Function? Do 
you support the addition of this new Treaty purpose?
    Answer. The Power Group appreciates the U.S. Entity's 
acknowledgement in the September 20th Draft Recommendation that any 
expansion of the Treaty to include ecosystem function must ``formalize, 
provide certainty, and build on the many ecosystem actions already 
undertaken through annual or seasonal mutual agreements between the 
countries.'' The Power Group is concerned, however, that the ecosystem 
function recommendation remains vague and offers little certainty and 
structure. Without additional details, adding a sweeping and broad 
third primary purpose of the Treaty would lead to conflicting 
obligations and priorities. Further, the Draft Recommendation provides 
no explanation as to how an expanded Treaty would fit in with the 
numerous environmental programs currently in place within the Federal 
Columbia River Power System (FCRPS) and at the generating projects of 
Power Group members. These uncertainties could diminish, or threaten 
altogether, ecological benefits achieved after years of detailed 
studies, tireless investigations and negotiations, and at times, 
litigation. The uncertainties associated with ecosystem function, as 
presented in the Draft Recommendation, create significant risk to 
environmental resources and electric customers in the Northwest.
    Members of the Power Group are proud of their environmental 
stewardship and the progress that their significant efforts have made 
in protecting and managing fish and wildlife resources. This is why we 
urged the U.S. Entity to ``account for the significant ecosystem 
stewardship actions taken to date.'' By asking for this recognition, 
Power Group members were not merely seeking acknowledgement of our 
successful environmental programs, though it is important for 
stakeholders to have a robust understanding of the investments already 
undertaken. Rather, we are expressing concern that proposals to inject 
ecosystem functions at the Treaty level could have unintended 
consequences for existing, publicly developed programs in the U.S. that 
represent significant investments for electric customers. Treaty-
mandated changes in flow regimes, fish passage operations, or similar 
requirements could conflict or interfere with ongoing programs in the 
Columbia River Basin and harm the very resources Treaty-imposed 
ecosystem functions seek to protect.
    Any final recommendation to the State Department related to 
ecosystem function should carefully account for all ongoing efforts in 
the Basin, to ensure that the recommendation does not inadvertently 
conflict with, undermine, or disrupt these efforts--particularly those 
that were developed in close consultation and negotiations with the 
public, other federal and state resource agencies and Tribes, and 
environmental advocacy groups. Such ongoing programs include, for 
example:

  <bullet> The FCRPS Biological Opinion;
  <bullet> Requirements of Federal Energy Regulatory Commission 
        licenses, Habitat Conservation Plans, and other permitted 
        activities of Power Group Members; and
  <bullet> The Columbia Basin Fish Accords.

    Question 3. The ``Canadian Entitlement'' as it has become known, is 
the amount of electric power the U.S. is obligated to deliver to 
Canada--equal to one-half the estimated downstream power benefits from 
the operation of Canadian Treaty storage. Currently, the entitlement 
requires the U.S. to deliver power to Canada worth approximately $250-
$350 million annually. However, the Treaty assumes that the power 
generation in the U.S is optimized for power generation even though our 
system operations have a number of competing demands, such as 
environmental requirements. How does Canada perceive the ``Canadian 
Entitlement''? How does the U.S. position differ? Do you agree with Dr. 
Karier's assessment that the U.S. is receiving only about one-tenth of 
the actual power benefits? Should the U.S. obligation to return power 
to Canada be reduced?
    Answer. While the Canadian Entitlement is the financial lynchpin of 
the Treaty, the U.S. obligation under the Entitlement far exceeds the 
actual power benefit received. The U.S. Entity has estimated that the 
U.S.'s obligation under the Entitlement costs Northwest electric 
customers between $250 and $350 million in annual power benefits 
transferred by the U.S. to Canada, even though the U.S. Entity itself 
has estimated that one-half of the downstream power benefits received 
the U.S. would be worth about one-tenth of the exported electricity 
(valued at $25 to $30 million annually).
    This disparity is wholly unacceptable to the Power Group . We 
believe the U.S. has a duty on behalf of its citizens, and all 
Northwest electric customers in particular, to rebalance the Canadian 
Entitlement in a manner that ensure the U.S. obligation under the 
Treaty is commensurate with the power benefits actually received.
    The Province of British Columbia has issued several papers 
including a recent Draft BC Recommendation that acknowledges Treaty 
dams, ``in creating renewable energy that powers a large portion of the 
province, in providing jobs and economic spinoff to nearby communities, 
and contributing to the province's general revenue that supports 
services to all British Columbians.''
    Question 4. Has the Executive branch adequately captured your 
concerns and interests during the Treaty Review process?
    Answer. For three years, the U.S. Entity has led a review of the 
Columbia River Treaty. During most of this review, the Columbia River 
Power Group and other key stakeholders in the Northwest were largely 
excluded from the process established by the U.S. Entity. This process 
resulted in an initial recommendation that failed to capture the 
interests of the Power Group and its 6.4 million electric customers in 
the Northwest.
    Over the last three months, the U.S. Entity has actively sought 
more input from all Columbia River Treaty stakeholders including the 
Power Group. We appreciate the leadership demonstrated by the U.S. 
Entity as it seeks to craft a Final Recommendation to be delivered to 
the State Department on the future of the Columbia River Treaty. The 
Columbia River Power Group believes this high level engagement with all 
stakeholders should continue, and specifically, the Power Group should 
be included in the Administration's review of the Treaty in 2014 and 
follow-on engagement with Canada.
    Question 5. Do you support the continuation of this treaty with 
Canada?
    Answer. The Power Group encourages the U.S. government to engage 
directly with our Canadian neighbors, trading partners and allies to 
secure a mutually beneficial future for the Columbia River Treaty 
beyond 2024. The primary U.S. objective of engaging in any negotiations 
with Canada must be intensely focused on correcting the current 
inequity of the U.S. obligation under the Canadian Entitlement.
                                 ______
                                 
     Responses of Thomas Karier to Questions From Senator Murkowski

    Question 1. In your view, what have been the greatest strengths of 
the Columbia River Treaty over the last 50 years? What are its greatest 
shortcomings?
    Answer. The value of the Columbia River Treaty over the past 50 
years to both Canada and the Northwest has been significant. The treaty 
made the construction of three large hydroelectric projects in Canada 
possible when the United States agreed to split the downstream power 
benefits with Canada and pay for additional flood control. The entire 
Columbia River power system, with the addition of the Canadian 
projects, almost eliminated mainstem flood damage and ensured billions 
of dollars worth of power generation in both countries.
    Fulfilling the vision of the treaty, the dams were constructed and 
Canada was fully compensated for their costs. They are Canadian 
projects, owned and operated by Canada. But continuing the agreement as 
it was initially designed--to finance the construction of new dams--
would place a disproportionate economic burden on the Northwest while 
creating a windfall for Canada. For this reason, the current Canadian 
entitlement payment by the Northwest is unsustainable.
    In addition to correcting the entitlement formula, the region has 
identified other benefits that the United States should pursue in a 
modernized treaty. The two countries should go further than they have 
to date to incorporate scientifically defensible actions into treaty 
planning that provide benefits to fish and the ecosystem. We should 
also ensure that additional storage secured through the treaty will 
supplement both in-stream flows for the ecosystem and out-of-stream use 
for domestic water supply in Washington and Oregon. The final outcome 
should add these benefits in an equitable manner so that the Northwest 
achieves gains in all areas: power, flood risk, ecosystem and water 
supply. Along with these additional values, we can prepare the Treaty 
to better address climate change and protect ongoing benefits for 
recreation, transportation, water quality, irrigation, and cultural 
resources.
    Question 2. The Draft Recommendation calls for adding a 
comprehensive Ecosystem Function as the third primary purpose (in 
addition to power production and flood control) of the Columbia River 
Treaty. How do you define Ecosystem Function? Would it include credit 
for actions already being done, such as compliance with the Endangered 
Species Act? Who will bear the costs of this new Ecosystem Function? Do 
you support the addition of this new Treaty purpose?
    Answer. The ecosystem is a complex environment defined by physical 
conditions and living organisms. One purpose of the treaty should be to 
enhance the natural conditions in which native plants and animals 
survive and flourish.
    We have made significant progress in the Northwest, especially 
since 1980, in recognizing the importance of the ecosystem and trying 
to protect natural functions. Through various mechanisms, including the 
Northwest Power Act, the Endangered Species Act, the Clean Water and 
Clean Air Acts, and FERC relicensing, the Northwest has dedicated 
significant funding to restoring its health. The treaty should not be 
an exception. Where we find cost-effective and scientifically warranted 
opportunities to improve the ecosystem through treaty operations we 
should pursue them.
    The draft recommendations from the U.S. entity states that ``The 
health of the Columbia River ecosystem is a shared benefit and cost of 
the United States and Canada,'' and that ``United States interests 
should ensure that the costs associated with any Treaty operation are 
aligned with the appropriate party.'' These are the right principles to 
begin the discussion about who pays for ecosystem operations.
    The state of Washington supports incorporating ecosystem function 
into a modernized treaty, along with the other essential elements 
included in the draft recommendations.
    Question 3. Has the executive branch adequately captured your 
concerns and interests during the treaty review process?
    Answer. The draft recommendation does a good job of capturing the 
many interests represented by the state of Washington. Although we 
might have used different language, the essential message would have 
been the same: The State Department needs to involve the region in 
developing a new, modernized treaty with significant and balanced 
improvements in a number of areas.
    Question 4. Do you support continuing this treaty with Canada?
    Answer. We support developing and implementing an improved and 
modernized treaty. Under the current treaty, every three to five years 
the Northwest delivers approximately a billion dollars worth of carbon-
free hydropower to British Columbia in excess of actual downstream 
benefits. Also, the current treaty does not adequately incorporate 
ecosystem operations, water supply, or potential climate change 
impacts. For these reasons, the current treaty, as it is now 
implemented, is not sustainable for the long term.
                                 ______
                                 
     Responses of Kristin Meira to Questions From Senator Murkowski

    Question 1. In your view, what have been the greatest strengths of 
the Columbia River Treaty over the last 50 years? What are its greatest 
shortcomings?
    Answer. For nearly fifty years, the Columbia River Treaty has been 
a model of cross-border cooperation for management of a river system 
for critical flood protection and mutually beneficial hydropower 
production. As the time arrives for the United States and Canada to 
evaluate the future of their historic partnership, the original goals 
and successful implementation of the Treaty should be recognized. The 
Treaty was constructed to protect people and businesses from ravaging 
floods, and to coordinate the efforts of the U.S. and Canada as both 
nations sought to harness the strength of the Columbia River to provide 
power to a growing region.
    However, as the decades have passed, it has become clear that the 
original calculations which produced the Canadian Entitlement are 
flawed, and must be addressed by both nations. Rebalancing the Canadian 
Entitlement must be a major goal of the United States in any 
negotiations with Canada regarding the future of the Treaty. We would 
also strongly encourage continued cooperation to provide the same level 
of flood damage protection that is currently provided under the Treaty.
    Question 2. The Draft Recommendation calls for adding a 
comprehensive Ecosystem Function as the third primary purpose (in 
addition to power production and flood control) of the Columbia River 
Treaty. How do you define Ecosystem Function? Would it include credit 
for actions already being done, such as compliance with the Endangered 
Species Act? Who will bear the costs of this new Ecosystem Function? Do 
you support the addition of this new Treaty purpose?
    Answer. The current environmental programs underway in the Columbia 
River Basin are comprehensive and costly, and the result of decades of 
science and effort in both the United States and Canada. Though earlier 
versions did not recognize these activities, the current Draft Regional 
Recommendation notes that ``the region, principally through its 
electric utility ratepayers, has invested hundreds of millions of 
dollars annually to achieve ecosystem mitigation and improvements 
throughout the Basin.'' The current Draft also notes ``there are a 
number of domestic actions that have contributed, and will contribute, 
to ecological improvements in the Basin. These include the Federal 
Columbia River Power System Biological Opinion requirements under the 
Endangered Species Act, the Nez Perce Water Rights Agreements of 2004, 
actions under the Northwest Power and Conservation Council's Columbia 
River Basin Fish and Wildlife Program, actions under the Clean Water 
Act to improve water quality, and implementation of the Columbia Basin 
Fish Accords. In addition, there are numerous habitat and conservation 
programs and FERC license requirements associated with non-federal dams 
on the Columbia.''
    The United States and Canada already work together to manage flows 
for ecosystem function. The Draft Recommendation notes that ``in 1993 
the United States and Canadian entities began using the flexibilities 
in the Treaty to assist in meeting Endangered Species Act (ESA) 
requirements and to address ecosystem considerations on an annual basis 
through actions such as flow augmentation agreements.''
    Despite the recognition of the decades of cross-border cooperation, 
and significant programs in the United States to benefit ecosystem 
health in the Basin, the Draft Recommendation still suggests that 
``there is an opportunity for inclusion of certain additional ecosystem 
operations to expand, enhance, and complement these existing ecosystem 
investments as part of the post-2024 Treaty.'' This generalized idea of 
expansion does not appear to be the result of a federal agency study, 
nor is it tied to any specific proposal from a federal agency. This 
vague suggestion of ``more'' should not undermine the many ongoing 
programs already underway in the Basin, which are the product of years 
of science, multi-party collaboration and significant work in the water 
and on land to benefit our protected species. These publicly developed 
programs have resulted in billions of dollars already invested by 
Northwest electric customers and hundreds of millions of dollars in 
fish and wildlife programs each year.
    Question 3. The ``Canadian Entitlement'' as it has become known, is 
the amount of electric power the U.S. is obligated to deliver to 
Canada--equal to one-half the estimated downstream power benefits from 
the operation of Canadian Treaty storage. Currently, the entitlement 
requires the U.S. to deliver power to Canada worth approximately $250-
$350 million annually. However, the Treaty assumes that the power 
generation in the U.S is optimized for power generation even though our 
system operations have a number of competing demands, such as 
environmental requirements. How does Canada perceive the ``Canadian 
Entitlement''? How does the U.S. position differ? Do you agree with Dr. 
Karier's assessment that the U.S. is receiving only about one-tenth of 
the actual power benefits? Should the U.S. obligation to return power 
to Canada be reduced?
    Answer. The Columbia River Treaty review has provided an 
opportunity to highlight the fundamental need to reestablish an 
equitable distribution of power benefits between the U.S. and Canada. 
We agree with the Draft Recommendation's note that ``when the Treaty 
was ratified, the United States and Canada structured Canada's share of 
these benefits as one-half of the downstream power benefits with the 
Canadian Treaty projects as compared to without those projects. An 
equitable sharing of these benefits should instead be based on the more 
realistic measure of the power value of coordinated operations as 
compared to non-coordinated operations. Based on the present formula 
developed in the 1960s, the estimated value of the Canadian share of 
the downstream benefits in 2024 is significantly greater than 
anticipated, and far exceeds the value of coordinated power operations 
under the Treaty.''
    Question 4. Has the Executive branch adequately captured your 
concerns and interests during the Treaty Review process?
    Answer. The membership of the Pacific Northwest Waterways 
Association sincerely appreciates the efforts of the U.S. Army Corps of 
Engineers (Corps), Bonneville Power Administration (BPA), and the 
select representatives from the region who have given many hours of 
their time on the Sovereign Review Team (SRT). This historic Columbia 
River Treaty review effort was a unique endeavor for which there were 
not an abundance of existing federal templates for stakeholder 
participation. We recognize the efforts of the Corps and BPA to 
construct a review process to provide a regional recommendation in the 
time available.
    Moving forward, we would strongly recommend increased stakeholder 
involvement. It is critical that regional interests that would be 
impacted by changes to the river system--utilities, navigation, 
irrigators, and flood control authorities--have more opportunity to 
participate. These regional interests serve millions of Northwest 
residents through power delivery, facilitating trade routes for 
regional and national cargo, producing high-value crops, and protecting 
lives and businesses from floods. Their expertise is critical as 
proposed changes to river operations are contemplated.
    Question 5. Do you support the continuation of this treaty with 
Canada?
    Answer. The Columbia River Treaty has provided great benefits for 
both nations, and it is clear that continued cooperative management of 
the valuable--and sometimes dangerous--flows of the Columbia River is 
in the interest of both countries. The current review process provides 
the opportunity to correct outdated calculations for the Canadian 
Entitlement, while also addressing the need for continued management of 
the river system to mitigate the threat to human life and property from 
flood waters.
    Question 6. You testified that the Columbia River is essentially a 
river highway and is the nation's number one gateway for the export of 
wheat and barley. It appears that navigation stakeholders are most 
concerned with the Draft Recommendation of providing higher flows in 
the spring and summer which could impede the ability to safely and 
efficiently navigate the river. You further note that the ``ecosystem 
flows'' referred to throughout the Draft Recommendation are not backed 
up by scientific explanation or reference. Do you believe the U.S. 
Entity is not giving proper consideration to navigation issues? Do you 
expect any scientific explanation in a final document?
    Answer. Early drafts of the regional recommendation contained scant 
reference to navigation, and did not capture any of the concerns which 
had been repeatedly expressed by the navigation community. However, in 
the past few months we have been provided additional opportunities to 
provide feedback to the U.S. Entity. The latest version of the Draft 
Recommendation, circulated by the U.S. Entity on November 26, 2013, 
represents an improvement from earlier drafts in its inclusion of the 
importance of Columbia River navigation to the region and the nation, 
and the concerns expressed by navigation stakeholders.
    We appreciate the work of the Corps team over the past year to 
analyze potential impacts to navigation which would result from 
implementation of several of the flow regimes sought by some state and 
tribal members of the Sovereign Review Team. The desire of some for 
increased ``ecosystem flows'', and the reflection of this desire in 
early drafts of the regional recommendation with no reference to 
potential impacts to navigation and other authorized purposes, created 
great concern among many river system users. The current draft of the 
regional recommendation now notes that ``potential impacts to other 
river uses and infrastructure such as navigation, bridges, and other 
transportation features, hydropower, irrigation, recreation, fish and 
wildlife, and cultural resources will also be evaluated and 
addressed.''
    We would expect that any proposed change to existing river system 
operations would only result from a federally-authorized study, using 
the best available science.
    Thank you again for the opportunity to respond. Please do not 
hesitate to contact me with any questions you or the Members of the 
Committee may have.
                                 ______
                                 
        Response of Joel Moffett to Question From Senator Wyden

    Question 1. When the Treaty was first negotiated, tribes were not 
at the table. Now, most affected tribes are part of the Sovereign 
Review Team. Do you think your inclusion this time around will ensure 
our goal of steering clear of unintended consequences related to tribal 
interests?''
    Answer. Despite limited financial resources the 15 tribes have 
committed substantial policy and technical resources to participation 
in the Sovereign Review Team (SRT) process. The SRT has been an 
invaluable forum to introduce and vet the rights, interests and 
aspirations of the millions of residents of the Basin, including the 
tribal citizenry. Much has been accomplished in the SRT. Significant 
consensus has been forged. However, the essence of the SRT has not 
always been faithfully rendered in the draft US Entity recommendations. 
At this writing, we hold concerns that the final Recommendation may 
fall short of capturing both the Tribes' views and those of the broader 
SRT.
     Responses of Joel Moffett to Questions From Senator Murkowski
    Question 1. In your view, what have been the greatest strengths of 
the Columbia River Treaty over the last 50 years? What are its greatest 
shortcomings?
    Answer. The Treaty has performed well for its narrowly scoped 
purposes, hydropower and flood control. The Treaty's greatest 
shortcomings are dual: lack of tribal consideration and; failure to 
include ecosystem functions in its original, and current iteration. The 
regional sovereigns agrees that the Treaty can and should be 
modernized, specifically to include ecosystem function as a third 
primary purpose. It stands to reason that a modernized treaty should 
consider modernized governance. That might include full tribal 
participation in a new US Entity.
    Question 2. The Draft Recommendation calls for adding a 
comprehensive Ecosystem Function as the third primary purpose (in 
addition to power production and flood control) of the Columbia River 
Treaty. How do you define Ecosystem Function? Would it include credit 
for actions already being done, such as compliance with the Endangered 
Species Act? Who will bear the costs of this new Ecosystem Function?
    Answer. Columbia Basin Tribes view ecosystem-based function of the 
Columbia Basin watershed as its ability to provide, protect and nurture 
cultural resources, traditions, values and landscapes throughout its' 
length and breadth. Clean and abundant water that is sufficient to 
sustain healthy populations of fish, wildlife, and plants is vital to 
holistic ecosystem-based function and life itself. A restored, 
resilient and healthy watershed will include ecosystem-based function 
such as:

  <bullet> Increased spring and summer flows resulting in a more 
        natural hydrograph;
  <bullet> Higher and more stable headwater reservoir levels;
  <bullet> Restoring and maintaining fish passage to historical 
        habitats.
  <bullet> Higher river flows during dry years;
  <bullet> Lower late summer water temperature;
  <bullet> Reconnected floodplains throughout the river including a 
        reconnected lower river estuary ecosystem as well as reduced 
        salt water intrusion during summer and fall;
  <bullet> Columbia River plume and near shore ocean enhanced through 
        higher spring and summer flows and lessened duration of 
        hypoxia;
  <bullet> An adaptive and flexible suite of river operations 
        responsive to a great variety of changing environmental 
        conditions, such as climate change;

    Improved ecosystem-based function in the Columbia Basin Watershed 
is expected to result in at least:

  <bullet> Increased recognition, protection and preservation of tribal 
        first foods and cultural/sacred sites and activities. First 
        foods includes water, salmon, other fish, wildlife, berries, 
        roots, and other native medicinal plants.
  <bullet> An estuary with an enhanced food web and increased juvenile 
        fish survival;
  <bullet> Increases in juvenile and adult salmon survival;
  <bullet> Decreased mainstem travel time for migrating juvenile 
        salmon;
  <bullet> Increased resident fish productivity that provides stable, 
        resilient populations;
  <bullet> Increased wildlife productivity that provides stable, 
        resilient populations;
  <bullet> Salmon and other juvenile and adult fish passage to 
        historical habitats in the Upper Columbia and Snake River 
        basins, and into other currently blocked parts of the Columbia 
        River Basin.

    A modernized CRT needs to address the Columbia Basin using a 
watershed approach that integrates Ecosystem-based Function, 
hydropower, and flood risk management on both sides of the border.
    The tribes developed and offered this definition of Ecosystem 
Function to the Regional Sovereigns and the U.S. Entity. Despite this, 
the U.S. Entity has not adopted a definition of Ecosystem-based 
Function. The reason the Columbia Basin tribes developed the definition 
and offered it for use by the U.S. Entity and the other members of the 
Sovereign Review and Technical Teams was that the tribes' designees on 
the Sovereign Review Team were often asked by the U.S. Entity ``what do 
you mean by ecosystem-based function?'' The tribes thought it was 
important to provide the definition so that folks had a better context 
and understanding for our conversations. You'll find that it's really 
not much different than a standard text book definition, except that it 
probably has a greater focus on riverine and riparian ecosystems--that 
is, river-focused ecosystems. By way of example, very early in the 
process (December 2010), as Entity, federal, tribal and state staff 
were working on developing the Sovereign Participation Process 
structure, tribal staff had used ``ecosystem-based function'' in 
several places throughout the ``charter'' for the Sovereigns process--
and the Entity staff took it out and replaced it with ``salmon 
fisheries'' because they thought that is what the tribes meant. That 
event made it clear that a definition was needed for this process. 
Again, at this time we don't know that the Entity has adopted a 
definition--we would hope they adopt the tribes' proposed definition as 
we think it would help the State Department in their consideration of 
the regional recommendation.
    The flows and spills that are now part of the river and reservoir 
operations now provide a good platform upon which to build a more 
comprehensive, ecosystem-based approach. We've made a good start in the 
region, but we think we can do better with a comprehensive, bilateral 
approach with Canada, where they too are invested in the benefits of 
changed river and reservoir operations. Remember, the BiOp and the 
litigation over the BiOp are focused on recovery goals for ESA-listed 
salmon populations, as well as a few sturgeon and bull trout population 
needs. We're advocating for a more comprehensive approach than that, an 
ecosystem-based function approach for the watershed, where we're also 
taking into consideration goals and objectives for healthy and 
sustainable fish and wildlife populations.
    It's premature to attempt to estimate costs or define credits. It's 
far preferable to build a bi-nation ecosystem function and ethic into a 
new treaty to create shared benefits and obligations. In so doing, it 
makes sense to establish a new formula for calculating downstream 
benefits to ensure ratepayers are paying only for those benefits 
directly realized as hydropower production.
    Question 3. Has the Executive branch adequately captured your 
concerns and interests during the Treaty Review process?
    Answer. The tribes have had sustained engagement across the 
Administration including the U.S. Entity on all aspects of the Columbia 
River Treaty Review. It is apparent to us that the Administration 
itself has wide-ranging interests on the future of the Treaty ranging 
from agency mission-specific interests to the broader rubric of trade 
and national security. The US Entity's efforts to gather regional 
perspective in the form of a recommendation has not fully captured the 
concerns and interests of our tribes. As such, we reserve our 
opportunity for full consultation with the Administration post-regional 
recommendation to ensure our concerns and interests are captured.
    Question 4. Do you support the continuation of this treaty with 
Canada?
    Answer. We support a modernized treaty that includes ecosystem 
function as a new primary purpose. We could not support the 
continuation of status-quo due to the effects on the ecosystem and 
thereby tribal rights and interests.
    Question 5. To date, how has the Columbia River Treaty taken 
fisheries and ecosystem resources into account?
    Answer. Fisheries, particularly ESA-affected stocks, have been 
subject to annual negotiations for flows. These annual negotiations 
create uncertainty for the species, ratepayers and tribal rights.
    The Ecosystem, when taken as a whole, has been severely altered and 
compromised as a direct consequence of treaty requirements and ongoing 
implementation. As my testimony states, to prevent the chance of 
downriver floods, we've created permanent floods upriver. Our nations 
are unlikely to radically alter our hydropower and flood risk 
management infrastructure, but we can give equitable weight and 
consideration, through planning, forecasting and commitment to a 
healthy ecosystem.
                                 ______
                                 
     Responses of Norm Semanko to Questions From Senator Murkowski

    Question 1. In your view, what have been the greatest strengths of 
the Columbia River Treaty over the last 50 years? What are its greatest 
shortcomings?
    Answer. The greatest strengths of the Treaty over the last 50 years 
have been its ability to assist in effectively managing flood risk in 
the region and providing flows to support the region's hydropower 
system. The greatest shortcoming of the current Treaty is the change to 
``called upon'' flood protection in 2024 and the differing 
interpretations of this provision by the United States and Canada.
    Question 2. The Draft Recommendation calls for adding a 
comprehensive Ecosystem Function as the third primary purpose (in 
addition to power production and flood control) of the Columbia River 
Treaty. How do you define Ecosystem Function? Would it include credit 
for actions already being done, such as compliance with the Endangered 
Species Act? Who will bear the costs of this new Ecosystem Function? Do 
you support the addition of this new Treaty purpose?
    Answer. We do not support the addition of ``Ecosystem-Based 
Function'' as a third primary purpose of the Treaty. The term is not 
defined and means different things to different groups, as was apparent 
at the hearing. The Tribes' understanding of the term and the U.S. 
Entity's understanding are worlds apart. It is appropriate to recognize 
compliance with domestic environmental laws as an authorized purpose, 
similar to other authorized purposes such as water supply, irrigation, 
navigation and recreation. That should be the limit of the ecosystem 
component in the Treaty. Including ecosystem-based function as a 
separate, primary purpose of the Treaty will cause uncertainty and 
chaos in the operation of the river system for decades to come. It will 
also add untold costs to the region.
    Question 3. The ``Canadian Entitlement'' as it has become known, is 
the amount of electric power the U.S. is obligated to deliver to 
Canada--equal to one-half the estimated downstream power benefits from 
the operation of Canadian Treaty storage.
    Currently, the entitlement requires the U.S. to deliver power to 
Canada worth approximately $250-$350 million annually. However, the 
Treaty assumes that the power generation in the U.S. is optimized for 
power generation even though our system operations have a number of 
competing demands, such as environmental requirements. How does Canada 
perceive the ``Canadian Entitlement''? How does the U.S. position 
differ? Do you agree with Dr. Karier's assessment that the U.S. is 
receiving only about one-tenth of the actual power benefits? Should the 
U.S. obligation to return power to Canada be reduced?
    Answer. This topic lies outside of our area of expertise and we 
have no opinion on these matters. We defer to the opinions provided by 
the U.S. power interests in the region.
    Question 4. Has the Executive branch adequately captured your 
concerns and interests during the Treaty Review process?
    Answer. We believe that the U.S. Entity has listened to our 
concerns during the process. In particular, they have done an adequate 
job of addressing our concerns regarding ``called upon'' flood control 
procedures by advocating a position that only the eight authorized dams 
in the U.S. should be used to provide system flood control. 
Unfortunately, our concerns regarding ecosystem-based function have not 
been adequately addressed, as discussed in response to question 2 
above.
    Question 5. Do you support the continuation of this treaty with 
Canada?
    Answer. Yes.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
